<html>
<title> - H. RES. 755, IMPEACHING DONALD JOHN TRUMP, PRESIDENT OF THE UNITED STATES, FOR HIGH CRIMES AND MISDEMEANORS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                                
  H.RES. 755, IMPEACHING DONALD JOHN TRUMP, PRESIDENT OF THE UNITED 
                STATES, FOR HIGH CRIMES AND MISDEMEANORS

=======================================================================

                                MEETING

                                 of the

                           COMMITTEE ON RULES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                      TUESDAY, DECEMBER 17, 2019

                               ----------                              



                    Available via http://govinfo.gov
           Printed for the use of the Committee on Rules 
           
           
           
           
           





MEETING OF THE COMMITTEE ON RULES--H. RES. 755, IMPEACHING DONALD JOHN 
                                 TRUMP,
    PRESIDENT OF THE UNITED STATES, FOR HIGH CRIMES AND MISDEMEANORS
    
    
    



 
  H. RES. 755, IMPEACHING DONALD JOHN TRUMP, PRESIDENT OF THE UNITED 
                STATES, FOR HIGH CRIMES AND MISDEMEANORS

=======================================================================

                                MEETING

                                 of the

                           COMMITTEE ON RULES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, DECEMBER 17, 2019

                               __________
                               
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               



                    Available via http://govinfo.gov
             Printed for the use of the Committee on Rules
             
             
             
             
                              ______
                          

               U.S. GOVERNMENT PUBLISHING OFFICE 
 39-438                  WASHINGTON : 2020
             
             
             
             
                           COMMITTEE ON RULES

               JAMES P. MCGOVERN, Massachusetts, Chairman
ALCEE L. HASTINGS, Florida           TOM COLE, Oklahoma
  Vice Chair                           Ranking Republican
NORMA J. TORRES, California          ROB WOODALL, Georgia
ED PERLMUTTER, Colorado              MICHAEL C. BURGESS, Texas
JAMIE RASKIN, Maryland               DEBBIE LESKO, Arizona
MARY GAY SCANLON, Pennsylvania
JOSEPH D. MORELLE, New York
DONNA E. SHALALA, Florida
MARK DESAULNIER, California
                       DON SISSON, Staff Director
             KELLY DIXON CHAMBERS, Minority Staff Director
                                 ------                                

             Subcommittee on Legislative and Budget Process

                  ALCEE L. HASTINGS, Florida, Chairman
JOSEPH D. MORELLE, New York          ROB WOODALL, Georgia
  Vice Chair                           Ranking Republican
MARY GAY SCANLON, Pennsylvania       MICHAEL C. BURGESS, Texas
DONNA E. SHALALA, Florida
JAMES P. MCGOVERN, Massachusetts

                                 ------                                

          Subcommittee on Rules and Organization of the House

                   NORMA J. TORRES, California, Chair
ED PERLMUTTER, Colorado              DEBBIE LESKO, Arizona
  Vice Chair                           Ranking Republican
MARY GAY SCANLON, Pennsylvania       ROB WOODALL, Georgia
JOSEPH D. MORELLE, New York
JAMES P. MCGOVERN, Massachusetts

                                 ------                                

                  Subcommittee on Expedited Procedures

                     JAMIE RASKIN, Maryland, Chair
DONNA E. SHALALA, Florida            MICHAEL C. BURGESS, Texas
  Vice Chair                           Ranking Republican
NORMA J. TORRES, California          DEBBIE LESKO, Arizona
MARK DESAULNIER, California
JAMES P. MCGOVERN, Massachusetts


                            C O N T E N T S

                              ----------                              

                           December 17, 2019

Opening Statements:
                                                                   Page
    Hon. James P. McGovern, a Representative in Congress from the 
      State of Massachusetts and Chair of the Committee on Rules.     1
    Hon. Tom Cole, a Representative in Congress from the State of 
      Oklahoma and Ranking Member of the Committee on Rules......     4
Witness Testimony:
    Hon. Jamie Raskin, a Representative in Congress from the 
      State of Maryland and Member of the Committee on the 
      Judiciary..................................................     6
    Hon. Doug Collins, a Representative in Congress from the 
      State of Georgia and Ranking Member of the Committee on the 
      Judiciary..................................................    10
Questions and Additional Testimony:
    Hon. James P. McGovern, a Representative in Congress from the 
      State of Massachusetts and Chair of the Committee on Rules.    14
    Hon. Tom Cole, a Representative in Congress from the State of 
      Oklahoma and Ranking Member of the Committee on Rules......    31
    Hon. Alcee L. Hastings, a Representative in Congress from the 
      State of Florida...........................................    72
    Hon. Rob Woodall, a Representative in Congress from the State 
      of Georgia.................................................    93
    Hon. Norma Torres, a Representative in Congress from the 
      State of California........................................   102
    Hon. Michael C. Burgess, a Representative in Congress from 
      the State of Texas.........................................   107
    Hon. Ed Perlmutter, a Representative in Congress from the 
      State of Colorado..........................................   115
    Hon. Debbie Lesko, a Representative in Congress from the 
      State of Arizona...........................................   145
    Hon. Mary Gay Scanlon, a Representative in Congress from the 
      State of Pennsylvania......................................   168
    Hon. Joseph D. Morelle, a Representative in Congress from the 
      State of New York..........................................   180
    Hon. Donna E. Shalala, a Representative in Congress from the 
      State of Florida...........................................   189
    Hon. Mark DeSaulnier, a Representative in Congress from the 
      State of California........................................   191
Committee Mark-up:
    Mark-up of resolution providing for consideration of H. Res. 
      755........................................................   210
    Notice of Action.............................................   222
    H. Res. 767..................................................   223
    H. Rept. 116-355--Report to accompany H. Res. 767............   226
Additional Material Submitted for the Record:
    Letter to Chairman Nadler dated December 10, 2019............    16
    Document entitled ``How we resist Trump and his extreme 
      agenda'' by Hon. Jerry Nadler dated November 16, 2016......    32
    Memo from then-Chairman David Dreier re: ``Minority Hearing 
      Day'' dated June 8, 1999...................................    44
    Letter from Chairman McGovern to Ranking Republican Cole 
      dated December 16, 2019....................................    47
    Article by Andrew E. Kramer and Kenneth P. Vogel, New York 
      Times, entitled ``Ukraine Knew of Aid Freeze by Early 
      August, Undermining Trump Defense'' dated October 23, 2019.    65
    Excerpt from the Committee on the Judiciary's transcript of 
      mark-up of H. Res. 755.....................................    70
    Memorandum of Telephone Conversation declassified by order of 
      the President, dated July 25, 2019.........................    76
    Statement from Lieutenant General Keith Kellogg, National 
      Security Advisor to Vice President Mike Pence, dated 
      November 19, 2019..........................................   112
    Senate Oath for Impeachment Trial............................   116
    700+ Historians' Statement on the Impeachment of President 
      Trump......................................................   118
    Editorial by USA Today entitled ``Impeach President Trump'' 
      dated December 11, 2019....................................   122
    Article by Scott S. Barker, Colorado Lawyer, entitled ``An 
      Overview of Presidential Impeachment'' dated August/
      September 2018.............................................   126
    Opinion Editorial by Doug Collins, ranking member of the 
      House Judiciary Committee, entitled ``Articles establish 
      nothing impeachable and allege no crime''..................   134
    Prepared Statement of Hon. Debbie Lesko, a Representative in 
      Congress from the State of Arizona.........................   146
    Letter from President Donald J. Trump to Speaker Nancy Pelosi 
      dated December 17, 2019....................................   149
    Article by Natasha Bertrand and Andrew Desiderio, POLITICO, 
      entitled ``Ukraine didn't interfere in 2016, Trump 
      officials testified'' dated November 8, 2019...............   162
    Letter to Congress from 500+ Legal Scholars..................   172
    Letter from Hon. Michael C. Burgess, a Representative in 
      Congress from the State of Texas, to Speaker Nancy Pelosi 
      dated October 17, 2019.....................................   199
    Letter to Chairs Schiff, Engel, and Maloney dated October 18, 
      2019.......................................................   201
    Letter from Hon. Michael C. Burgess, a Representative in 
      Congress from the State of Texas, to Chairman Adam Schiff 
      and Ranking Member Devin Nunes dated October 22, 2019......   208
    Letter from Hon. Michael C. Burgess, a Representative in 
      Congress from the State of Texas, to Speaker Nancy Pelosi 
      dated November 4, 2019.....................................   209


  H. RES. 755, IMPEACHING DONALD JOHN TRUMP, PRESIDENT OF THE UNITED 
                STATES, FOR HIGH CRIMES AND MISDEMEANORS

                              ----------                              


                       TUESDAY, DECEMBER 17, 2019

                          House of Representatives,
                                        Committee on Rules,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 11:15 a.m., in Room 
H-313, The Capitol, Hon. James P. McGovern [chairman of the 
committee] presiding.
    Present: Representatives McGovern, Hastings, Torres, 
Perlmutter, Raskin, Scanlon, Morelle, Shalala, DeSaulnier, 
Cole, Woodall, Burgess, and Lesko.

                       OPENING STATEMENTS

    The Chairman. The Rules Committee will come to order.

STATEMENT OF THE HONORABLE JAMES P. MCGOVERN, A REPRESENTATIVE 
 IN CONGRESS FROM THE STATE OF MASSACHUSETTS AND CHAIR OF THE 
                       COMMITTEE ON RULES

    It is unfortunate that we have to be here today, but the 
actions of the President of the United States make that 
necessary. President Trump withheld congressionally approved 
aid to Ukraine, our partner under siege, not to fight 
corruption but to extract a personal political favor.
    President Trump refused to meet with Ukraine's President in 
the White House until he completed this scheme, all the while 
leaders in Russia, the very nation holding a large part of 
Ukraine hostage, the very nation that interfered with our 
elections in 2016, had yet another meeting in the Oval Office 
just last week.
    These are not my opinions. These are uncontested facts. We 
have listened to the hearings. We have read the transcripts, 
and it is clear that this President acted in a way that not 
only violates the public trust; he jeopardized our national 
security, and he undermined our democracy. He acted in a way 
that rises to the level of impeachment.
    That is why we are considering H. Res. 755 today, a 
resolution impeaching Donald John Trump, President of the 
United States, for high crimes and misdemeanors. Congress has 
no other choice but to act with urgency.
    You know, when I think back to the Founders of this Nation, 
they were particularly concerned about foreign interference in 
our elections. They understood that allowing outside forces to 
decide American campaigns would cause the fundamentals of our 
democracy to crumble, but the evidence shows that is exactly 
what President Trump did, not only allowed but solicited 
foreign interference, all to help him win his reelection 
campaign.
    What shocks me, quite frankly, about so many of my 
Republican friends is their inability to acknowledge that 
President Trump acted improperly. It seems the only Republican 
Members willing to admit the President did something wrong have 
either already retired or announced plans they intend to retire 
at the end of this Congress.
    I get it. It is hard to criticize a President of your own 
party, but that shouldn't matter here. I admired President 
Clinton when he was President of the United States, and I still 
do today but when this House impeached him, which I didn't 
agree with, I went to the House floor, and I said I thought 
what President Clinton did was wrong, because moments like this 
call for more than just reflexive partisanship. They require 
honesty, and they require courage. Are any Republicans today 
willing to muster the strength to say that what this President 
did was wrong?
    Now let me say again what happened here. The President 
withheld congressionally approved military aid to a country 
under siege to abstract a personal political favor. He did not 
do this as a matter of U.S. policy. He did this for his own 
benefit. That is wrong; and if that is not impeachable conduct, 
I don't know what is.
    Now, I have heard some on the other side suggest that this 
process is about overturning an election. That is absurd. This 
is about President Trump using his office to try and rig the 
next election. Now think about that. We like to say that every 
vote matters, that every vote counts. We learned in grade 
school about all the people who fought and died for that right. 
It is a sacred thing.
    You know, I remember as a middle schooler, in 1972, leaving 
leaflets at the homes of potential voters, urging them to 
support George McGovern for President, no relation by the way. 
I thought he had a great last name, and he was dedicated to 
ending the war in Vietnam and feeding the hungry and helping 
the poor. I remember even to this day what an honor it was to 
ask people to support him, even though I was too young to vote 
myself, and what a privilege it was later in life to ask voters 
for their support in my own campaigns.
    Now I have been part of winning campaigns, and I have been 
part of losing ones, too. People I thought would be great 
Presidents, like Senator McGovern, were never given that 
chance. Make no mistake: I was disappointed, but I accepted it. 
I would take losing an election any day of the week when the 
American people render that verdict, but I will never--and I 
mean I will never--be okay if other nations decide our leaders 
for us. And the President of the United States is rolling out 
the welcome mat for that kind of foreign interference.
    To not act would set a dangerous precedent, not just for 
this President but for every future President. The evidence is 
as clear as it is overwhelming. And this administration hasn't 
handed over a single subpoenaed document to refute it, not one. 
Now it is up to us to decide whether the United States is still 
a Nation where no one is above the law or whether America is 
allowed to become a land run by those who act more like kings 
or queens, as if the law doesn't apply to them.
    You know, it is no secret that President Trump has a 
penchant for cozying up to notorious dictators. He has 
complimented Vladimir Putin, congratulated Rodrigo Duterte, 
lauded President Erdogan, fell in love with Kim Jong Un. I can 
go on and on and on, and maybe the President is jealous that 
they can do whatever they want. These dictators are the 
antithesis of what America stands for, and every day we let 
President Trump act like the law doesn't apply to him, we move 
a little closer to them.
    Now, Benjamin Franklin left the Constitutional Convention 
and said: The Founders have created a Republic if you can keep 
it. There are no guarantees. Our system of government will 
persist only if we fight for it.
    And the simple question for us is this: Are we willing to 
fight for this democracy? I expect we will have a lot of debate 
here today. I hope everyone searches their conscience.
    To my Republican friends, imagine any Democratic President 
sitting in the Oval Office. President Obama, President Clinton, 
any of them, would your answer here still be the same? No one 
should be allowed to use the powers of the Presidency to 
undermine our elections or cheat in a campaign, no matter who 
it is and no matter what their party.
    We all took an oath not to defend a political party but to 
uphold the Constitution of the United States. History is 
testing us. We can't control what the Senate will do, but each 
of us can decide whether we pass that test, whether we defend 
our democracy, and whether we uphold our oath.
    Today, we will put a process in place to consider these 
articles on the House floor. And when I cast my vote in favor, 
my conscience will be clear.
    Before I turn to our ranking member, I want to first 
recognize his leadership on this committee. We take up a lot of 
contentious matters up here in the Rules Committee and often we 
are on different sides of many issues, but he leads with 
integrity, and he cares deeply about this House. There will be 
passionate disagreement here today, but I have no doubt we will 
continue working together in the future and side by side on 
this committee to better this institution.
    And let me also state for the record that Chairman Nadler 
is unable to be here today because of a family medical 
emergency, and we are all keeping him and his family in our 
thoughts and prayers.
    Testifying instead today is Congressman Raskin. He is not 
only a valued member of this committee but also the Judiciary 
and Oversight Committees. In addition, Congressman Raskin is a 
constitutional law professor. He has a very comprehensive and 
unique understanding of what we are talking about here today, 
and I appreciate him stepping in and testifying this morning.
    I also want to welcome back Ranking Member Collins, a 
former member of the Rules Committee, someone who I don't often 
agree with but someone who I respect nonetheless and appreciate 
all of his contributions to this institution.
    Having said that, I now will turn this over to our ranking 
member, Mr. Cole, for any remarks he wishes to make.

   STATEMENT OF THE HONORABLE TOM COLE, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF OKLAHOMA AND RANKING MEMBER OF THE 
                       COMMITTEE ON RULES

    Mr. Cole. Thank you very much, Mr. Chairman.
    Let me begin by reciprocating personal and professional 
respect for you and the other members of this committee as well 
because I do think very highly of each and every person on this 
committee and particularly of you, Mr. Chairman.
    But this is a day where we are going to disagree and 
disagree very strongly. It is, as you referenced, Mr. Chairman, 
a sad day, a sad day for me personally, for the Rules 
Committee, for the institution of the House, and for the 
American people.
    We are meeting today on a rule for considering Articles of 
Impeachment against a sitting President of the United States on 
the floor of the House of Representatives. This is not the 
result of a fair process and certainly not a bipartisan one. 
Sadly, the Democrats' impeachment inquiry has been flawed and 
partisan from day one. So I guess it should come as no surprise 
that the Democrats' preordained the outcome is also flawed and 
partisan.
    Seven weeks ago when this committee met to consider a 
resolution to guide the process for the Democrats' 
unprecedented impeachment inquiry, I warned that they were 
treading on shaky ground with their unfair and close process. 
Reflecting on how things have played out since then reaffirms 
my earlier judgment that this flawed process was crafted to 
ensure a partisan, preordained result. Unfortunately, this 
entire process was tarnished further by the speed with which my 
Democratic colleagues on the Judiciary and Intelligence 
Committees have rushed to deliver their predetermined judgment, 
to impeach the President for something, anything, whether there 
are stones left unturned or whether where there is any proof at 
all.
    There is no way this can or should be viewed as legitimate, 
certainly not by Republicans whose minority rights have been 
trampled on every step on the way and certainly not by the 
American people observing this disastrous political show scene 
by scene.
    As I have said before, unlike any impeachment proceedings 
in modern history, the partisan process prescribed and pursued 
by Democrats is truly unprecedented. And it contradicts Speaker 
Pelosi's own words. Back in March of this year she said, quote: 
Impeachment is so divisive to the country that, unless there is 
something so compelling and overwhelming and bipartisan, I 
don't think we should go down that path because it divides the 
country, unquote.
    The key word in that quote is ``bipartisan.''
    Indeed, during the Nixon and Clinton impeachments, the 
process for even opening the inquiry was considered on a 
bipartisan basis. Back then, both sides treated the process 
with the seriousness it deserved, negotiating and finding 
agreement across the aisle to ensure fairness and due process 
for all involved in the inquiries. But that is not the case 
today. Instead, Democrats have pushed forward using a partisan 
process that limited the President's right to due process, 
prevented the minority from exercising their rights, and 
charged ahead toward a vote to impeach the President, whether 
the evidence is there or not.
    I suppose I shouldn't be surprised by any of this. 
Democrats in the House have been pushing to impeach President 
Trump since before he was even sworn in. In December of 2017, 
when a current Democratic member of the House forced a vote on 
an impeachment resolution, 58 Democrats voted then to impeach 
the President Trump, even without an investigation and without 
any evidence to point to. And those numbers have only grown 
since then to the point where the majority is now pushing 
forward with a final vote on impeachment, heedless of where it 
takes the country and regardless of whether they have proven 
their case.
    Mr. Chairman, it didn't have to be this way. When she 
became entrusted with the gavel over the House this Congress, 
Speaker Pelosi assured us all that she would not move forward 
with impeachment unless it was bipartisan and unless there was 
a clear consensus in the country. Neither of those two 
commissions are present here.
    Indeed, the latest RealClearPolitics average of polls on 
impeachment shows the country evenly split, with 46.5 percent 
of Americans in favor of impeachment and 46.5 percent against. 
That is hardly what I would call a national consensus in favor 
of impeaching President Trump. When half of Americans are 
telling you that what you are doing is wrong, you should 
listen.
    I think this is especially the case, given how close we are 
to the next election. In 11 months, the American people are 
going to vote on the next President of the United States. Why 
then are we plunging the country into this kind of turmoil and 
this kind of trauma now when the voters themselves will resolve 
the matter one way or another less than a year from today? All 
it does achieve is make the political polarization and 
divisions in our country even worse. That makes no sense to me.
    Though we may be moving forward with a vote, I certainly do 
not believe the majority has proven its case or convinced the 
American people that the weeks of wasted time was worth it. And 
personally I believe the articles themselves are unwarranted. 
The majority is seeking to remove the President over something 
that didn't happen: the alleged quid pro quo with the President 
of Ukraine. Never mind that the foreign aid went to the Ukraine 
as it was supposed to and never mind that no investigations 
were required for the Ukraine to get the aid and never mind 
that the two participants in the famous conversation, President 
Trump and President Zelensky, said nothing inappropriate 
happened.
    According to the majority, however, a quid pro quo that 
never existed is an appropriate basis for removing the 
President from office, and yet even though the majority has not 
proven its case and even though there is no basis for 
impeachment, they are still moving forward today.
    What I cannot discern is a legitimate reason why, why the 
majority is moving forward when the process is so partisan, why 
they are moving forward when the American people are not with 
them, why they are moving forward when they haven't proven 
their case, and why they are moving forward when there is no 
basis for impeachment. Why? Why put the country through all 
this?
    It makes even less sense to me when we consider the 
realities of the United States Senate. We already know that the 
votes to convict and remove the President from office simply 
aren't there. Bluntly put, this is a matter that Congress as a 
whole cannot resolve on its own. Yet the majority is plunging 
forward, regardless of the needless drama or the damage to the 
institution and to the country, knowing full well that the end 
of the day the President will remain in office. And for what? 
Scoring political points with their party's base?
    Again, Mr. Chairman, this does not make any sense to me. We 
didn't need to go this route. We didn't need to push forward on 
a partisan impeachment process that had only one possible 
result, but we are here anyway, regardless of the damage it 
does to the institution and regardless of how much further it 
divides the country.
    As I said at the beginning, Mr. Chairman, this is a sad day 
for all of us, but it is especially sad for me, knowing that 
this day was inevitable, preordained from the start. No matter 
what happened, no matter where the investigations led, the 
Democratic majority in the House of Representatives was pushing 
since the day they took over to impeach President Trump. The 
facts don't warrant that, Mr. Chairman, and the process is 
unworthy of the outcome. The President should not be impeached, 
and I urge all Members, both here in the Rules Committee and 
tomorrow on the House floor, to vote no.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    And I appreciate your comments. Obviously, we have strong 
disagreements.
    And just one technical point I would like to make. None of 
us in this House have had an opportunity to vote on 
impeachment. The resolution that the gentleman refers to some 
of us opposed tabling because we thought it should go to 
committee where it could be appropriately evaluated, and that 
is what this process has achieved. The relevant committees have 
done their work and investigated the claims of wrongdoing by 
the President. And now the Judiciary Committee has recommended 
Articles of Impeachment. The first time anybody in this House 
will get an opportunity to vote on impeachment will be 
tomorrow.
    Having said that, I want to welcome both of our witnesses.
    And, Mr. Raskin, we will begin with you.

 STATEMENT OF THE HONORABLE JAMIE RASKIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Raskin. Thank you very much, Mr. Chairman.
    Good morning, Chairman McGovern. Good morning, Ranking 
Member Cole. Good morning to all of our distinguished 
colleagues on the House Rules Committee. And good morning to my 
friend, Mr. Collins.
    It is my solemn responsibility this morning to present for 
your consideration House Resolution 755 and the accompanying 
House Judiciary Committee report concerning the impeachment of 
Donald John Trump, President of the United States, for high 
crimes and misdemeanors committed against the people of the 
United States.
    I am appearing, as you said, Mr. Chairman, this morning in 
place of Chairman Nadler, who could not be with us. I am sure I 
speak for all the members of both the Judiciary Committee and 
the Rules Committee in sending strength, love, and prayers to 
Chairman Nadler's wife, Joyce, and all of our hopes for a 
speedy recovery.
    The Judiciary Committee, along with the other committees, 
which investigated President Trump's offenses--the Permanent 
Select Committee on Intelligence, the Committee on Foreign 
Affairs, and the Committee on Oversight and Reform--bring these 
articles with a solemn purpose and a heavy heart but in active 
faith with the constitutional oaths of office that we have all 
sworn.
    The investigating committees conducted 100 hours of 
deposition testimony with 17 sworn witnesses and 30 hours of 
public testimony with 12 witnesses. The Judiciary Committee is 
now in possession of overwhelming evidence that the President 
of the United States has committed high crimes and 
misdemeanors, violated his constitutional oath to faithfully 
execute the Office of the President of the United States and to 
the best of his ability to preserve, protect, and defend the 
Constitution of the United States, and violated his 
constitutional duty to take care that the laws are faithfully 
executed.
    We present two Articles of Impeachment supported by 
hundreds of pages of detailed evidence and meticulous analysis. 
The evidence and analysis lead inescapably to the conclusions 
embodied in these Articles of Impeachment.
    First, President Trump has committed the high crime and 
misdemeanor of abuse of office. He abused the awesome powers of 
the Presidency by using his office to corruptly demand that a 
foreign government interfere in our American Presidential 
election in order to promote his own political campaign in 
2020. He corruptly conditioned the release of $391 million in 
foreign security assistance that he held back from the 
Ukrainian Government, along with a long hoped-for White House 
Presidential meeting. He conditioned those on Ukrainian 
President Zelensky's agreement to go public with two 
statements. One statement was announcing a criminal 
investigation into former Vice President Joe Biden, a leading 
Presidential candidate and rival of the President. The other 
statement was announcing an investigation that would 
rehabilitate a discredited pro-Russian conspiracy theory by 
showing that it was Ukraine and not Putin's Russia that tried 
to disrupt the last American Presidential election in 2016.
    This scheme to corrupt an American Presidential election 
subordinated the democratic sovereignty of the people to the 
private political ambitions of one man: the President himself. 
It immediately placed the national security interests of the 
United States of America at risk, and it continues to embroil 
the Nation and our government in conflict.
    Second, after this corrupt scheme came to light and 
numerous public servants with knowledge of key events surfaced 
to testify in our committee investigations about the 
President's actions, President Trump directed the wholesale, 
categorical, and indiscriminate obstruction of this 
congressional impeachment investigation. He did so by ordering 
a blockade of administration witnesses, by trying to muzzle and 
intimidate witnesses who did come forward, and by refusing to 
produce even a single subpoenaed document.
    In the history of the Republic, no President other than 
this one has ever claimed and exercised the unilateral right 
and power to thwart and defeat a House Presidential impeachment 
inquiry. Yet that would have been the final and unavoidable 
result of the President's outrageous defiance of Congress, had 
17 brave witnesses not come forward in the face of the 
President's threats and testified about the Ukraine shakedown 
and its scandalous effects on our national security, our 
democracy, and our constitutional system of government.
    But make no mistake. While this investigation was saved by 
the courage and old-fashioned patriotism of witnesses like 
Ambassador William Taylor, Ambassador Mari Yovanovitch, 
Lieutenant Colonel Alexander Vindman, and Dr. Fiona Hill, the 
President's aggressive and unprecedented resistance to 
congressional subpoenas for witnesses and documents is 
blatantly and dangerously unconstitutional. If accepted and 
normalized now, it will undermine perhaps for all time the 
congressional impeachment power itself, which is the people's 
last instrument of constitutional self-defense against a 
sitting President who behaves like a King and tramples the rule 
of law. By obstructing an impeachment inquiry with impunity, 
the President will have the power to actively destroy the 
people's final check on his own corrupt misconduct and abuse of 
power.
    The Framers insisted that we have impeachment in the 
Constitution precisely to protect ourselves from a President 
becoming a tyrant and a despot, and we cannot and we will not 
allow the impeachment power itself to be destroyed.
    These articles charge that President Trump has engaged in 
systematic abuse of his powers, obstructed Congress, and 
realized the worst fears of the Framers by subordinating our 
national security and dragging foreign powers into American 
politics to corrupt our elections, all for the greater cause of 
his own personal gain and ambition.
    Article I, section 4, of the Constitution provides that the 
President shall be impeached for treason, bribery, or other 
high crimes and misdemeanors. This is the essential check that 
the people's representatives maintain over the executive 
branch. As our constitutional expert witnesses testified, the 
Framers sought to capture a broad range of Presidential 
misconduct and wrongdoing through this provision. But the 
commanding and comprehensive impulse for including the 
impeachment power in the Constitution was to prevent the 
President's abuse of power, which the Framers saw as the very 
essence of impeachable conduct. In Federalist No. 65, Hamilton 
wrote that impeachable offenses are defined by abuse of some 
public trust.
    From the Federalist Papers and the records of the 
Constitutional Convention and the ratifying conventions, we 
find that the Framers feared principally three kinds of 
betrayal of office by abuse of power: abuse of power by 
exploiting public office for private political or financial 
gain, number one; number two, abuse of power by betraying the 
national interest in the public trust through entanglement with 
foreign governments; and, number three, abuse of power by 
corrupting democratic elections and denying the people proper 
agency through self-government. Accord to the Framers, any one 
of these violations of the public trust would be enough to 
justify Presidential impeachment for abuse of power. However, 
President Trump's conduct has realized all three of the 
Framers' worst fears of Presidential abuse of power.
    Never before in American history has an impeachment 
investigation crystalized in findings of conduct that implicate 
all of the major reasons that the Framers built impeachment 
into our Constitution.
    Mr. Chairman, the conduct we set before you today is not 
some kind of surprising aberration or deviation in the 
President's behavior for which he is remorseful. On the 
contrary, the President is completely unrepentant and defiantly 
declares his behavior here perfect, indeed absolutely perfect. 
He says that Article II of the Constitution gives him the power 
to do whatever he wants, conveniently forgetting Article II, 
section 4, which gives us the power to check his misconduct 
with the instrument of impeachment.
    We believe this conduct is impeachable and should never 
take place again under our constitutional system. He believes 
his conduct is perfect. And we know, therefore, that it will 
take place again and again.
    Indeed, our report points out that this pattern of showing 
spectacular disrespect for the rule of law by inviting and 
welcoming foreign powers into our elections was in plain view 
in the 2016 Presidential election. America remembers when then-
candidate Donald Trump uttered the imperishably infamous words: 
Russia, if you are listening, I hope you are able to find the 
30,000 emails that are missing.
    And just 5 hours later, Russian agents moved to hack his 
political opponent's computers as part of their continuing 
effort to upend the 2016 Presidential campaign.
    As identified by the Justice Department, the Trump campaign 
had more than 100 contacts with Russian operatives over the 
course of that campaign, and none of them were reported by the 
Trump campaign to law enforcement or national security 
agencies. Moreover, during the special counsel investigation 
into the sweeping and systematic Russian campaign to subvert 
our election, President Trump engaged in another systematic 
campaign of obstruction of the investigative process to obscure 
his own involvement.
    Mr. President--Mr. Chairman, we present you not just with 
high crimes and misdemeanors but a constitutional crime in 
progress up to this very minute. Mayor Giuliani, the 
President's private lawyer, fresh from his overseas travel, 
looking to rehabilitate, once again, the discredited conspiracy 
theories at the heart of the President's defense, admitted that 
he participated directly in the smear campaign to oust 
Ambassador Yovanovitch from her job.
    According to The New Yorker magazine, Giuliani said: I 
believe I needed Yovanovitch out of the way. She was going to 
make the investigations difficult for everybody.
    And here, of course, Mr. Giuliani refers to the President's 
sought-after investigations into Joe Biden and the remnants of 
a discredited conspiracy theory pushed by Russia as propaganda 
that it was Ukraine and not Russia that interfered in the 2016 
American Presidential election.
    Given that an unrepentant President considers his behavior 
perfect, given that he thinks the Constitution empowers him to 
do whatever he wants, given that he and his team are still 
awaiting President Zelensky's statement about investigating Joe 
Biden, given that he has already invited China to perform an 
investigation of its own, we can only ask what the 2020 
election will be like or, indeed, what any future election in 
America will be like if we just let this misconduct go and 
authorize and license Presidents to coerce, cajole, pressure, 
and entice foreign powers to enter our election campaigns on 
behalf of the Presidents. Who will be invited in next?
    The President's continuing course of conduct constitutes a 
clear and present danger to democracy in America. We cannot 
allow this misconduct to pass. It would be a sellout of our 
Constitution, our foreign policy, our national security, and 
our democracy.
    Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Thank you very much.
    Mr. Collins, welcome back to the Rules Committee.

 STATEMENT OF THE HONORABLE DOUG COLLINS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Collins. Thank you, Mr. Chairman. It is good to see you 
and Mr. Cole as well and members who I have spent many hours in 
this room with.
    You know, the chairman made a statement about my friend 
here, Mr. Raskin, and he is a fine attorney, and it has been 
amazing to me throughout this year how the Judiciary Committee 
has sidelined fine attorneys like himself into not asking 
questions and into not being a part of the process. It has been 
really interesting to watch because he is actually a good one. 
And as you said, he is a good constitutional attorney.
    I am not a constitutional attorney. I am a pastor and an 
attorney from north Georgia, but I believe that you can take 
another look at this and you can apply constitutional lenses. 
We all sat through those classes, but it is a commonsense lens. 
It is a commonsense lens. Mr. Cole made a question--a comment 
in his opening statement. He says--you said, Mr. Cole, you 
said: It doesn't make sense.
    Yeah, it does. It makes perfect sense. Look at the pattern. 
You know, the only thing that is clear and present danger right 
now in this room is the pattern of attack and abuse of rules 
and decisions to get at this President that started over 3 
years ago, really the night he was elected.
    And I said the other day in the committee hearing, I 
thought about, you know, having the means and the motive and 
the opportunity. The opportunity for this day occurred last 
November when we lost the majority. It occurred because it was 
talked about for years in prior, and so now we just bring it 
forward, and we have tried a lot of different things to get 
there, and we will talk about that, I am sure, as the time goes 
on today.
    And, look, we can have plenty of time to talk about the 
articles and the very vague articles that we did. It is pretty 
interesting, if you read the report from the majority, there is 
a lot of discussion about crimes, but they couldn't find it in 
themselves to charge one. Again, common sense. Articles, and 
when you think about impeachment, you are thinking about 
impeaching a President in particular for crimes. You are 
thinking about--you are sitting now, and this majority has 
tried to so hard to be like Clinton and Nixon and failed so 
miserably, but every time we try, when we try once again, 
except the one thing, when it came down to the very end, the 
one thing they couldn't do is actually find a crime. They talk 
about it a bunch.
    And if you read the majority's report, it is well-written. 
It is some of the best work you will see, frankly, in some ways 
a fictional account of what this actually is, but it actually 
talked about it, that the problem here is a majority bent on 
finding something for this President.
    So, Mr. Cole, it is not a surprise. In fact, it is a sad 
day not only for the Rules Committee but for the Judiciary 
Committee.
    You know, it is telling that the Articles of Impeachment, 
to show you how partisan this is and really the concerning part 
that I see--and Mr. McGovern is a friend, and we disagree, and 
you are exactly right. We disagree probably on a lot of things. 
Is this glass half full, half empty? And that is fine. That is 
what we are supposed to do. That is what our voters send us 
here for, but to find ways to actually work. We have worked 
together.
    The question I have here is: If this was, as the Speaker 
said, supposed to--should be overwhelmingly bipartisan and the 
American people understand it, then why are we in the Rules 
Committee today? When it was with Clinton, it was a UC straight 
to the floor. It wasn't, didn't have to come to the Rules 
Committee because both sides could see there was something 
needing to be discussed. And that is not true here. And so we 
are having to bring it up here to the Rules Committee, a place 
that I have spent many hours and many of us on this group have 
discussed many things, but this should not be one of them.
    You know, it is interesting and I hear a lot today and I 
have heard already from Mr. Raskin, and from the chairman as 
well, the discussion of the Founders, and it is interesting. We 
cherry-pick the Founders, and that is okay. That is what 
partisans do. When you are in a partisan impeachment, you 
cherry-pick the Founders, if you like this partisan work, if 
you like the other partisan.
    But the one that is not mentioned is the very thing that we 
are here for, and that was found, I believe it was in 
Federalist I think it was 65. It was Hamilton when he said 
this. He said the Founders warned against a vague, open-ended 
charge because it could be applied in a partisan fashion by the 
majority of the House of Representatives against an opposition 
President. Alexander Hamilton called partisan impeachment, 
regulated by more of the comparative strength of parties than 
the real demonstration of innocence or guilt, the greatest 
danger. And, additionally, the Founders explicitly excluded the 
term ``maladministration'' from the impeachment clause because 
they did not want to subject Presidents to the whims of 
Congress, their words.
    James Madison said: So vague a term, it will be the 
equivalent to a tenure during the pleasure of the Senate.
    And I would say it would be a tenure to the pleasure of 
this House. When we understand what is going on here, when we 
look at the discussions here, there are many things that I want 
to talk about. But the first I want to do is, when we talk 
about how we get to a certain place, proper process leads to 
proper results, and we have not had any of that in this 
process. I have always said and I have said it many times in 
our discussions lately is that this is all about a clock and a 
calendar. It has been for a while. Since January when we were 
sworn in, it is about a clock and a calendar.
    Why do I say that? Because we had to get to it by the end 
of the year because, if we went into the next year, it would be 
really too close, especially from the House's perspective, to 
the elections that they are trying to interfere with. And, yes, 
they're trying to interfere with elections, the 2020 election, 
by actually beginning this process and then going forward.
    Now the conduct is not conduct that respects the American 
people. The clock and the calendar know no masters except 
themselves. You see, our committee held its first hearing on 
December 4th, literally the day after Schiff publicly released 
his report. In the first minutes of the hearing, Mr. 
Sensenbrenner furnished the chairman with our demand for a 
minority day of hearings. The chairman also set a deadline of 
December 6th for Republicans and the President to request 
additional witnesses, but it wasn't until Saturday, the day 
after the deadline, that Chairman Schiff transmitted 8,000 
pages of material to the Judiciary Committee, and we still 
haven't gotten everything, not that it matters to the majority.
    For institutionalists, this should bother you. You can 
still go ahead and vote for your ``yes'' tomorrow and vote for 
``yes'' today and do that, but it should matter for this 
institution that, while I was in Georgia, I received a call 
from my staff saying they just released 8,000 documents on a 
thumb drive, some of which were going to be kept in a secure 
holding. And when I asked the chairman about these documents, 
where are they going to be used, he said: Well, we are not 
going to read them either. We are not going to have a chance to 
go through them. We are just going to go ahead with what we are 
doing.
    That is from my chairman, whom I respect greatly. We have 
done a lot of things together, but it has been very difficult 
when, in a hearing of this magnitude, how can anyone, 
Republican or Democrat, actually go back and look at their 
constituents in the face and say, ``We looked at all the 
evidence, I looked at everything, and I came to this 
conclusion''? No, we cherry-picked the evidence, and we only 
used what we wanted to because that material, which by the way 
has still not all been released, there is the inspector 
general, IG, report that is still--has not been released.
    Now, whether it is good or bad is irrelevant. But when you 
are talking about impeaching a President, shouldn't the 
underlying evidence sent to Judiciary Committee actually 
matter? Again, it doesn't take constitutional experts coming in 
and telling us about it. It takes common sense to know that you 
don't impeach somebody without at least making all the evidence 
proper, but you know that is what happens when you are to the 
tyranny of a clock and a calendar.
    When you are at the tyranny of a clock and a calendar, 
nothing else matters. It is like what is going to happen here 
in the holidays is you are getting close to that day and you 
are supposed to give that gift. Nothing else matters. You just 
got to get it. At the last minute, if you don't have anything, 
Mr. Hastings, I bet you have done this. You go out, and you buy 
first thing you get.
    And this is what was happening. The clock was running out. 
So they found a phone call they didn't like. They didn't like 
this administration. They didn't like what the President did. 
They tried to make up claims of it. There was pressure and all 
these other things that they have so outlined in the report, 
but at the end of the day, it is simply last-minute Christmas 
shopping. They ran and found something. They said, ``We can do 
it,'' but no crimes, nothing in the articles. Abuse of power, 
in which any Member can make up anything they want to and call 
it an abuse of power, but in the report, they document bribery 
and extortion and all these other things which they can't put 
into the articles.
    And then the obstruction of justice, again, is sort of 
interesting, what I just read, Chairman Schiff transferred on a 
Saturday 8,000 pages of what we were supposed to be looking at 
for the next hearing.
    We submitted our list of witnesses to Nadler the day--Mr. 
Nadler before Schiff--we submitted it before Schiff had sent us 
anymore evidence. Last Monday, we had hearing so Schiff's staff 
and Nadler's consultants could tell us that the President needs 
to be impeached. Again, nothing from Chairman Schiff who had 
made the reference to himself being like Ken Starr. But for 
those in this room who have at least opened a history book, Ken 
Starr actually came and testified and took questions from 
everyone, including the White House counsel.
    On Monday, the chairman objected to all of our witnesses 
out of hand. And on Tuesday, the morning after, the 
presentation of articles were unveiled. Remember, think about 
this: No factual-based witnesses. We had a bunch of law 
professors, one for us. By the way, I did ask for another one. 
Didn't get it. No reasoning. We just went back. We are in 
impeachment hearings, and we went back to the normal three-to-
one ratio. I asked for one more and basically didn't get it. It 
was an interesting conversation between the chairman and I. 
Didn't get it.
    Then we came in and got our witness list summarily 
dismissed. We get information dumped to us in the middle of 
what we are supposed to be doing, right before we are having to 
have hearings, before we had to--after the fact we had to turn 
in our witness list.
    Judge, I don't think this would fly in any regular normal 
court proceeding because I know this is not. So before anybody 
wants to tweet or say anything, ``We are not in a court.'' I 
know that. We are in a kangaroo court, it feels like in this 
place, because all of this is backwards. What is up is down, 
and down is up. We are more Alice in Wonderland than we are 
House of Representatives because, whether you agree he needs to 
be impeached or not, do you not think there needs to be a 
modicum of process and rights?
    All of this is true. The rules completely aside; the 
minority hearing date, broken; access to committee records 
rules, broken; due process for the accused in impeachment, 
completely out the window; Rules for decorum and debate, we 
have seen that broken, even on the House floor. H. Res. 660, 
the authorization for this whole thing, the chairman could have 
used it to run a fair process. Unfortunately, we didn't.
    The problem comes down today is there are several things I 
am going to leave you with, Mr. Chairman, and this is it. After 
all that has been said, all that has been talked about, and all 
that has went in that wonderfully written report, there is four 
facts that will never change: Both the President and Mr. 
Zelensky say there was no pressure. The call transcript shows 
no conditionality in aid and in investigation.
    By the way, Mr. Sondland, their key witness, the only thing 
they ever quote is his opening statement. They don't like to 
quote when he actually was questioned, when he said: Well, 
yeah, I presumed that.
    And then, when you talk about Mr. Yermak, Mr. Yermak said: 
We didn't have any conversation about conditionality of aid.
    That one just come out just the other day. I am not sure 
where we are getting this, but this definitely wasn't in the 
call transcript.
    Ukrainians were not aware the aid was withheld, even when 
the President spoke. And Ukrainians did not open 
investigations, didn't get a meeting, and still got their aid.
    But what did we see last week and over the past 2 weeks? We 
saw Mr. Zelensky, President Zelensky, pilloried in our 
committee. He is either a liar, a pathological liar, according 
to the majority, or he is so weak he shouldn't be governing 
that country. That is tragic. We actually did that to this 
sitting world leader in our committee.
    These are the kind of things that bother many of us, but 
also I know this is also on the clock and the calendar, too. We 
will have a few hours here. We will talk about it, but I will 
remind my majority friends, and I do consider you friends, the 
clock and the calendar are terrible masters and they lead to 
awful results and, yes, there will be a day of reckoning. The 
calendar and the clock will continue, but what you do here and 
how we have trashed the process in getting here will live on, 
and it will affect everything that we have come for.
    And so whatever you may gain will be short-lived because 
the clock and the calendar also recognize common sense which 
has not been used in this proceeding.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    I want to thank both of you for your opening statements.
    Mr. Collins, you raised the issue why we are here in the 
Rules Committee today. And let me just state for the record 
that, as you know, the Constitution gives the House the sole 
power of impeachment and the power to determine its own rules. 
You know, when President Nixon, during the time he was going to 
be impeached, the chairman of the Rules Committee, Chairman 
Madden, actually spoke on the House floor and announced there 
would be a rule governing how that proceeding would move 
forward.
    When the Clinton Articles of Impeachment were brought 
forward, there was a unanimous consent agreement to govern how 
we conducted ourselves. And I am not sure how likely it would 
be that we would get a unanimous consent agreement.
    I would like to ask unanimous consent, without objection, 
to enter into the record a letter that was sent to the chairman 
of the Judiciary Committee, signed by, I think, 70 Republican 
Members, including Kevin McCarthy, the Republican leader.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Basically--let me read the key line here--
``we will avail ourselves of every parliamentary tool available 
to us in committees and on the House floor to highlight your 
inaction''--translated means to try to delay and to make this 
process as impossible as it can be made. I am not sure, in 
light of this letter, that we could get a unanimous consent 
agreement with regard to these proceedings to break for a cup 
of coffee, never mind determine the rules of engagement. So, I 
would point that out.
    In terms of process, I just want to, again, state for the 
record, because I think it is important, that I think the House 
has engaged in a fair impeachment inquiry process. Democrats 
and Republicans have had equal opportunity to participate in 
the months' long impeachment inquiry. Members of both parties 
have been involved at every stage in this process, from sitting 
in and asking questions in closed-door depositions to 
questioning witnesses in open hearings.
    The committees took more than a hundred hours of deposition 
testimony from 17 witnesses, held 7 public hearings, which 
included Republican-requested witnesses. They produced a 300-
page public report that laid out their findings and evidence. 
The Judiciary Committee then took that report and conducted two 
public hearings, evaluating the evidence and legal standard for 
impeachment, before reporting the two articles that we are 
dealing with here today.
    And I should also point out that President Trump was 
provided an opportunity to participate in the Judiciary 
Committee's review of the evidence presented against him, as 
President Clinton was during his impeachment inquiry. President 
Trump chose not to participate. President Trump to date has not 
provided any exculpatory evidence but instead has blocked 
numerous witnesses from testifying about his actions.
    And so, I just thought it was important to point that out.
    Mr. Raskin, I saw you scribbling furiously while Mr. 
Collins was testifying. I don't know whether there is something 
that you wanted to respond to.
    Mr. Raskin. Well, thank you, Mr. Chairman. My friend, Mr. 
Collins, speaks very fast. So it is hard to keep up with 
everything he is saying but a couple of things----
    Mr. Collins. This is as slow as I have spoken.
    The Chairman. That is all right. I am from Massachusetts, 
and people say the same thing about my accent.
    Mr. Collins. I will tell you most anything, but today you 
got to give me credit. That was as slow as you have ever heard 
me.
    Mr. Raskin. I give you credit. You were making an effort at 
the beginning, and so was I. They accuse me of the same.
    Let me--he raises some really important points, and I would 
love the chance to briefly address them.
    One thing that we have been hearing is that we didn't 
charge crimes, and in some sense, that just duplicates a basic 
confusion that people have about what the process is. We are 
not criminal prosecutors prosecuting a criminal defendant in 
court to send to jail. That is not what we are doing. We are 
Members of Congress who are working to protect the country 
against a President who is committing high crimes and 
misdemeanors, that is, constitutional offenses against the 
people of the country.
    Now lots of the conduct that we plead in our specific 
articles alleging abuse of power and obstruction of Congress 
themselves could become part of criminal indictments later on, 
but it has been a curious thing for me to hear our colleagues 
across the aisle repeatedly make this point and kind of spread 
this confusion that there are not crimes in there when they 
were the very first ones to be saying and continue to say the 
Department of Justice cannot prosecute the President; the 
President may not be indicted; the President may not be 
prosecuted while he is in office. That is the position they 
take.
    They then cannot turn around and say: Oh, and you can't 
impeach him because you haven't charged him with any crimes and 
prosecuted him and indicted him.
    You see, ``heads, I win; tails you lose'' is the essence of 
that argument.
    And, of course, if you go back to the Richard Nixon case, 
we didn't have to see that Richard Nixon had been convicted of 
burglary in the District of Columbia by ordering the break-in 
of The Watergate Hotel before he was accused--before he was 
charged with abuse of power as a high crime and misdemeanor. 
That is exactly what we are charging President Trump with here. 
We don't have to first go out and prove that he committed 
bribery or committed honest services fraud or committed 
extortion, all things that he really could be prosecuted for 
later. We simply have to allege the course of constitutional 
criminal conduct he was engaged in. And so I think that we can 
set that one aside.
    A second thing that my friend said was that there were no 
fact witnesses, that this was based on the report that was 
delivered to us by the House Committee on Intelligence. And, of 
course, that is a play on words, too. There were 17 fact 
witnesses who appeared before the House Committee on 
Intelligence, the House Oversight Committee, and the House 
Foreign Affairs Committee. The way we structured this 
impeachment process, which is completely our prerogative under 
Article I, section 2, clause 5, as you said, Mr. Chairman, is 
to have the fact investigation into this affair, which involved 
foreign governments and ambassadors and so on, in the 
Intelligence Committee; then to have them bring the facts in a 
comprehensive report to the House Judiciary Committee, which 
would then make the decision about the law: Do all of these 
events rise to what we think is impeachable conduct? And, of 
course, we did. So there are lots of fact witnesses.
    The fact we also had the counsel for the House Intelligence 
Committee come and to deliver the report and defend the report 
and all of my friends on the other side of the aisle had a 
chance to question as we had the chance to question. When you 
say there were no fact witnesses, that is also a perfect 
description of what took place during the Clinton impeachment 
because all of that took place as part of the independent 
counsel investigation by Kenneth Starr. There were closed-door, 
secret depositions taking place there. Then Kenneth Starr came 
to deliver the report, and remember all the boxes of material 
they brought over in a U-Haul truck and gave it to the House 
Judiciary Committee. That was the end of it.
    Monica Lewinsky didn't testify before the House Judiciary 
Committee. There were not witnesses who had been there who were 
brought before the House Judiciary Committee. So we are 
following the exact same pattern I think that took place there 
except that it was the House of Representatives here which did 
its own fact investigation through this assortment of 
committees.
    Finally, the--well, let me just say a word about the 
fairness of the process, and, you know, we all know what they 
teach you in law school, which is: If the facts are against 
you, you pound the law. If the law is against you, you pound 
the facts. If the law and the facts are against you, you talk 
about the process and you pound the table.
    And I am afraid I have seen a little bit of that in the 
performance of our colleagues here, and I don't blame them 
because they are dealing with the hand that they were dealt.
    We have 17 fact witnesses, and all of their depositions and 
all their testimony was published and all part of the report. 
Everybody--everybody--can find it and all of their testimony is 
essentially unrefuted and uncontradicted. It tells one story, 
which is the President of the United States conducted a 
shakedown of a foreign power. He used $391 million that we in 
Congress have voted for a besieged, struggling democracy, 
Ukraine, to defend itself against Russian invasion and attack, 
to coerce that--the President of that foreign government, 
President Zelensky, to get involved in our election campaign.
    What did he want him to do? Well, he wanted President 
Zelensky to make an announcement on television that Joe Biden 
was being investigated. Now what does that have to do with the 
foreign policy of the United States? What does that have to do 
with what Congress voted for? What does it have to do with any 
legitimate interest of the U.S. Government?
    But the other thing that he wanted President Zelensky to do 
was to rehabilitate the completely discredited conspiracy 
theory that it was Ukraine, and not Russia, that had interfered 
in our election. Our entire intelligence community, the NSA, 
the CIA, the FBI--the Senate Committee on Intelligence issued a 
report about this--all of them say the same thing, which is 
that it was Russia that conducted what the Department of 
Justice called a sweeping and systematic campaign against our 
election in 2016.
    You remember, Mr. Chairman, they injected propaganda into 
our polity through social media, Facebook and Twitter and so 
on. They directly conducted cyber invasion and attack and 
espionage against the Democratic National Committee, the DCCC, 
Hillary Clinton's headquarters, and they directly tried to get 
into our State boards of elections, not two or three; all 50 of 
them they tried to get into. That is what Russia did, and now 
all of a sudden we have the President of the United States 
telling President Zelensky that if he wants the $391 million 
that we voted for and that he has been certified for by the 
Department of Defense and the Department of State, clearing 
every anticorruption screen that would have been put in place 
and called for by Congress, if he wants the money and if he 
wants the White House meeting that he desperately wanted to 
show that America was on Ukraine's side and not Russia's side, 
if he wanted to get that stuff, he had to come and get involved 
in our Presidential campaign and he had to rehabilitate this 
discredited story about 2016.
    I yield back.
    The Chairman. Well, I thank you.
    You know, I have been listening to some of the commentary 
in the news from some of the pundits. And sometimes I think 
people need a lesson in constitutional law. That is why it is 
great that you are here. Let me ask you a basic question 
because I think sometimes people don't understand: Why is 
impeachment in the Constitution?
    Mr. Raskin. Oh, that is a great question.
    And Mr. Collins invoked indirectly my favorite American 
revolutionary, Tom Paine, who, of course, wrote, ``Common Sense 
and the Age of Reason.'' And he said you can't have one without 
the other. In other words, you need the common sense of the 
people, and you need people to be conducting things according 
to reason, rationality, facts, empiricism, science. But why did 
Paine come all the way over here to participate in the American 
Revolution, which was not foreordained to win in any way? 
Because America was the first Nation in history born out of a 
revolutionary struggle against monarchy, against the idea that 
you could have hereditary rule.
    Paine said a hereditary ruler is as ridiculous as a 
hereditary mathematician or a hereditary artist, right? He said 
the people have got to decide on their own leaders.
    Now, impeachment is an instrument that our Founders put 
into the Constitution, informed by the British experience. 
There was impeachment that Parliament had, but it wasn't 
against the King. It was only against royal ministers. Why? 
Because of the British doctrine the King can do no wrong. 
Right? That is kind of like the King can do whatever he wants. 
The King can do no wrong, and, therefore, the King couldn't be 
impeached. But our Founders insisted that impeachment be in 
there, not just for other civil officers who might commit high 
crimes and misdemeanors against the people, but against the 
President himself.
    And, of course, the President in the domestic emoluments 
clause is limited to a fixed salary in office, which can be 
neither increased or decreased by Congress. And he can't 
receive any over emoluments from the government's help and any 
other payments. The President is effectively an employee of the 
American people. That is the way he is designed. He is not 
above the people. He is a servant of the people like all of us 
are. And the President's core job is what? To take care that 
the laws are faithfully executed. And, if he doesn't faithfully 
execute the laws, if he thwarts the laws, if he tramples the 
laws and he commits crimes against the American people, then we 
are not going to send him to prison. He is not going to go to 
jail for one day. But he needs to be removed in order to 
protect democracy.
    The Chairman. For the record, why is abuse of power an 
impeachable offense?
    Mr. Raskin. Abuse of power is the essential impeachment 
offense. That is why it is in there. What it is about is 
elevating the personal interests and ambitions of the President 
above the common good, above the rule of law, and above the 
Constitution.
    And so the Founders didn't want a President who was going 
to behave like a king. We had seen enough of that. We wanted a 
President who was going to implement the laws, go out and, you 
know, implement the Affordable Care Act and implement the 
environmental laws. That is your job. You know, that is what 
you are supposed to be doing.
    The Chairman. So we have seen evidence that the President 
decided to withhold from Ukraine important official acts, the 
White House visit, military aid, in order to pressure Ukraine 
to announce investigations of Vice President Biden and the 2016 
elections. Why does that constitute an impeachable offense?
    Mr. Raskin. So, well, it basically implicates every single 
one of the concerns that were raised by the Founders at the 
Constitutional Convention. One, it places the personal 
political agenda and ambitions of the President over enforcing 
the laws and enforcing the rule of law.
    Two, it drags foreign powers into our election. That was 
something that the Framers were terrified about. There was a 
great exchange between Adams and Jefferson about just this 
issue that there would be constant foreign intrigue and 
influence, attempts to come and influence, because we would be 
an open democracy. And so people would try to exploit our 
openness by getting involved in our elections with their 
foreign government concerns, which is why the President had to 
have complete undivided loyalty to the American people and to 
the American Constitution and not get involved with foreign 
governments, not drag foreign governments into our affairs.
    So, basically, you have everything the Framers were 
concerned about tied up into one bundle here, which is 
involving foreign governments in our elections, placing the 
President's interests over all of--over everything else, and 
then essentially threatening the rule of the people in 
democracy.
    The Chairman. And where do you draw the line between a 
legitimate use of Presidential power and an abuse of power? Why 
is it significant that President Trump acted for his personal 
political advantage and not for the furtherance of any valid 
national policy objective?
    Mr. Raskin. Well, that is a great question because our 
colleagues have shrewdly zeroed in on the fact that some of the 
witnesses, including Ambassador Sondland, said: Well, of 
course, there was a quid pro quo. The President was not going 
to release the aid. He was not going to have the meeting until 
he got what he wanted in terms of political interference.
    And then even the President's White House chief of staff 
said: Yes, of course, there was a quid pro quo--I am not 
quoting directly, so I don't have the exact words--but he was 
saying: Yes, this is the way we proceed. Get used to it. Okay.
    And our colleagues have said: Well, there is always quid 
pro quos tied up in foreign policy. In other words, it is legit 
to say to a foreign government: We will give you this aid if 
you comply that the aid is all being used in the proper way. We 
will give you this assistance if you attend these conferences 
and meetings with us to make sure the assistance is being used 
properly and so on. There is nothing wrong with that.
    But look at what happened here.
    [Recess.]
    Mr. Raskin. This was an arrangement where the President 
conditioned all of this foreign assistance that we had sent, 
$200 million to the Department of Defense, $191 million to the 
Department of State, to help Ukraine defend itself against 
Russia, and the President said--but what he was holding out for 
was the interference of the Ukrainian President in our election 
to harm his political opponent. And I think everyone can 
recognize that is not the normal kind of push and pull and 
arrangements the nations make for each other. Why? Because the 
President privileged his own political interest, and that is 
why it was all done secretly, and luckily, there were witnesses 
who were willing to come forward and to explain what happened.
    The Chairman. And Mr. Collins, I will ask you and Mr. 
Raskin the same question. Was the President's call with 
President Zelensky perfect, as the President had said? And was 
it appropriate for him to ask another country to investigate an 
American citizen?
    Mr. Collins. As I have said before, there was nothing wrong 
with the call and when you look at it--again, frankly, the 
last--the problem we are having right now is exactly the last 
15 minutes of this. Great oratory on a lot of things that mean 
nothing to this actual impeachment. I mean, if we get down to 
the bottom line here and--honestly, leave it at that. Let him 
answer that question. I will get back to it later, because 
everything that has been thrown out here is exactly what the 
problem we have had and the discussion. And this idea of 
throwing law, in fact, we have disproven the facts. We have 
talked about the law. Law wasn't broken. We didn't put it in 
the Constitution. So I can yell on both of them, I can talk 
about both of them. The problem we have here is, is this is the 
very problem we have--and I will just address one thing before 
I let it back, or if you want me to switch right now, I will.
    The Chairman. That is fine.
    Mr. Collins. I will give it to him.
    The Chairman. That is fine. I am looking at the President's 
transcript saying I would like you to do us a favor, though. I 
mean, do you think it was a perfect call?
    Mr. Collins. Well, Lieutenant Colonel Vindman actually said 
it was perfectly okay for the President to ask for political 
call. It was in his testimony.
    The Chairman. Do you think it is appropriate?
    Mr. Collins. So he said, Lieutenant Colonel Vindman said 
would it ever be--it was asked, would it ever be U.S. policy in 
your experience to ask a foreign leader to open a political 
investigation. He replied, certainly, the President is well 
within his right to do that.
    The Chairman. Do you think it is right for the President to 
ask a foreign government to investigate a U.S. citizen like 
that?
    Mr. Raskin. No. I think it is absolutely wrong. One of the 
interesting things about the hearings, of course, was that 
every single--I think every single Member of Congress who has 
at least endorsed impeachment inquiry has said that it is 
completely wrong for the U.S. President to use any of the means 
at his disposal to drag foreign governments into our election 
and we were unable to get our colleagues on the Judiciary 
Committee to weigh in on that, saying, let's assume that you 
think--let's stipulate you think that the President did nothing 
wrong here, do you think it is wrong for the President of the 
United States to get foreign powers involved in our election 
and we couldn't get an answer.
    I reissued the invitation to Mr. Collins. I believe that in 
his heart, he thinks that is wrong and I certainly would not 
want that to become the pattern for all future presidencies.
    Mr. Collins. I think the interesting thing here, Mr. 
Chairman, if I could. I don't want this to become the pattern 
for future impeachments. I think this is the problem I have. 
The understanding here is, I guess, it is okay, though, to get 
involved in a 2016 election when you pay a third party to go 
pay for a dossier. These are the kinds of things we can talk 
about, but the interesting issue that is just discussed here is 
exactly where we are right now in a question and a comment, 
because what Mr. Raskin just brought up is an interesting 
point.
    So is it okay if you are running for President that you 
can't be investigated, even if you did something overseas? So 
if you are running for President, and you did something 
overseas, it would be off-limits, according to Mr. Raskin's 
argument, for the United States Government to investigate that. 
That is the argument he just set up. I think you need to be 
very careful with that argument.
    The Chairman. Again, I mentioned this in my opening 
statement, the frustrating thing is that it seems so obvious to 
so many of us about inappropriate behavior, our former 
colleague, Charlie Dent, says he spoke with Republicans who are 
absolutely disgusted and exhausted by the President's behavior. 
Another former Republican colleague of ours, David Jolly said, 
we have witnessed, quote, ``an impeachable moment.''
    Former Republican Congressman Reid Ribble of Wisconsin 
said, clearly there was some type of quid pro quo. When asked 
if he believes the testimony presented warrants impeachment, he 
said, I do.
    Former South Carolina Republican Bob English, who served on 
the Judiciary Committee, during the Clinton impeachment said 
last month, in a tweet, without a doubt, if Barack Obama had 
done the things revealed in the testimony and the current 
inquiry, we Republicans would have impeached him.
    Joe Scarborough, a former Republican Congressman from 
Florida said, every Republican knows that Donald Trump was 
asking for dirt on Joe Biden in exchange for releasing military 
funds. Let's go on to--do you want to respond, Mr. Raskin?
    Mr. Raskin. Sure. I would be delighted to, but one thing--I 
was just passed a note saying I may have gotten the numbers 
wrong. Department of Defense had $250 million appropriation for 
the purposes of aiding Ukraine in the state at 141 million. I 
may have misspoken.
    The Chairman. Okay.
    Mr. Raskin. As to that point, again, I feel for my friends 
because I think they are put into a situation, put into a box, 
so to speak, which was what President Trump was quoted as 
saying about what he wanted to do with President Zelensky, he 
wanted him in a box about statements, but I think they are put 
into something of a corner here, because the President has 
declared his conduct perfect, absolutely perfect, and he can do 
whatever he wants.
    And so they are unable to say--to make the case that I 
would make--if I were trying to defend the President, I would 
say, Okay, that was totally wrong and off-limits, but it is not 
impeachable for X, Y, and Z reasons, but they are not allowing 
anybody that space to say it. They must go with the President's 
assertion that this was categorically correct. There was 
nothing wrong with it. It was perfectly right and, you know, he 
quoted legal scholars. He didn't name them, but he invoked 
legal scholars who told him that the call was perfect as well.
    The Chairman. I want to move my questioning along here a 
little bit. So let me ask you on the issue of obstruction of 
Congress, why is the obstruction of Congress an impeachable 
offense?
    Mr. Raskin. Well, look, this is something--Mr. Collins made 
a really important point, which is, that we have got to think 
about this in institutional terms, okay. And he rightly calls 
us to redouble our commitment to fairness in the process. I 
have seen lots of fairness in this process. I have seen in the 
closed door depositions, I saw the Democratic counsel get an 
hour, I saw the Republican counsel get an hour, I saw the 
Democratic members get to question, I saw the Republican 
members get to question. I have seen this committee bend over 
backwards to get all of the depositions out as quickly as 
possible while the President of the United States is stopping, 
at least, seven witnesses from coming forward. It may be more 
than that, but he has blockaded witnesses. The President, who 
says the process is unfair, is the one who is stopping 
everybody from coming to testify and is essentially trying to 
blockade the whole investigation.
    Look, why is this essential, Mr. Chairman? It is essential 
because for institutional reasons. It is essential for 
institutional reasons because in the future it might be a 
majority Democratic Congress, it might be a majority Republican 
Congress, but in any event, it is Congress, and one of our jobs 
is as Members of Congress is to make sure that the President 
does not violate the laws.
    We are supposed to stand sentinel to make sure that the 
President will only enforce the laws, take care that the laws 
are faithfully executed. Well, what happens if you get a 
President who totally trashes the law? Okay. Some of us think 
we may be there now. I know some of our colleagues don't 
believe that, but certainly they can imagine a situation where 
a President advertises spectacular disrespect and contempt for 
the law and trashes the law.
    What is our ultimate check against that? It is going to be 
impeachment. That is why it is in the Constitution, but now we 
have a President who, for the first time in American history 
says, I am going to try to block the ability of Congress to 
impeach me by not turning over one single document, by trying 
to hold back people from testifying like Secretary Pompeo, like 
chief of staff Mick Mulvaney, like multiple other members of 
the administration. I don't want them to come forward and 
testify.
    And so, we are going to have to use our common sense to 
derive conclusions about what that means. What does our common 
sense tell us when you have all these other people coming 
forward and testifying about the misconduct of the President, 
and then the President trying to block everybody else from 
coming forward to testify in his administration.
    The Chairman. And let me just point out for the record, we 
have requested several documents and testimony from members of 
this administration, and what has the President's 
administration done in response? Nothing. I think it is 
important for people to understand, just for the record, 
requests for documents from the State Department, ignored; 
requests for documents from the Department of Defense, ignored; 
requests for documents from the Vice President, ignored; 
requests for documents from Giuliani associate Lev Parnas, 
ignored; requests from documents from Giuliani associate, Igor 
Fruman, ignored; requests from documents from the White House, 
ignored; requests from documents from Rudy Giuliani the 
President's lawyer, ignored; requests from testimony of former 
national security adviser John Bolton, ignored; requests from 
the testimony of White House chief of staff Mick Mulvaney, 
ignored.
    And here is a list of all the requests that have been made. 
The red marks are, basically, to demonstrate noncompliance that 
they have been ignored. I think this is what you call 
obstruction, plain and simple. And, in fact, the only people 
that have complied with that request have been patriotic public 
servants, many of them defying instructions that they not 
comply. I guess, I just ask, what presumptions should we make 
when the President prevents witnesses from complying with 
congressional subpoenas?
    Mr. Raskin. Let's use our common sense. People who have 
exculpatory evidence, which is just a fancy way of saying 
evidence that shows their innocence, want the court to see the 
evidence. People who have evidence that demonstrates their 
innocence would bring that to Congress. People who have 
evidence, which they think may be inculpatory, people have 
evidence which may lead people to believe in their guilt, will 
try to keep it away.
    But you just make a really profoundly important point, Mr. 
Chairman, which link Article I and Article II of the 
impeachment articles, do we want to set a precedent that 
people--that U.S. citizens can become President of the United 
States by inviting foreign powers to get involved in our 
election, then once they are in, if Congress decides that their 
conduct is impeachable and involves high crimes and 
misdemeanors, they can then pull a curtain down over the 
executive branch and not allow any investigation, not allow 
subpoenas to be honored and so on. That is a very dangerous 
prospect that would have terrified and horrified and shocked 
the Framers of our Constitution.
    The Chairman. Thank you.
    Mr. Collins. He is on a roll.
    The Chairman. Okay. Well, I am about to yield to my ranking 
member, who I am sure has lots and lots of questions, but I do 
want to take a moment, I think it is important that we remember 
this. So I want to remind everybody why we are here today.
    The President abused the power of his office for his own 
personal gain and obstructed a congressional investigation to 
look into that conduct. How did he do that? He withheld aid for 
a country that was under siege by Russia to leverage help for 
his political campaign. President Trump's abuse of power has 
endangered our free elections and national security, and 
remains an ongoing threat to them both. He showed us a pattern 
of inviting foreign interference in our elections, and is 
trying to cover it up twice, and he has threatened to do it 
again.
    With the 2020 elections fast approaching, we must act with 
a sense of urgency to protect our democracy and defend our 
Constitution. On our first day as Members of Congress, we took 
an oath to support and defend the Constitution of the United 
States against all enemies foreign and domestic. I did not 
swear allegiance to a political party; I swore allegiance to 
the Constitution, and I hope all my colleagues will do the 
same.
    With that, I would yield to the Ranking Member, Mr. Cole, 
for any questions he may have.
    Mr. Cole. Thank you very much, Mr. Chairman. And you are 
right. I do have a lot of questions, and I appreciate your 
forbearance because----
    The Chairman. I am very liberal.
    Mr. Cole. Yes, you are. And in this sense, the finest sense 
of the word, so I express my appreciation for that ahead of 
times as we have discussed. To my friend, Mr. Raskin, a number 
of my questions have been crafted, or were originally crafted, 
for Chairman Nadler. You may or may not be able to answer those 
directly. We certainly understand why he is not here, and, as 
the chairman said, we sympathize with him in the difficult 
time, but we think they are still important for the record.
    Mr. Raskin. I appreciate it.
    Mr. Cole. I just wanted to highlight that for you.
    Mr. Chairman, I ask unanimous consent to enter into the 
record a document entitled, quote: ``How we resist Trump,'' 
unquote, authored by Congressman Jerry Nadler and posted on 
www.JerryNadler.com on November 16th of 2016.
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Cole. Thank you, Mr. Chairman. In this document, 
Chairman Nadler wrote, quote: ``We cannot wait 4 years to vote 
Mr. Trump out of office, so we must do everything we can to 
stop Trump and his extreme agenda now,'' unquote.
    Mr. Raskin, on August 8th, Chairman Nadler stated with 
respect to the Judiciary Committee's hearing regarding the 
Mueller report that, quote, ``this is a formal impeachment 
proceeding,'' unquote, but the House did not actually authorize 
impeachment proceedings until the adoption of H. Res. 660 on 
October 31st. So I believe it is important to clarify for the 
record when formal impeachment proceedings actually started. Is 
Chairman Nadler correct when he said they started on August 
8th, or did they begin when the House authorized them on 
October 31st?
    Mr. Raskin. Forgive me, Mr. Cole. I was not actually 
prepared to answer that question, but I think the Judiciary 
Committee has taken formal positions which we can track about 
this question. I would just direct you to, again, Article I, 
Section 2, clause 5, the House of Representatives is the sole 
power of impeachment, and can design and structure impeachment 
as it sees fit.
    Mr. Collins. Mr. Cole. Not outside of House rules they 
can't. Not without passing a resolution that then gives them 
power and authority that goes outside of House rules. That is 
the problem we had with this early long is they were going 
outside of House rules. And again, when counsels are not--have 
been here forever trying to make this happen, this is what 
happens. They went outside of House rules, so that is the 
problem I have had with this and we can discuss that more in 
depth.
    Mr. Cole. I think the spirit behind this suggested this has 
been going on for quite some time longer than the formal 
proceedings.
    Mr. Raskin, on December 10th, 1998, during the Clinton 
impeachment proceedings, Chairman Nadler stated in the House 
Judiciary Committee that, quote: ``There must never be a 
narrowly voted impeachment or an impeachment supported by one 
of our major political parties and opposed by another. Such an 
impeachment will produce divisiveness and bitterness in 
politics for years to come and will call into question the very 
legitimacy of our political institutions.''
    Do you believe that this impeachment, which is supported by 
only one political party, has produced bitterness in the 
current political climate?
    Mr. Raskin. So, well, again, I am going to have to allow 
Chairman Nadler to speak for his own words.
    Mr. Cole. I certainly understand that.
    Mr. Raskin. So, look, there has been a lot of bitterness 
and division in our country for several years now, preceding 
any impeachment proceedings, and it is a sad thing, and I hope 
that everybody rallies around the Constitution, because it is 
the Constitution that we will get us through this difficult 
time in our history.
    Let me just say about the Clinton impeachment. So the 
conduct that President Clinton was charged with, which was--he 
hadn't been convicted or prosecuted for perjury, but he was 
essentially charged with perjuring himself in describing 
private conduct, the sexual affair, and the conduct that we are 
looking at today goes right to the heart of why impeachment is 
in the Constitution.
    Impeachment is in the Constitution because of public 
offenses by political leaders against democracy itself. So I 
think you cannot compare what President Clinton was impeached 
for by the House of Representatives, and I hold no brief for 
his conduct in any way, but I don't think you can compare that 
to the massive, overwhelming, and unrefuted evidence we have 
that the President of the United States, today, has tried to 
drag a foreign power into our elections to his own political 
advantage.
    Mr. Cole. It wasn't exactly the question I asked, but let 
me turn to Mr. Collins, and see if you agree with Mr. Raskin, 
or is there anything you would disagree with there, and what 
has been the impact of this process on the domestic politics of 
the country since it has been essentially partisan in nature?
    Mr. Collins. Look, not trying to--and, again, I will cut 
some slack that he was trying to answer for a chairman's own 
words, and I get that--
    Mr. Cole. Absolutely.
    Mr. Collins [continuing]. But I think there is several 
things--let's just talk here for just a minute. Let's unpack 
what has happened here, because the only thing I appreciate 
really out of the whole last few minutes was the chairman 
trying to bring it in to about impeachment. I agree with him on 
that point that this is about impeachment. What I disagree is, 
it is not about abuse of power, it is not everything else, and 
it would come a lot better from the majority if they have not 
had a long history, a written record. This is something that 
you love to see in the law because it is a written record of 
motive. You have seen it since the day that he was elected. You 
have seen it in this whole process working out. You saw it last 
year when my chairman ran for the job because he would be the 
best for impeachment. What was hanging out last year for 
impeachment?
    What became of the Mueller report that didn't give them 
everything they wanted? And then we came into a call. This is a 
pattern and, look, I have said this to my chairman who I 
respect, you have got the votes, just vote it. You have got the 
votes. You can go explain it to the American people. Talk about 
affecting an election, this is what we are looking at. But 
there are a few things here, though, that is interesting.
    As I said earlier on, time and clock are terrible masters, 
and I have heard it so many times from the chairman of this 
committee, the chairman of my committee, and others, we have 
got do this because of the 2020 election. Well, put a candidate 
up that is worth voting for. How about that? Instead of going 
after a President who you are having trouble beating because of 
the things that have happened in our country with unemployment, 
with the economy going good, and everything else. That is what 
political primaries are for, not this.
    When you look back--and I still never got an answer to my 
question I had just a few minutes ago about have we now set a 
standard that if you run for President, you can do anything you 
want to overseas and not get investigated for it? I ain't got 
that question answered. But in a response also to the 
chairman's question about requesting stuff. As the chairman 
knows, and also my chairman knows because my chairman likes 
subpoenas, he likes to threaten them anyway, but the Secretary 
of Defense responded. He said it was open to negotiation to 
you, Secretary of State. Part of the document dump was part of 
that and the House Judiciary Committee, the dump that we did 
get from the Intelligence Committee had OMB records from the 
Budget Committee in it. I mean, there are issues here that I 
have had problems with all year in this and, you know, if you 
didn't receive a letter as we have done in the past when we are 
in the majority under President Obama, and President Obama, in 
Fast and Furious and other times, the thing that amazes me is 
it seems like the majority this year, all of a sudden, 
discovered that the executive branch and the legislative branch 
don't play well together in the sand box.
    This is not a shock for any of us who have been here under 
the Obama administration. We saw this happen over and over. I 
was on oversight my first 2 years here. My former legislative 
director is here. She is in the room. We pulled our hair out 
over of this. We had IRS. We had everything else and it was 
constantly being stonewalled and stopped, had to actually issue 
subpoenas at which, finally, the courts did rule and this is 
your problem: The courts ruled many years later that Attorney 
General Holder did violate not giving the information out, and 
that was actually done, but it was many years later. Again, 
your time and clock as calendar is a terrible master, and you 
are having to do this because you promised it. You promised it. 
We are carrying through on a promise here.
    The other thing is, we talk about fairness here that my 
friend said, Oh, this has been completely fair. Nobody's 
questioned the fact that our folks got to question the witness. 
Nobody's questioning that fact. But what about the fact of the 
majority preventing witnesses under rules from using agency 
counsel, even under the auspices of an impeachment 
investigation? How about cutting off Republican questions and 
refusing to allow the third branch to even rule on claims of 
privilege when one was actually done? You actually withdrew 
from the lawsuit.
    So, again, it is not a matter of time here, it is not a 
matter of facts. Again, when we go back to it, I can't not 
repeat this over and over again, because it comes up with Mr. 
Raskin, comes up with the chairman, it will come up again many 
other times, put pressure on a world leader. This pressure is 
amazing me because the guy who was supposed to being pressured 
denied it ever happened on multiple occasions.
    One of his own members of cabinet says we never talked 
about conditionality. Yermak said we never talked about 
conditionality of aid. The only times that they talk about this 
outside of presumption and hearsay, presumption and hearsay. 
Their main witness, Sondland, said it was presumption. Oh, that 
is what I presume because when he actually asked the President 
straight up, what do you want? He said, I want nothing. I just 
want him to do what he promised and he ran on. That is all he 
did.
    So it is presumption and hearsay. And granted, this is not 
a court of law because, believe me, this would have been over a 
long time ago. We wouldn't have gotten to this place. The rules 
have allowed it to get to this place because majority rules in 
this place.
    But here is the problem: The pressure issue is sad because, 
again, to continue this line of thought after the President of 
the Ukraine has come out and denied it and denied it and denied 
it and denied it, you are either calling him a pathological 
liar, a world leader, or you are calling as was actually--he 
was actually called in our committee last week a battered wife.
    He was actually called that, compared to a battered wife. 
How low have we sunk? This is the problem because at the end of 
the day--and we can go into a process files, we can go into 
everything else, but you know something, I made--I don't say it 
is a mistake, but I took my own chairman at his word when I 
read about his comments from 20 years ago, when he said the 
Judiciary Committee should never take a report from a third 
party, and actually not try to investigate itself, otherwise we 
have become a rubber stamp. Congratulations. Our Judiciary 
Committee became a rubber stamp. I hope we recover, because 
that is all we are doing right now, is just rubber-stamping 
what Adam Schiff did under his own rules, under his own time, 
under his own ways, again, a man who has also been out for this 
President since day one, and would not come and testify.
    That is the most amazing, shocking thing to me in this 
whole process, but when you understand where we are at here, I 
can understand why Mr. Raskin, who is eloquent in his 
discussion of Constitution, and why we have an impeachment; 
let's just cut to the fact: You don't like the guy. You don't 
like the conversation. You don't like how he does business 
because at the end of the day, when you start talking about the 
pressure on a foreign power to do something for you 
personally--again, to even get to that remotely, you are having 
to change words in the transcript. Instead of do us a favor for 
our country, ``do us,'' you have to change it to ``me.''
    You have to change the facts. And the last time I checked, 
this country is not real kind to those who are accused having 
those who are in power change the rules to fit their game. That 
is not due process. But I am going to go back over it because 
the chairman actually said, here is why we are here. There are 
four facts that never changed. Four facts that will never 
change, and it goes straight to the heart of anything said 
outside of abuse of power or anything else. There is no 
pressure, President Trump/President Zelensky.
    The transcript shows no conditionality of aid, and an 
investigation, and the only one relied upon over 600 times in 
the Intelligence Committee report was Mr. Sondland, who after 
he got past his perfect opening statement when questioned, 
said, Well, that is what I presumed it to be. And then when 
actually talked to the President of the United States, he was 
told, no, all I want him is to do his job, nothing else. And 
then when he actually said I had a conversation with Mr. 
Yermak, Mr. Yermak said there was nothing discussed of 
conditionality.
    So how do you put this much faith in Mr. Sondland when he 
has conditionally told stories that change? And all of the rest 
were hearsay. All of the rest were actually going off of other 
things, and even with Carl Vindman, who I respect as a soldier, 
actually said when the question was asked, is it okay to have 
this call said yes, it is okay, for a President can do that, to 
ask for a political investigation because it happens, and he 
even said that.
    So the question comes back: The Ukrainians were not even 
aware their aid was withheld, and the Ukrainians didn't open an 
investigation to get the money.
    Mr. Cole. Let me ask you, is this the first partisan 
impeachment inquiry in the Nation's history?
    Mr. Collins. Yes.
    Mr. Cole. Has a President ever been impeached without votes 
from a minority party before?
    Mr. Collins. I think there is some discussion about that 
with the Johnson impeachment from many years ago, but that was 
also when the Congress himself set him up with a law, so I 
think you have to say that was an impeachment. In a modern-day 
era, this is a partisan impeachment.
    Mr. Cole. March of this year, Speaker Pelosi said 
impeachment must be, quote, compelling and overwhelmingly 
bipartisan. Only Democrats voted to authorize the impeachment 
inquiry, there is bipartisan opposition to the inquiry, and it 
appears there will be bipartisan opposition to the articles.
    Ranking Member Collins, given all of that, do you believe 
the upcoming vote on H. Res 755 comports with the standards set 
by the Speaker herself?
    Mr. Collins. No. It comes nowhere close.
    Mr. Cole. Is your belief that meeting an arbitrary deadline 
is more important to the Democratic majority than building a 
viable case if, in fact, there is cause for impeachment?
    Mr. Collins. Their own words convict them of that.
    Mr. Cole. The premise these Articles of Impeachment rests 
on a pause placed on Ukrainian security assistance, a pause by 
way of less than 2 months, 55 days, I believe, Democrats have 
spun creative narratives as to the meaning and the motive of 
this pause, but offered no factual evidence. Did Ukraine ever 
initiate investigations into the Bidens?
    Mr. Collins. No.
    Mr. Cole. Was the aid ultimately released?
    Mr. Collins. Yes.
    Mr. Cole. Do you believe the taxpayer dollars of the 
American people were well-served by the pause?
    Mr. Collins. They were. In fact, the President himself, not 
policymakers, not administrative officials in different offices 
are not the ones who have final authority to decide if that is 
going to be. That is the President's call; that is the 
President's decision, and he made the call.
    Mr. Cole. Is it unusual for aid to be paused on by chief 
executive?
    Mr. Collins. No.
    Mr. Cole. Did the Democratic majority subpoena all core 
witnesses with first-hand evidence on any potential quid pro 
quo with the Ukrainian controversy?
    Mr. Collins. No.
    Mr. Cole. Has anyone in the Trump administration been 
charged with or convicted of a crime under the current 
allegations related to the Ukraine?
    Mr. Collins. No.
    Mr. Cole. Let me continue. It is my understanding that the 
minority properly exercised its right under clause 2(j)(1) of 
Rule 11 to demand a minority hearing. Is that the case?
    Mr. Collins. That is correct.
    Mr. Cole. What day did you ask for that hearing?
    Mr. Collins. We asked for it on the first day of our when 
we convened in the Judiciary Committee.
    Mr. Cole. I believe that was----
    Mr. Collins. Mr. Sensenbrenner. I don't remember the dates 
in front of me.
    Mr. Cole. I have it right in front of me, so I will be 
happy to provide that. Has that hearing been scheduled?
    Mr. Collins. No. It was summarily dismissed with a long 
letter which was told that, in essence, that it was dilatory. I 
have never seen a minority hearing called dilatory.
    Mr. Cole. On the very first day requests could have been 
made.
    Mr. Collins. Yeah.
    Mr. Cole. Mr. Raskin, are you familiar with the following 
statement: The minority's entitled to one additional day of 
related hearings at which to call their own witnesses if a 
majority of the minority members make their demand before the 
committee's hearing is gaveled to close?
    Mr. Raskin. I believe, I think, Mr. Collins invoked that at 
our hearing.
    Mr. Cole. So you are familiar with that?
    Mr. Raskin. Yeah, I am just familiar from that. I wasn't 
aware of it before this.
    Mr. Cole. Statements posted on the Rules of majority 
website in a document entitled, quote: ``House rules which 
govern the committee hearing process,'' unquote. Based on 
review of the hearing video, the minority properly presented 
their request to Chairman Nadler before the original hearing 
concluded. Are you familiar with a memo written by--Mr. Raskin, 
I am sorry. I should have made that clear--by former Rules 
Committee Chairman David Dreier regarding the application of 
the House rules governing minority hearing days?
    Mr. Raskin. No.
    Mr. Cole. Okay. Chairman McGovern, I ask unanimous consent 
that this memo be made part of the record, and we will note 
that the memo states, in part, that a point of order may lie 
against reported measure in which the minority's demand for a 
hearing was improperly rejected.
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    The Chairman. And I will ask unanimous consent, if I can, 
to also insert in the record our response to your letter, and 
we can talk about that after your questioning.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Cole. Certainly appropriate. Thank you, Mr. Chairman.
    During the markup of H. Res 755, Chairman Nadler overruled 
the ranking member's point of order against consideration of 
the resolution and interpreting that the rule requires that the 
minority hearing day occur prior to the consideration of the 
relevant measure, or matter would permit the minority to 
improperly delay proceedings. Were you trying to improperly 
delay proceedings, Mr. Collins?
    Mr. Collins. No. I was actually at one point in these 
hearings actually have the proper following of rules.
    Mr. Cole. So, again, you made this request the very first 
day of hearings. Is that correct?
    Mr. Collins. We did.
    Mr. Cole. The hearing at which the demand was properly made 
was entitled in part, quote: ``The impeachment inquiry of 
Donald J. Trump,'' unquote. My colleagues on the other side of 
the aisle have offered a number of reasons why Chairman 
Nadler's refusal to schedule a minority hearing is appropriate, 
I would like to take a moment to respond to those.
    My colleagues claim that the legislative history of the 
rules suggest that it was designed as a backstop to ensure the 
minority gets at least one witness at a hearing. I do not find 
this reason to be compelling. If that indeed was the purpose of 
the rule, the plain reading of the text and reason itself would 
say otherwise. While traditionally, it has been used as a 
negotiating point between the majority and minority regarding 
the number of witnesses, the mere fact the minority has a 
witness at a hearing does not mean that there is an implicit 
waiver of the right to demand a minority day hearing. There are 
times in which the minority waives the right to a majority day 
hearing. For example, our discussions regarding Medicare for 
all hearing, we waived that right to a minority day hearing in 
order to secure two more witnesses.
    Mr. Collins, at any time, did you waive your rights under 
clause 2(j)(1) of Rule 11?
    Mr. Collins. No, I did not. And I believe that is why we 
are here today, actually.
    Mr. Cole. Did you request a second witness and did they 
provide that second witness, and did they provide that second 
witness in exchange for waiving your rights for minority daily 
hearing?
    Mr. Collins. No, it was not even discussed.
    Mr. Cole. Okay. My colleagues on the other side of the 
aisle have previously quoted joint committee on an organization 
of Congress in 1966 recommendations which stated that a minimum 
safeguard be established for, quote, those in frequent 
incidents when a witness representing the minority position are 
not allotted time. Perhaps the 1966 majority was more willing 
to provide witnesses to the minority; however, that is not the 
case today. Witness was allotted time in this case, but not 
witnesses. In other words, we didn't get anything in exchange 
for our right not being exercised. And while this may have been 
one reason for the adoption of the minority hearing, they 
provision, it doesn't render meaningless the plain reading of 
the text.
    So we have spent a lot of time on this, but we think it is 
very important. We simply weren't giving something that we 
think by right, we should have had, and would actually subject 
this to a point of order.
    My colleagues also claim that Chairman Nadler is not 
required to schedule the minority hearing day before the matter 
is reported out of committee. You got to be kidding. In other 
words, we cannot agree that the House intended that the right 
for the minority hearing day can be fulfilled by scheduling a 
hearing on a measure after the measure's voted out of the full 
committee. That just doesn't make any sense.
    So Mr. Collins, with presumed passage of these Articles of 
Impeachment, isn't the minority hearing day now irrelevant?
    Mr. Collins. I believe it is and I believe that is the 
concern that many of us have who institutionally love this 
place.
    Mr. Cole. Okay. Mr. Raskin, even if Chairman Nadler didn't 
believe the House rules required him to schedule a minority 
hearing day prior to marking up the Articles of Impeachment, as 
a member of both Judiciary Committee and Rules Committee, 
wouldn't you agree that it would have been better for the 
institution and the American people to prevent all this 
disagreement and partisan rancor just to schedule the hearings. 
It is just one day.
    Mr. Raskin. Thank you, Mr. Cole. Again, I just learned of 
it the other day when Mr. Collins raised it, and I looked at 
the rule, and the rule does say that the chair of the committee 
is not required to schedule the minority hearing as a condition 
precedent to the continuing course of legislative action. And 
having been in the minority for my first term year, I feel your 
exasperation about that, that it might not happen before the 
bill passes. And if we want to make a change to that rule, I 
think that is absolutely something we should talk about for 
future Congresses.
    Mr. Cole. I appreciate that. I appreciate the sentiment 
behind it, because I know it is sincere. Again, I can go on and 
on on this, but we do believe, Mr. Chairman, it is a violation 
of the spirit. While we appreciate your letter very much, which 
was very respectful, we tried to make ours respectful when we 
made the request.
    The Chairman. It was.
    Mr. Cole. To us, the facts are clear. Chairman Nadler 
ignored a right of the minority in committee being ignored by 
the Democratic majority now, and by doing so, it fundamentally 
alters the tools available for the minority and all future 
minorities.
    So I do hope the Rules Committee will correct this 
misguided decision, refrain from waiving all points of order 
against the bill, and, at the very least, have the matter 
debated on the House floor.
    Mr. Raskin, after the adoption of H. Res. 660, and before 
the Judiciary Committee's first hearing pursuant to that 
resolution, Ranking Member Collins wrote seven letters to 
Chairman Nadler on the subject of the committee's consideration 
of impeachment. On November 12th, he wrote Chairman Nadler 
regarding the manner in which the Intelligence Committee 
conducted their investigation.
    On November 14th, he wrote Chairman Nadler demanding that 
the same transparency and fairness that existed in prior 
impeachment inquiries be prioritized in the current inquiry. On 
November 18th, he wrote Chairman Nadler regarding the 
credibility of a particular witness, and Chairman Schiff's 
coordination with certain witnesses to conceal basic and 
relevant facts.
    On November 21st, he wrote Chairman Nadler asking that he 
obtain all documents and information from Chairman Schiff 
pursuant to House Resolution 660, and its accompanying 
procedures. On November 30th, the persistent Mr. Collins wrote 
Chairman Nadler asking for an expanded panel and a balanced 
composition of academic witnesses to opine on the subject 
matter at issue during the December 4th hearing.
    On December 2nd, he wrote Chairman Nadler asking for 
clarity on how he plans to conduct the impeachment inquiry 
referencing five previous letters he had sent to questions that 
were never answered. And on December 3rd, he wrote Chairman 
Nadler reminding him of his recent letters requesting the 
Judiciary Committee provide the President due process with the 
Intelligence Committee and Chairman Schiff did not. It is my 
understanding that Chairman Nadler never provided a response to 
any of these letters. To your knowledge, does Chairman Nadler 
generally not respond to letters from ranking minority members?
    Mr. Raskin. No, and I will concede that Mr. Collins, like 
the aforementioned John Adams and Thomas Jefferson, is a 
prolific letter writer. I don't know whether or not they 
engaged in conversation to follow-up on any of those, but, of 
course, we are all together on a daily basis pretty much, so I 
can't speak for the chairman.
    Mr. Cole. Okay. Well, I just want to note for the record, 
when we sent a letter to my chairman, he did respond and we 
appreciate that very much.
    Mr. Collins. Mr. Cole.
    Mr. Cole. I am turning to you next. Go ahead.
    Mr. Collins. Thank you. It is regular on my committee. We 
don't get a lot of answers. We got one answer on our witness 
list. That was it. The other one was a discussion that I had 
when I asked for another witness, and it turned into an 
interesting conversation on were you asking for three to two. 
Asking for ratios and all I was asking for was another witness, 
and told me it was too late and that he could add--that is the 
only answer I got. I appreciate the chairman is under a lot of 
pressure and that timing and that calendar do kill you at 
times.
    Mr. Cole. I do, too. I recognize that, and that is true of 
all of us, but this committee does, in a sense, have a special 
responsibility to make sure the other committees operate 
according to our rules, and just common courtesy.
    Mr. Collins, Articles of Impeachment are based on a report 
written by the Chairman Schiff and transmitted to the Judiciary 
Committee, correct?
    Mr. Collins. That is correct.
    Mr. Cole. Did that impeachment report rely on hearsay to 
support their insertion?
    Mr. Collins. Yes.
    Mr. Cole. What explanation does Chairman Schiff provide 
when asked why hearsay rather than first-hand testimony 
evidence was incorrectly presented as evidence?
    Mr. Collins. Well, besides his own discussion on making up 
the phone call to start with, but also, he is not really 
provided one because he didn't come testify on my committee.
    Mr. Cole. Did you ask Chairman Nadler to invite Chairman 
Schiff to come testify?
    Mr. Collins. I did.
    Mr. Cole. Just to be clear, you were asked to vote on 
Articles of Impeachment against our Commander in Chief, based 
on a report full of unsubstantiated allegations and hearsay and 
you were not permitted to ask the author of the report any 
questions?
    Mr. Collins. That is correct. All I got was a staff member.
    Mr. Cole. I would like to note for the record, Mr. 
Chairman, that Chairman Schiff refused to discuss the report 
with the minority; yet, he was more than willing to appear on 
Fox News Sunday just 2 days ago. It is unfortunately abundantly 
clear the Schiff's report is made for television documents, 
rather than the result of a transparent, thorough, bipartisan 
investigation. It is also worth noting for the record, and I 
will ask you this, Mr. Collins, was the President represented--
this is a really odd thing for us, because generally, the 
Judiciary Committee is the main committee of impeachment. That 
is historically been the case. That is clearly not the case 
here.
    Mr. Collins. Yeah. No.
    Mr. Cole. The Committee on Intelligence is the main 
committee of impeachment.
    Mr. Collins. That is correct.
    Mr. Cole. Did the President have any counsel there?
    Mr. Collins. No. Somewhere along the line, we lost our 
right to be the impeachment--to work on impeachment. We got it 
at the end to finish it, but we lost it.
    Mr. Cole. There is a difference between window dressing and 
substance. I mean, two or three hearings at the end where you 
don't even question the author of the report, or you are not 
allowed to question the author of the report on which 
impeachment is based, the President never had representation 
there. In the past, we always had representation. You were at 
Judiciary. The President was there. He could ask questions. He 
could--but the main place where all these things come out of, 
the President was specifically excluded, and you were not in 
what is supposed to be the main Committee on Judiciary, you 
were not allowed to ask the author of the principal report any 
questions?
    Mr. Collins. Mr. Cole, you have just presented in a short 
summation, which I have always admired by you, the crux of this 
whole problem. By the time it got to Judiciary Committee, this 
was a done deal. The train was not even on the track, the train 
was past the station. They just had to run to catch up to it. 
It was already decided what they wanted to do. And so, here it 
is--and I have heard this argument, and you can dress this up, 
window dressing, when we go to the institutional integrity 
problem that we have here, when you get--when you do whatever 
you think of H. Res. 660, the only place it truly provided the 
opportunity for fairness for the President and the 
administration was in the Judiciary Committee, because at that 
point in time, they would have been able to ask for witnesses 
by way, which they were turned down. All these things--but 
there were never----
    There is no way, and I don't care how much the majority 
pretties this up, there is no way you can call calling four law 
school professors, two staff members, and that is the only 
hearings you have to provide any opportunity for the President 
to question and get anything out of them. But I have heard from 
my majority colleagues, which as a former defense attorney, I 
think is pretty funny.
    Well, if he is innocent, just tell him to come prove it. 
When is that ever part of what we should be doing here? Really? 
I don't think any of my civil libertarians in the Democratic 
aisle, they ought to be just laying awake at night thinking, 
How could I be associated with this? Because no matter what you 
think, there is a way to do this fairly, and they could still 
get the results because, by the way, they still outnumber us, 
and they have been trying to do this for 3 years.
    Mr. Cole. Mr. Raskin, did you have any conversation with 
Chairman Schiff about the contents of the report?
    Mr. Raskin. I am certain I have along the way, yes.
    Mr. Cole. Really? Because nobody on our side evidently had 
any conversations. To your knowledge, did Chairman Nadler have 
any conversations with Chairman Schiff about the contents of 
the report?
    Mr. Raskin. Oh, I am sorry, when you say the contents of 
the report, you mean the substance of what is in the report?
    Mr. Cole. None of our people have had that opportunity.
    Mr. Raskin. Well, I think as a committee, we have been 
talking about the substance of it for a long time now. I had 
not--I mean----
    Mr. Cole. We have been talking about substance of the 
report. We didn't have any opportunity to question the person 
who actually authored the report.
    Mr. Raskin. Oh, I see what you mean. Okay.
    Mr. Cole. Either formally or informally, to my knowledge.
    Mr. Raskin. Well, again, the counsel for the Intelligence 
Committee came over to discuss all of the factual findings that 
were in the Intelligence Committee's report.
    Mr. Cole. He is not the principal author of the report, he 
is the counsel for the committee, the chairman is the principal 
author.
    Mr. Raskin. Okay.
    Mr. Cole. And, by the way, a fact witness as well, in many 
ways.
    Mr. Raskin. Yeah. Well, if I could respond to this general 
line of attack. House Resolution 660 had a number of 
significant procedural productions for the President, even on 
the House side. And as you know, the role of the House is to 
act as the grand jury and the prosecutor, and the actual trial 
takes place over in the Senate; but still, we had very 
significant procedural protections, including we invited the 
President and his counsel to attend all hearings. We provided 
the President's counsel the opportunity to cross-examine 
witnesses and object to the admissibility of testimony, and we 
provided the President's counsel the opportunity to make 
presentations of evidence before the full Judiciary Committee, 
including the chance to call witnesses.
    Now the President chose not to avail himself of any of 
those opportunities, so it reminds me of the President 
blockading all these witnesses and saying, you don't have 
enough people with direct first-hand evidence of what I did.
    Mr. Cole. First of all, were those rights provided only in 
Judiciary Committee? Because you are not the principal 
committee of impeachment here. That is just the reality. You 
are sort of the final stop. So did the President get those 
rights in the Judiciary--excuse me, in the Intelligence 
Committee?
    Mr. Raskin. I believe not. I would have to go back and 
check, but----
    Mr. Cole. I can assure you not.
    Mr. Raskin. Well, then, let me explain--you may not accept 
this analogy, but here is the analogy that we proceeded on, 
because this is the first modern impeachment where the fact 
finder was the House of Representatives itself instead of a 
special counsel or independent counsel.
    When the special counsel and independent counsel did their 
work in the Nixon and Clinton impeachments, all of that was 
closed-door depositions, because you don't want the witnesses 
to be coordinating their testimony and so on. That is how 
prosecutorial investigations take place. The House Committee on 
Intelligence was our fact-finding committee, that is why they 
performed closed door depositions because they wanted to avoid 
witnesses coaching each other and coordinating their testimony.
    Mr. Cole. I will give Mr. Collins an opportunity to 
respond.
    Mr. Collins. We are driving down an interesting hole here. 
I also am ranking member of the same committee that said early 
on when we are, quote, doing impeachment, that if the President 
saw something he didn't want, he could write us a letter just 
like everybody else in the world. This was actually said, that 
he could write us a letter. That would be how he would be taken 
care of.
    But let me hit a couple of these things. The White House 
still has not received all the documents it is supposed to 
have. We are here doing impeachment right now, and they still 
haven't received all the documents. I still have not received 
all the documents from the Intelligence Committee. That is in 
direct violation of H. 660. I don't know how we get around 
that, but we can pretend, we can paint pretty faces and say it 
doesn't happen. But also, here is another thing, the staff 
member that they sent, Mr. Goldman, would not testify or answer 
questions on the methodology on how they actually did their 
investigation. And even in an egregious violation in their own 
report, where they named Members of Congress in their phone 
records, he would not actually say who ordered that, was it 
Chairman Schiff or him.
    Now I have always defaulted as I think you would, Mr. Cole, 
to the member with the pen, which would be Mr. Schiff, but Mr. 
Goldman actually sat there and said we would not discuss the 
methodology of the investigation.
    This has got to be just the most amazing thought when you 
come to an impeachment when you are trying to give due process 
to the President of the United States, and these are all 
ignored, and we can pretty it up any way we want to, but it is 
just not buying. This is not right. And look, you will impeach 
him. You have the votes. But at the end of the day, is it worth 
the integrity of the House? I don't think so.
    Mr. Cole. Well, during the staff presentation of the 
evidence, Ranking Member Collins asked how the investigation, 
he just made his point, was conducted, resulted in the Schiff 
report, never got an answer. Mr. Raskin, the House Intelligence 
Committee Democrats released phone records, including four 
phone calls by Intelligence Committee Ranking Member Nunes, how 
did the committee Democrats get those phone records?
    Mr. Raskin. I am going to have to ask staff counsel to pass 
me a note on that. I will say----
    Mr. Cole. But staff counsel didn't answer that. Is that 
correct, Mr. Collins?
    Mr. Collins. No, he wouldn't answer the question.
    Mr. Cole. So telling us to go ask somebody who didn't 
answer the question.
    Mr. Raskin. Well, I understand that we forcefully 
represented that no member of the House of Representatives and 
no member of the press was targeted with any investigative 
resources.
    Mr. Collins. Oh, Mr. Cole, really? I respect Mr. Raskin, 
but I am not even sure how he got that statement out without 
stumbling over everything. You cannot say that you take--
talking about numbers, at some point, somebody with a ranking 
member's phone number had to go down through there and look for 
the ranking member's phone number. They had to go down and look 
for Mr. Solomon's phone number. This is what they don't want to 
deal with. This is how bad it is screwed up.
    And I know they want to gloss over process, I know they 
want to gloss over how they did their investigation, because of 
time and the calendar are terrible masters. I have repeated it 
over and over, but this is what we are talking about and they 
wouldn't even talk about it. So to say that nobody was doing 
this intentionally is just not being factually accurate. It 
doesn't happen on its own.
    Mr. Cole. I would ask both of you this question: Who 
specifically matched the phone numbers of Ranking Member Nunes, 
and what method did they use?
    Mr. Raskin. I have no idea. I just one, if I could say, Mr. 
Cole, in response to the whole line of questions----
    Mr. Cole. Certainly.
    Mr. Raskin [continuing]. The President of the United States 
was given the opportunity to call any witnesses he wanted, any 
of the 17 witnesses who appeared before the House Intelligence 
Committee and Oversight and Foreign Affairs could have been 
called by the President. He would have had the opportunity to 
cross-examine any of them. But, of course, he didn't want to, 
because all of them essentially told different pieces of the 
exact same story, which is the President executed this 
shakedown of President Zelensky to come and get involved in our 
campaign at the expense of former Vice President Biden.
    Mr. Collins. That just doesn't hold water when you look at 
our--again, I can't say this enough. It goes back to our 
calendar and our clock. How is it possible when I talked to the 
chairman himself, sent him letters asking, you know, when we 
were going to get witnesses when he didn't even build the 
witness day in for ourselves. He didn't even build in the 
calendar a time to accept one of our witnesses, much less the 
White House witnesses, so don't tell me that he could have sent 
witnesses and we would have accepted it. It was never on the 
calendar.
    Mr. Cole. Let me ask you this, because these numbers--who 
specifically ordered the inclusion of these phone records in 
the Schiff report?
    Mr. Raskin. Mr. Ranking Member, I am afraid I can't answer 
these questions. I just don't know.
    Mr. Cole. Mr. Collins.
    Mr. Collins. Well, undoubtedly, it was the Intelligence 
Committee carrying out what seemed to be a political vendetta 
against another Member of Congress.
    Mr. Cole. Either of you think it is proper to have the 
names of individuals swept up in call logs who are not the 
target of criminal investigations to have their names and 
numbers----
    Mr. Collins. No. It is nothing but a political drive-by, 
and I brought that out. They could have done it several 
different ways. They could have said member one, it could have 
been person one, they could have done it any other way, but 
they chose to actually use the names. This was a political hit 
job.
    Mr. Cole. Give you an opportunity to respond, Mr. Raskin. 
Do you think it was appropriate for those numbers and names to 
have been released?
    Mr. Raskin. Again----
    Mr. Cole. They were not the targets of the investigations, 
they were just swept up.
    Mr. Raskin. Yeah. I was not involved in that part of it, 
and so forgive me, again----
    Mr. Cole. Again, I understand.
    Ms. Scanlon. Will the gentleman yield for a minute? We did 
have testimony on this.
    Mr. Cole. No, I'm not going to yield my time right now.
    Ms. Scanlon. Okay. I mean, there was testimony.
    Mr. Cole. You will have your time shortly.
    Mr. Collins. Yeah. Ms. Scanlon, the testimony was, I am not 
going to tell you.
    Mr. Cole. Okay. How many times, Mr. Collins, has Schiff 
report or hearsay statements been used as evidence?
    Mr. Collins. Hundreds.
    Mr. Cole. Well, actually only 54. It may seem like----
    Mr. Collins. When you take off one person talking off 
another person off another person, it goes up.
    Mr. Cole. How many times in the Schiff report or news 
reports the only evidence supporting factual assertions?
    Mr. Collins. I am sorry. Repeat the question. I had someone 
in my ear.
    Mr. Cole. Okay. How many times in the Schiff report or news 
reports the only evidence supporting factual assertions?
    Mr. Collins. It would have been the main factual assertion 
was Mr. Sondland, one.
    Mr. Cole. About 16 different times. Mr. Raskin, it is my 
understanding Chairman Schiff did not transmit the evidence 
collected during his committee's investigation to the Judiciary 
Committee until Friday, December 6th. Does that comport with 
your memory?
    Mr. Raskin. That is correct.
    Mr. Cole. Okay. So Judiciary Committee majority, did it 
have access to any evidence beyond the actual report from the 
Intelligence Committee until the weekend before the Judiciary 
Committee actually considered Articles of Impeachment?
    Mr. Raskin. Well, I don't remember exactly when all of the 
deposition statements were released publicly. I think some of 
them had been released publicly before that time, but we could 
go back and check the exact chronology.
    Mr. Cole. Sure.
    Mr. Raskin. There are certain members of the Judiciary 
Committee who are also members of other----
    Mr. Cole. Certainly understand. It is my understanding that 
Chairman Schiff did not transmit all the material collected by 
the Intelligence Committee to the Judiciary Committee. Is that 
the case?
    Mr. Collins. It is still true to this day.
    Mr. Cole. So do not agree, and I would ask this of both of 
you, the House Judiciary Committee should have had the time and 
opportunity to review all that material collected by the 
Intelligence Committee? Did you both have that time and 
opportunity?
    Mr. Collins. We did not. It is a direct violation of House 
Resolution 660.
    Mr. Raskin. Mr. Cole, all I can tell you is that the vast 
amount of what we ended up getting was what was being produced, 
released publicly along the way. I know the Intelligence 
Committee made the commitment to release those depositions, 
those deposition statements publicly. And so, I have considered 
it a very fair and transparent process. I don't think I got to 
see a single thing through the Judiciary Committee that I was 
not just seeing come out and being released by the Intelligence 
Committee.
    In any event, all of it is in the final report. It is there 
for all of America to see, and I don't want us to lose sight of 
the big picture.
    Mr. Cole. We really don't know if it is all there in the 
final report. If you haven't seen them yourself----
    Mr. Collins. We don't. No, we do not know. That is a 
statement that is assuming facts not in evidence. We don't 
know--this is the old classic case of evidence being given from 
a prosecutor in a trial. We don't know what we have not seen. 
We do know what--we know a few things we know have not been 
transferred, but we also have heard of other things that have 
not being transferred, and it can't be in the report if it has 
not been transferred because then we could at least say it was 
in the report.
    Mr. Cole. Let me move on to the articles themselves. 
Because in my view, we have established Intelligence Committee 
process was substantially flawed and procedurally defective. 
That is my view, I underline. Judiciary Committee failed to 
create an evidentiary record sufficient to justify moving 
forward on Articles of Impeachment, basically relied on the 
Intelligence Committee, again, where the President was 
unrepresented. That violated rules of the House, in my view, 
and the entire circus has been politically motivated from the 
very beginning.
    On the obstruction of Congress charge, it is uncommon for 
the--excuse me--is it uncommon and I ask this of both of you, 
uncommon for the executive branch to push back against requests 
for information from Congress?
    Mr. Raskin. Well, no, it is not uncommon for the executive 
branch to push back on the production of this or that document 
or the timing of a particular visit. What was absolutely 
breathtaking in its unprecedented and radical nature was this 
President's determination to shut down all discovery. They did 
not produce a single document to us, Mr. Cole, that was 
subpoenaed in this process. And the President essentially 
ordered everyone in the executive branch not to cooperate with 
us.
    Mr. Cole. Let me ask--excuse me. I don't want to cut you 
off.
    Mr. Raskin. I think that is a dramatic escalation in kind 
and in degree over anything that has ever been seen before, and 
that includes Richard Nixon, who, I think, tried to block seven 
or eight particular requests like the Watergate tapes, and that 
in itself became part of the case against him for abuse of 
power. But, you know, President Trump makes Richard Nixon look 
like a little leaguer when it comes to obstruction.
    Mr. Cole. Mr. Collins, same thing. Do you think it is 
unusual for an administration to push back against 
congressional subpoenas?
    Mr. Collins. No, it is common.
    Mr. Cole. If it is pretty common, do you believe it is a 
high crime or misdemeanor to assert privileges in response to 
congressional requests for subpoenas?
    Mr. Collins. Not--I want to go back and just give a little 
bit of history since we have had history lessons here from Mr. 
Raskin, and even in our own committee this year, what has been 
really interesting is, there has been a total just walk toward 
impeachment the whole time, but what was interesting in our 
committee is, we would send subpoenas, or we would, you know, 
again, we have sent out letters and stuff and we never followed 
up on. But also one of the interesting things about our 
committee was, we never engaged, for the most part, with the 
agencies for documents.
    But what I thought was really interesting was, Mr. Schiff, 
in the Intelligence Committee, while we were still struggling 
during Mueller and some other stuff, Mr. Schiff actually 
negotiated with the Department of Justice and actually got 
documents released that our committee couldn't. The House 
Foreign Affairs Committee, Elliott Engel, who is one of the 
quieter chairmans, but one of the more effective, in my 
personal opinion, from the across the aisle, had engaged all 
year with administration on ways to get documents. It is a 
matter of how you go about it and to say that this is just 
unheard of is just not right.
    Mr. Cole. Again, I would ask this to both of you. I think 
this gets to the point you are making. There is a normal 
accommodations process for resolving inner branch disputes 
between the House and the executive branch. Is that not 
correct?
    Mr. Collins. Yes.
    Mr. Cole. Okay. And that process really hasn't occurred 
here. I think, Mr. Collins, that is what you are telling me. It 
doesn't fit neatly into the Speaker's impeachment of Christmas 
timeline, to borrow your way of looking at it. We have not gone 
to court----
    Mr. Collins. No, they haven't.
    Mr. Cole [continuing]. On these things. We are not really 
engaged. This is a normal give and take, where actually both 
sides tend to avoid, quote, you know, an exchange where they 
might go to court and lose something, but all that has been set 
aside. We haven't had any process like that, have we?
    Mr. Collins. No. Mr. Cole, I will even point out something 
that I disagreed with, Mr. McGahn. There has been a court case 
in which we have lost in which Mr. McGahn--and it is still 
being appealed, but it does show you the process or don't want 
it to work as fast as you want it to work. And I think that is 
where we have to go back to in this whole process. So, no, even 
the one that they had that was actually one of the members of 
the administration contested. They just withdrew their 
subpoena, withdrew it from the lawsuit, because they just 
didn't want to deal with it.
    Mr. Cole. I know Mr. Raskin would have a different view and 
if he wants to respond, he would. But I want to ask you 
specifically, Mr. Collins. Is there any actual evidence that 
the pause on the Ukrainian assistance was for the President's 
improper personal political benefit, or could he have had other 
objectives? That is directed to you, Mr. Collins.
    Mr. Collins. I am sorry. I apologize.
    Mr. Cole. It is all right. I am throwing a lot of questions 
at you. Is there any actual evidence that the pause on the 
Ukrainian assistance was for the President's improper personal 
political benefit, or might he have had other reasons for 
withholding aid?
    Mr. Collins. He had plenty of other reasons. And I think 
part of it is the law itself, which says even though it was 
certified, it was the President's call to make sure that there 
was no corruption in where aid is given. There was other 
countries during that time was aid withheld. I think from our 
appropriator standpoint, Mr. Cole, you will also understand 
this aid was not even scheduled to go out. It had to be done by 
September 30. It actually went out early, if you look at it 
from that time frame. So there were other reasons. There was a 
recent poll, just to show you--and, again, we talk about this a 
little bit from our side, the corruption in the Ukraine was so 
prevalent, a recent poll said 68 percent of normal, just 
everyday Ukrainians had said that they had bribed a public 
official in the past year.
    There was reasons for this to be discussed and reasons to 
go at it, but I also want to point out one last thing on this 
other issue. Fast and Furious, infamous issue with the Obama 
administration. It was 7 months from first subpoena to first 
documents, 7 months. That doesn't fit the time line here.
    Mr. Cole. Absolutely.
    Mr. Raskin. So this is an essential point that you raise 
right now, and I think that there is not any credible evidence 
from any of the witnesses, or anything in the record to suggest 
that the President was actually trying to ferret out corruption 
as opposed to impose a corrupt scheme on the President of 
Ukraine. Let's start with this:
    In 2017, in 2018, the President could have raised 
corruption in withholding military and security assistance to 
Ukraine and never did. Then in 2019, he did. What changed? 
Well, Joe Biden was running for President and the Presidential 
campaign was much on his mind.
    Mr. Raskin. The President removed Ambassador Yovanovitch, 
and we have learned today from Mr. Giuliani that he was 
involved with the campaign by Parnas and Fruman to smear 
Ambassador Yovanovitch to say there was something wrong with 
her.
    In fact, when she was--according to all the testimony we 
had and all the public information we have, she was one of the 
leading anticorruption ambassadors that the United States has 
on Earth, and they sabotaged her. They undercut her. They 
subjected her to an unprecedented smear campaign that led 
several of the other witnesses to protest that the State 
Department was not standing by its own ambassador.
    And they got rid of her, as Mr. Giuliani said in today's 
paper, because she was getting in the way of the investigations 
they wanted. And what investigations were those? Those into 
Biden, those into the 2016 conspiracy theory. So that is pretty 
clear. It had nothing to do with corruption.
    Moreover, if you go to the July 25 telephone call, 
President Trump never raised the word ``corruption'' once, but 
he did talk about Joe Biden three times. So we didn't hear 
corruption, corruption, corruption; we heard Biden, Biden, 
Biden. That was the favor that we were looking for, right? He 
wanted the President of Ukraine to come over and say he was 
investigating the Bidens.
    Look, that is unrefuted and uncontradicted in the record. I 
don't think we should be trying to pull the wool over America's 
eyes about this. Let's not play make-believe. If we want to say 
it is okay for the President to do this stuff, then let's just 
go ahead and say it. But let's not claim that he was involved 
in some kind of anticorruption crusade at the time. I think 
America knows that we can't take that seriously.
    This President cut anticorruption funding to Ukraine by 50 
percent. The chairman of his campaign, Paul Manafort, was on 
the take, he was on the dole for millions of dollars to a 
former corrupt President in Ukraine. President Zelensky, who 
was getting shaken down, was the reformer. He was the product 
of the revolution of dignity in 2014, which tried to bring some 
democracy and tried to bring some fairness and anticorruption 
efforts to Ukraine. Giuliani and his gang that can't shoot 
straight, they went over there because they wanted to take 
advantage of the situation and go back to the corrupt forces in 
Ukraine.
    So this President had one thing in mind: His own reelection 
and how President Zelensky could help him. And you can see that 
if you look at the phone conversation that Ambassador Sondland 
had with the President the day after July 25.
    On July 26, he had this phone conversation that was 
partially overheard by David Holmes in the State Department, 
and he hears him tell the President that Zelensky will do 
whatever you want, he is going to do the investigations, he 
loves your ass and so on.
    And then he gets off the phone, and then he tells him what, 
that what the President is interested in is the big stuff 
relating to the President's own political ambitions, like the 
Bidens. He is not interested in the war with Russia. And I 
would say, obviously, he is not interested in corruption. He 
was interested in the Bidens and that was it.
    Now, either we think that is in appropriate and proper 
thing for the President of the United States to be doing or we 
think it is wrong. And some of us believe it rises to the level 
of an impeachable offense.
    Mr. Cole. I want to give Mr. Collins a chance to respond. 
Before I do, President Zelensky, any Ukrainian official ever 
tell you they felt shaken down?
    Mr. Raskin. Well, there is lots of evidence in the record--
--
    Mr. Cole. That is not what I asked. I said, have you got 
any statement----
    Mr. Raskin. No, I have never spoken to him.
    Mr. Cole. Okay. And is there any statement on the record? I 
don't think so.
    Mr. Collins. No. There is statements on the record. The 
record argues we wasn't pressured, we wasn't part of anything. 
I wouldn't be a part of that. Those are the statements from Mr. 
Zelensky.
    Mr. Raskin. Well----
    Mr. Collins. You know, don't let--at this point----
    Mr. Cole. I want to give Mr. Collins a chance to respond, 
and then we will come back to you.
    Mr. Raskin. There are contemporaneous emails where--and 
somebody will pass me the exact language, but essentially where 
Mr. Yermak, who is the top right-hand man to the President of 
Ukraine, says that the President does not want to be treated as 
a political pawn in domestic American politics. For several 
weeks they were doing everything in their power to try to get 
out from underneath the straitjacket of this scheme that was 
coming--that was bearing down on them from every different 
direction.
    Mr. Cole. Mr. Collins.
    Mr. Collins. Wow, that is a story right there. Maybe this 
is good we are doing this, because we are having to expand the 
story to fit our narrative here. And because, you know, if you 
don't--let's don't play make-believe. There is nothing--if they 
had something in the phone call, it would have been in the 
Articles of Impeachment. They don't. Because at the end of the 
day, there is no direct evidence of what they are trying to 
spin here, and that was that there was a pressuring or a quid 
pro quo or however you want to put it to Mr. Zelensky.
    The problem here is, is that Mark Sandy testified under 
oath that there was a wholesale investigation going into 
foreign aid this year. So you can go back and quote 2017, 2018 
all you want, but this year, because of the problems, he 
testified that there is a wholesale investigation on the 
foreign aid everywhere. But if you go--President Trump actually 
raised this with Mr. Poroshenko in 2017, and that was testified 
too by Mr. Volker and the former Ambassador.
    So when you look at this, there is no direct evidence of 
what was said here, and to try and then come back and put this 
into a different perspective--and, again, going back to Mr. 
Yermak, who Mr. Yermak said there was no connection between--
ever discussed between the aid and an investigation. And also, 
if they were trying to get out from under it so hard, I guess 
if we are looking at--because they never did anything to get 
the aid. They never did anything to get the aid, if they were 
that scared something was wrong.
    Mr. Cole. I will try to bring this to conclusion because--
and I know there will be a difference of opinion here, so you 
certainly both can respond. Contrary to my claims that--or to 
my friends' claims across the aisle, Mr. Collins, do you think 
the Democratic majority effectively denied the administration a 
meaningful opportunity to participate in this proceeding?
    Mr. Collins. They didn't effectively; they did.
    Mr. Cole. Okay. On October 30, the Rules Committee held our 
original jurisdiction markup on H. Res. 660, and there were 
many serious concerns from our side of the dais about the 
damage this unprecedented process could have to the 
institution.
    The Republican members of the committee were repeatedly 
assured that, quote, the President has been afforded all kinds 
of rights before the Judiciary Committee--we have heard that 
assertion again today--and that this would be an open and 
transparent process. Despite the fact that we received the text 
of the resolution a mere 24 hours earlier, did not have a 
single amendment made in order.
    Mr. Collins, was the administration provided the 
opportunity to participate in the Intelligence Committee 
proceedings? Because in my mind----
    Mr. Collins. No.
    Mr. Cole [continuing]. They have basically supplanted the 
Judiciary as the principal committee of impeachment.
    Mr. Collins. They were, and they definitely want it in 
Judiciary. And they can--it was put into the record that they 
should have been, but the problem is the actual way it played 
out in the scheduling in Judiciary Committee made it nowhere 
possible that they could even--if all of a sudden they, you 
know, wanted it, there was no time in the calendar for it.
    Mr. Cole. So I will just end with this. I mean, I 
certainly--well, I will let my friend respond if you wanted to.
    Mr. Raskin. Thank you. You are very kind, Mr. Cole.
    When Lieutenant Colonel Vindman testified, he said that 
this request for a favor was not in any sense a friendly 
request; it was a demand in the context of the hundreds of 
millions of dollars that were being held up, the request for 
the White House meeting, and so on.
    For weeks, the Ukrainians pushed back on the demand of the 
President, his agents, and advised U.S. officials they did not 
want to be, quote, an instrument in Washington domestic 
reelection politics. You recall the testimony of Dr. Fiona 
Hill, who said that this was a domestic political errand that 
the President's team was on in order to extract this commitment 
from President Zelensky to come and give this interview.
    And, in fact, they had publicly announced--or they were 
going to publicly announce investigations in an interview that 
President Zelensky had scheduled on CNN, but then Ukraine 
canceled the interview a few days after the President's scheme 
was publicly exposed and the military aid got released. In 
other words, when the whole scheme blew up, then President 
Zelensky felt that he could be free from this obligation to 
come forward and say he was investigating the Bidens.
    Mr. Cole. Well, with all due respect, the President was 
telling United States Senators in August that the aid was 
probably going to be released long before, you know, there was 
any notion about a whistleblower or anything else. Senator 
Johnson from Wisconsin has testified to that fact.
    Mr. Raskin. Well----
    Mr. Cole. So--and, again, with all due respect, I mean, the 
last administration for 4 years didn't provide any military 
assistance to Ukraine. The idea that 55 days was somehow life 
and death in this situation, particularly during a period of 
transition from one government to another, you know, it just--
pretty thin gruel to impeach a President of the United States 
on.
    Mr. Chairman, you know, with all due respect to my friends 
here, who I admire both and who I think have been very helpful 
in their testimony and, as always, straight and forthright, my 
view, Chairman Schiff ought to be the person answering 
questions in front of the Rules Committee. It is his report.
    I don't blame the President for passing on the opportunity 
not to go before the Judiciary for what was clearly going to be 
perfunctory and provide a sort of window dressing of legitimacy 
to this process. So the claim that he was given meaningful or 
consistent opportunities treated anywhere like previous 
administration, I just don't think holds up when you are denied 
an opportunity to participate where the principal action is at 
and then given a last-minute thing.
    And so, again, I am going to yield back my time, Mr. 
Chairman. I want to thank both of our distinguished members, 
former and current, of the Rules Committee, for coming up here 
and providing us their insight and their testimony. It is great 
to work with both of you, and I appreciate your service to your 
districts and to the Congress and to the country.
    I yield back.
    The Chairman. So I want to thank the gentleman for his 
questioning. I said I would be liberal with the time.
    Mr. Cole. You were.
    The Chairman. You are going to make me into a conservative 
by the end of this hearing.
    But let me just do a couple of things here. One is I want 
to ask unanimous consent, without objection, to insert into the 
record an October 23 New York Times article entitled, ``Ukraine 
Knew of Aid Freeze by Early August, Undermining Trump 
Defense.''
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairman. I also want to make a couple of comments 
about the minority day witness issue. I did send a letter to my 
colleagues on the Rules Committee. We made it part of the 
record. Mr. Nadler has confirmed that he would work with the 
minority to schedule their hearing day on constitutional 
grounds of impeachment, notwithstanding the fact he already----
    Mr. Collins. When?
    The Chairman [continuing]. Allowed a minority witness. And 
we looked at the history of this whole rule, and basically it 
was designed to ensure that the minority was not shut out of 
witnesses, that they were not completely shut out of hearings, 
as had occurred in the past.
    And the minority did get a witness. He was there. But I 
would just say that this notion that somehow the minority has 
this superpower ability to be able to, not only name the 
witnesses, but set the day and to be able to slow down progress 
on any bill, if that were the case, having been in the minority 
for 8 years, we would have used it to stop most of the agenda 
that my Republican friends have put forward.
    I will make that letter available to anybody who is 
interested.
    Mr. Collins. Mr. McGovern.
    The Chairman. Yes.
    Mr. Collins. Mr. Chairman, I do have a question. You made a 
statement, and I am not sure how you were wording it, if it was 
a paraphrase or not, but I was never promised by Mr. Nadler 
that he would work with us on the minority hearing day from now 
to infinity. I mean, he just basically said, no, we are not 
having it. He did not.
    The Chairman. Well, my understanding is that he said that 
in committee. Maybe I am wrong, but we could find that out 
during the break.
    Mr. Collins. Well, we have had a little issue of 
consultation lately, so----
    The Chairman. We will look that up, and by the time we get 
back, we will get you that answer.
    But let me again remind everybody why we are here today, 
because it is easy to get--caught up in the weeds and to talk 
about process. I just was handed it. Nadler, and it says, I am 
willing to work with the minority to schedule the hearing. I 
will pass that on to the gentleman if he would like to see it.
    Mr. Collins. We have consultation issues in our committee, 
and sending that and not talking about it and taking all of our 
witnesses out is not true. And putting it into letter is fine, 
but it is still not true.
    Mr. Hastings. Well, it is what he said.
    The Chairman. Right. So, you know, I will ask that to be 
part of the record as well.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairman. Look, let me just remind everybody why we are 
here. As I said over and over again, the President abused his 
power of office for his own personal gain and obstructed a 
congressional investigation to look into that conduct. And we 
all know how he did it. He tried to shake down the Government 
of Ukraine to basically get dirt on his political opponent to 
help him in the upcoming 2020 election, and he engaged in a 
systemic pattern of denying any documents of any cooperation 
with Congress. That is obstruction of Congress.
    And, Mr. Collins, you kept on saying something that I 
actually agree with. You talk about how the clock and the 
calendar is important. You know, from my vantage point and from 
the way I look at what has happened here, it is important, 
because I believe, as Mr. Raskin stated at the beginning of his 
testimony, that there was a crime in progress.
    I mean, we have an election coming up in less than a year, 
and the President is openly trying to encourage foreign 
interference in that election. I mean, that is big--that should 
shock everybody, not only in this committee, in this Chamber, 
all throughout this country. It is just wrong. It is so wrong.
    And so we will continue this hearing. We just had votes, 
and we will recess and come back at the beginning of the last 
vote, where we will then turn to Mr. Hastings.
    The Rules Committee stands in recess.
    [Recess.]
    The Chairman. The Rules Committee will come to order.
    We welcome back our two witnesses. And at this time, I am 
happy to yield to my distinguished colleague from Florida, 
Alcee Hastings.
    Mr. Hastings. Thank you so very much, Mr. Chairman.
    Mr. Chairman, with your permission, I would like very much 
to yield to our colleague, Ms. Scanlon, for some questions that 
she may have of our witnesses.
    The Chairman. Without objection.
    Ms. Scanlon. Okay. Thank you.
    I just wanted to clarify one thing. We had a line of 
questioning from Mr. Cole right before we broke, and it had to 
do whether or not there had been subpoenas issued for Ranking 
Member Nunes' phone records, and, you know, there seemed to be 
some confusion from our two witnesses here.
    But I recalled the testimony that we had in Judiciary, 
which was that, in fact, no subpoenas had been issued for any 
Member of Congress or for any journalist, that the Intel 
Committee has subpoenaed metadata, so just call records, not 
actually phone taps, of four people who had been involved in 
this scheme to abuse the power of office and smear Ambassador 
Yovanovitch.
    After each of those people had been subpoenaed 
individually--so that was Giuliani, Parnas, and Fruman, and 
Sondland--two have been indicted for crimes now related to this 
investigation. So once those phone records were brought in, 
patterns were noticed around particular events, and that was 
when Ranking Member Nunes' phone number was identified. It 
wasn't that his number was sought. He just happened to be in 
conversation with the co-conspirators there.
    So if people are interested in that, in addition to the 
testimony we heard in Judiciary, that information can be found 
in the Intel report that was filed on pages 45 through 47, and 
then at footnote 76, which is on page 155. And I would just 
note particularly there it says: The committee did not subpoena 
the call detail records for any Member of Congress or staff.
    So, you know, to the extent that we were getting distracted 
by some notion that people were trying to improperly 
investigate Members of Congress, I think we should put that to 
bed and call it out for being a distraction and just not the 
truth.
    Mr. Raskin, did that----
    Mr. Collins. Can I answer?
    Ms. Scanlon [continuing]. Refresh your recollection on any 
of that?
    Mr. Raskin. Ms. Scanlon, thank you very much for adding the 
details. My primary recollection of our conversation about that 
was precisely this, that the Intelligence Committee targeted no 
Member of Congress, it targeted no journalist, it did not 
direct subpoenas against any of them, and I believe that the 
names that came up came up in the normal course of standard 
investigatory procedure. So there is nothing untoward there 
that I can see.
    Ms. Scanlon. Okay. And also, there was testimony from Mr. 
Nunes--or not testimony, questioning of Ambassador Taylor by 
Mr. Nunes indicating that, in fact, he had been phoning folks 
in the Ukraine, right, so he had acknowledged that?
    Mr. Raskin. That he, Mr. Nunes, had?
    Ms. Scanlon. Yes.
    Mr. Raskin. Yes. Yes, I believe that is in the transcript 
as well. I mean, he basically has said that he was conducting a 
kind of investigation of his own into what happened.
    Ms. Scanlon. Okay. Okay. Hopefully, that puts that to bed.
    And I would yield back to Mr. Hastings.
    The Chairman. With that, Mr. Collins.
    Mr. Hastings. Yes, I would certainly yield to Mr. Collins.
    Mr. Collins. Yeah, I appreciate it.
    It doesn't put it--I appreciate the gentlelady bringing it 
up, but it had nothing to do with the question that was asked, 
and it doesn't put it to bed at all. I have always acknowledged 
that they were properly done subpoenas. I am still an 
institutionalist. I believe that subpoena power of the 
committees actually work.
    And I have never denied that the committees--in fact, I 
said it in the Judiciary Committee that day to Mr. Goldman. 
Never questioned the committee process, never questioned the 
subpoena, and also acknowledged there was never a direct 
subpoena on any Members of Congress.
    What I did say and what I will continue to say was, even--
and the gentlelady just acknowledged it, was that when they 
started going through the phone records, they looked at people 
they called and then someone somehow had the ranking member's 
phone number, and they collaborated that with that phone call 
that is working.
    Now, even to that point, I could say, okay. But my problem 
comes is the way it was actually put in, is what I will 
consider a political hit job in the report itself, when it 
could have been done many different ways, because it was not 
applicable notice to this Articles of Impeachment, it was not 
anything that was furthering a narrative, except to, frankly, 
look at getting back to the ranking member and others. They 
could have put that in, as we have seen in other reports, 
Congress Member One, Congress Member Two.
    So nothing that was--supposedly that was said--and I 
appreciate the gentlelady bringing this up, but I never 
questioned the subpoenas, never questioned that. My question 
was who is actually--it was said to actually start putting 
these together and then put them in the report.
    Mr. Raskin. If I could just say, I just bristle a little 
bit at the suggestion that Chairman Schiff and the Intelligence 
Committee did anything wrong there. I was a State assistant 
attorney general for a couple years, and my recollection is 
that if you get a table of telephone records and other numbers 
come up, you do your due diligence on all of the other numbers 
to see who is involved, and what we are talking about is 
possibly conspiratorial activity.
    And so that was the way in which those numbers surfaced, 
and I think they did their regular due diligence on it, and 
that is how those callers were identified.
    Mr. Woodall. Could I ask my friend to yield for just a 
moment?
    Mr. Hastings. I have the time, and I will yield to Mr. 
Woodall.
    Mr. Woodall. Thank you so much, Mr. Hastings. I appreciate 
that.
    I did not know that I understood what you just said. I 
thought you said your experience in the State prosecutor's 
office led you to release the kinds of names of co-conspirators 
as those things were discovered. Certainly, you are not 
suggesting that Mr. Nunes was a co-conspirator in any way, 
shape, or form?
    Mr. Raskin. No, no, not at all. No, not at all.
    Mr. Woodall. Thank you.
    I thank my friend from Florida.
    Mr. Hastings. Are you finished, Ms. Scanlon?
    Ms. Scanlon. Absolutely.
    Mr. Hastings. All right. Thank you.
    Mr. Chairman, when we took our recess to vote, you had just 
made what I considered to be a very profound statement that is 
short, and it is that the President's actions, in your words, 
were so wrong. And it is hard for me to believe that all of us 
here and in the previous committee, and as this matter 
proceeds, do not all understand that. But the dais pretty much 
cashed.
    In this institution, we are fond of saying, after everybody 
is exhausted and talking about whatever the issue is, that 
everybody has said everything that needs to be said, but I 
haven't said it yet. And that is what is going to happen with 
every one of the members that come after me.
    But what is disturbing to me is that we are like we are in 
alternative universes, not just here in the Rules Committee, 
but in the Judiciary Committee, in the Intelligence Committee, 
where I served for 8 years, and really in America. And it is 
regrettable that my friends, the Republicans, are not 
addressing or defending the President's actions.
    What you are doing is talking about the process. I might 
add footnote right there, you haven't seen nothing yet if you 
listen to Lindsey Graham and the majority Leader McConnell 
about how, if and when this matter gets to them, how they are 
going to act. How dare somebody say that they aren't going to 
pretend that they are fair, and the other one is going to 
collaborate with the White House.
    So I would assume that the managers that are Democrats, 
when they get over there, they are going to be talking about 
process. Because if you are talking about unfairness, just the 
mere fact that both of those people who should recuse 
themselves, in my judgment, made those kinds of statements 
indicates where they are.
    But to turn back to you, Mr. Chairman, about something 
being wrong with what the President did. When I was a boy, and 
that is 83 years ago, my dad, who never went to school a day in 
his life, when I had crucial issues over the course of time, 
both as a child, little boy, and he lived long enough to see me 
become a lawyer, and the difficulties along the way in college 
and what have you, he would always say to me that right don't 
wrong nobody. And the fact of the matter is that what we are 
doing here is right.
    Let me just excise one thing. So-called corruption--and, 
Mr. President--Mr. Chairman, with your permission, just to make 
sure that this record is complete, not that this transcript has 
not been released, but I ask unanimous consent that the 
unclassified version of the telephone conversation of the 
President with President Zelensky of Ukraine be made a part of 
the record.
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Hastings. I am going to come back to that.
    We find ourselves here today discussing two Articles of 
Impeachment against President Donald John Trump because of his 
disregard of and disrespect for the United States Constitution. 
President Trump withheld American taxpayer money that was 
appropriated by their duly elected Members of Congress, all of 
us, to help our ally fight a hot war.
    It would be one thing if we, as we do help around the 
world, if this was not an enemy of the United States, a corrupt 
enemy of the United States, Russia. I don't have to ask anybody 
about it. I have been there. I saw the changes that took place. 
I monitored elections there. So I know that corruption is rife 
in that country.
    And yet, we witness last week, Sergey Lavrov, who I know, 
coming here in the Oval Office with the President smiling. And 
you all aren't prepared to defend that kind of action with 
reference to corruption? I find it strange that you are in that 
position. But Trump withheld his taxpayer money to help our 
ally fight a hot war against Russia so he, President Trump, 
could obtain a personal political benefit.
    And I am going to get back to this document I ask UC on at 
some point to talk about that. And just in case folks think 
that the facts, which my colleagues will not discuss, are a bit 
too tenuous, a bit too hazy, please remember that on October 3, 
2019, President Trump went out on the White House lawn, stood 
in front of a bunch of reporters and television cameras, and 
advised President Zelensky to announce the investigation. For 
good measure, he then encouraged China to also start an 
investigation into the Biden family.
    Not long afterwards, on October 17, 2019, President Trump 
allowed his Chief of Staff Mick Mulvaney to hold a press 
conference in which Mr. Mulvaney not only admitted that a quid 
pro quo existed, but that we should get over it because that is 
just the way things are, he said, when it comes to foreign 
affairs and apparently foreign countries being lobbied to 
meddle in our elections. Mick is dead wrong. That is not how we 
exercise our policy in this country.
    I am no world expert, but I began my career here 27 years 
ago on the Foreign Affairs Committee. I was appointed by Newt 
Gingrich, along with Doug B. Rider to study the reversion of 
Hong Kong and Macau to Mainland China. I went with Donald Payne 
often to 26 countries in Africa. And over the course of time, I 
became the president of the Parliamentary Assembly of the 
Organization for Security and Cooperation in Europe; and if you 
can say that, you ought to be president of that organization.
    But there are 57 countries in that organization, including 
Russia, and Canada and the United States make it a 
transatlantic organization. I went to Europe 36 times during a 
2-year period to most of those countries. I made it to 47 of 
those 57 countries, and I swore in Montenegro as the 57th 
country in the Organization for Security and Cooperation in 
Europe.
    I think I know a little bit more about the world than Mick 
Mulvaney, and that is not the way President Bush, President 
Clinton, President Obama, that is not the way they conducted 
policy at all. Well, he says get over it. I for one will not 
accept that vision of this great country, let alone get over 
it.
    Mr. Chairman, also consider an article of obstruction of 
Congress today we are, and I believe the record shows the 
administration's obstruction to be beyond debate. And you have 
demonstrably shown lots of that obstruction. And while many of 
our members don't want to bring it up, I cannot--when I was ill 
at home for a protracted period of time, I read every line of 
the Mueller report, and the Mueller report clearly reflects 
that the President obstructed justice long before we get to 
this particular matter that we are dealing with.
    We are stewards of the House of Representatives, and to not 
have all Members of this body object in the most strenuous 
terms to this administration's complete obstruction of our 
clear constitutional prerogative to conduct an impeachment 
inquiry is, to me, truly disappointing. To not object, to not 
draw the line here is to do a great disservice not only to 
those who came before us, but those who will come after us.
    With that, Mr. Chairman, I have a few questions for Mr. 
Raskin.
    Mr. Raskin, did President Trump solicit Ukraine's 
interference in our country's 2020 election?
    Mr. Raskin. It is overwhelmingly clear that he did.
    Mr. Hastings. Did President Trump solicit this foreign 
interference in order to obtain a personal political benefit?
    Mr. Raskin. He absolutely did.
    Mr. Hastings. Did President Trump condition the release of 
taxpayer money appropriated by Congress on President Zelensky 
announcing an investigation into President Trump's political 
opponent?
    Mr. Raskin. All of the evidence we have says that he did.
    Mr. Hastings. Did President Trump's actions undermine the 
national security of the United States and that of a key ally, 
namely Ukraine?
    Mr. Raskin. I believe that they did. Ukraine had been 
invaded and attacked by Russia. There had been more than 13,000 
casualties in that war. The President was desperate--the 
President of Ukraine was desperate to get security assistance, 
and that was provided by Congress. Congress decided that this 
money was a good investment to defend a besieged ally, that we 
needed to contain the continuing imperial designs of Vladimir 
Putin to expand Russian power and to control nations in the 
neighborhood there.
    Mr. Hastings. On January 20, 2017, Donald John Trump took 
an oath to preserve, protect, and defend the Constitution of 
the United States. Has, in your opinion, the President violated 
that oath?
    Mr. Raskin. I think this was an essential betrayal of his 
oath of office when he decided to try and coerce a foreign 
government to get involved in our Presidential election, this 
Presidential election in order to steer the result in a 
particular direction, and then, as the pattern shows, to cover 
it all up by stonewalling Congress and by issuing an 
unprecedented, categorical, and indiscriminate ban on 
participation in a congressional impeachment investigation.
    You know, we got a letter from Mr. Cipollone where he 
didn't even bother to invoke a privilege. He didn't even bother 
to invoke the phony absolute immunity pretext they have been 
using. He just said, no, we are not going to participate. They 
really think that, unlike every other American citizen, they 
are not subject to congressional subpoena.
    And like you, Mr. Hastings, I would wish that even if our 
colleagues across the aisle differ with us on Article I, they 
have some difference which has yet to be expressed certainly 
under oath by anyone. But if they believe there is a different 
story or the President has an alibi, okay, fine. But in terms 
of Article II, the President cannot have the power to destroy 
our oversight investigative power if we are going to be able to 
impeach a corrupt President.
    Mr. Hastings. And that is the next question I wanted to ask 
you. Does the United States Constitution place the power of 
impeachment solely in the Congress?
    Mr. Raskin. Solely in the House of Representatives.
    Mr. Hastings. In the House of Representatives.
    Mr. Raskin. And the reason why it is stated that way, Mr. 
Hastings, is because the Framers didn't want the Senate 
thinking that they could initiate an impeachment. They can't. 
It has got to come from the House of Representatives, and 
because they wanted it demarcated from the discussion which was 
taking place at the time which is that, well, the Supreme Court 
should impeach or the State legislature should impeach. There 
were lots of ideas out there.
    But, look, they said that the House of Representatives was 
the organ that represents the people. We are the people's body. 
Now, the Senate has some claim after the enactment of the 17th 
Amendment. They are elected by the people now too. They used to 
be chosen by the State legislators, but they really still do 
represent on the kind of disproportionate basis of the--of each 
State getting two despite the size of the State. But we are as 
close as you get in our Constitution to the pure 
representatives of the people.
    Mr. Hastings. And the Senate acts on oath and affirmation 
as well. Am I correct?
    Mr. Raskin. They are the constitutional jurors, and in some 
sense the judges too. They will decide on matters of law. But 
they will make the final application of the law to the facts in 
this case. And that is why I think you are correct to point out 
that all of them have to think very carefully about what the 
constitutional oath of a juror entails.
    Mr. Hastings. Thank you.
    Mr. Raskin. And certainly some of them have been saying 
things that seem to be apart from what we would expect of 
jurors in any other context.
    Mr. Hastings. It is my understanding that--and the Chairman 
McGovern has pointed out some of this, but I want to highlight 
the number. It is my understanding that the executive branch 
has received over 70 specific individualized requests for 
documents during Congress' impeachment inquiry. How many 
documents have been produced?
    Mr. Raskin. Zero have been produced. We have not gotten 
anything. We have not gotten anything from the Office of 
Management and Budget. We have not gotten anything from the 
Department of State. I mean, we have witnesses who complained 
to us in this process that their own documents had essentially 
been embargoed and controlled by the President and by the 
executive branch when they wanted to turn it over so we could 
find out what was going on. We are in a search for the truth 
here. This is not a game. We want to know what happened.
    Mr. Hastings. I hear you.
    In response to duly authorized subpoenas, how many top 
aides has President Trump made available to the committees 
conducting the impeachment inquiry?
    Mr. Raskin. Well, he has tried to block all of the 
witnesses. We ended up having 17 witnesses, but there is still 
a number of key fact witnesses who have not come forward 
because the President has succeeded in blocking and restraining 
their testimony, like the Secretary of Energy, like the 
director of the Office of Management and Budget and so on.
    Mr. Hastings. My recollection, during the Judiciary 
proceedings, is that you put this question in a different form 
that I am about to put to my colleagues now, and that is all of 
us in this room. I ask the question, how many of my friends 
here on this dais think it is okay for an American President to 
solicit foreign interference in our elections? Raise your hands 
if you think that that is okay. Anybody?
    I see none. And in that light, clearly we have these 
differences.
    Mr. Collins.
    Mr. Collins. Yes, sir.
    Mr. Hastings. Would you consider Ukraine a strategic 
partner to the United States?
    Mr. Collins. Yes, sir.
    Mr. Hastings. Do you want us to believe that withholding 
the aid for the reasons our investigation identifies did not 
harm United States national security?
    Mr. Collins. Which ones are you talking about? I will--on 
that fact pattern, Mr. Hastings?
    Mr. Hastings. I am talking about----
    Mr. Collins. The one that you--the ones that the majority 
stipulate to or the ones the minority stipulate to?
    Mr. Hastings. The majority.
    Mr. Collins. No. I do not agree with the majority's 
interpretation of the call.
    Mr. Hastings. I seem to think that that is going to be your 
role. You don't think that asking a President of a foreign 
country, that is in a hot war, that we withhold aid from him, 
you don't think that affects our national security, if you 
think Ukraine is our ally, as I believe you do and I do?
    Mr. Collins. Mr. Hastings, I just don't accept the premise 
of your facts.
    Mr. Hastings. All right. What value for Ukraine do you see 
in the Oval Office visit that was being sought?
    Mr. Collins. You would have to ask Ukraine.
    Mr. Hastings. Do you recognize that such a visit would send 
a strong message to Russia, sort of like Lavrov being in the 
Oval office last week, and the rest of the world that the 
United States supported Ukraine and was ready to defend it 
against Russian aggression?
    Mr. Collins. I think a better statement was when Mr. Trump 
sent actually offensive weapons to shoot down Russian assets.
    Mr. Hastings. And that ignores the fact that the aid was 
withheld and a hot war was ongoing?
    Mr. Collins. Again, we are going--in all due respect, we 
are going in circles here. I do not believe there is anything 
wrong with the aid being held for the reasons that was said, 
and I have stated this before. And, actually, Mr. Trump did 
more for the Ukrainians in a hot war than was previously done. 
So I think we are----
    Mr. Hastings. You know, I have heard that before, and I am 
not going to elaborate, but I can assure you if they point, as 
you do and many do, to President Obama not providing lethal 
weapons, what the minority fails to note is during the early 
stages of the Trump administration the aforementioned lethal 
weapons were provided to Ukraine. And it wasn't until 2019 
during the lead-up to the 2020 Presidential election and after 
former Vice President Biden announced his candidacy did 
President Trump exert his official duties and place a hold on 
lethal aid.
    Let me turn to corruption. Ostensibly, this July 25 
transcript reflects, according to my friends on the other side, 
both in Judiciary and to the extent that the report from 
Intelligence reflects it, that in this particular matter, that 
corruption was what was being sought to be determined. Hmm.
    Let me urge President Trump to look around the world if he 
wants to talk about corruption, and have him answer for me why 
he cosies up to Russia and all roads lead to Russia, when we 
all know how corrupt they are and what they have done, not only 
in the previous election, but what they are doing even as we 
are in the runup to this election. And, yes, my county--my 
State had two counties that hackers from Russia were 
successful. And he has the audacity to go out and say now they 
don't talk about Russia in the elections, they are talking 
about Ukraine.
    Why is it that the President, as the chairman has pointed 
out, cosies up to a dictator like Duterte in the Philippines? 
Why is he not looking right here in this hemisphere, where we 
have not paid as much attention as we should. And I believe my 
colleague is going to address it, but I do need to raise 
Venezuela, and I haven't heard very much lately from him with 
reference to Venezuela. I haven't heard very much from him 
about El Salvador. Haven't heard, other than China dealing with 
trade.
    Anybody in here that doesn't believe China is corrupt, then 
you should just visit any one of the places where people are in 
gulags and being held and how intellectuals and religious 
leaders are being tortured in that country. And not to mention, 
the chairman pointed to it as what the President said, that he 
fell in love with Kim Jong-un. And Kim Jong-un is preparing 
missiles, and if successful, may one day be able to reach this 
country, and there is no reason to believe that he wouldn't.
    Is the President aware of what is going on in Italy? Is he 
aware of what is going on in India? How about Iran? I haven't 
heard him say a mumbling word about what is happening in Iran. 
Is he aware of what is going on in Lebanon? Is he aware of the 
corruption that is being identified and how Chile is on the 
bubble? I just can't believe you people.
    And let me turn now to this and ask you all, and I already 
know the answer. Can anybody in here, particularly those of us 
on the Rules Committee, name any other President in the history 
of the United States that has asked a foreign government or its 
leaders to investigate an American citizen for political 
purposes?
    Mr. Hastings. Can anybody in here identify any President 
that has done that? Seeing none, I proceed.
    The simple fact of the matter is that my colleagues have 
determined that they are going to go down the road of 
distraction and are not going to discuss the facts in this 
matter.
    Let me tell you some of the people that you-all should have 
heard from and some would argue that we should wait until the 
courts--and I am sure that the administration would fight all 
the way to keep Secretary Pompeo from testifying, John Bolton 
from testifying, Mick Mulvaney, Dan McGahn or Don McGahn, the 
man that the President told to go and fire the FBI Director. 
How about Robert Blair and Michael Duffey, the guys from Mick 
Mulvaney's shop where the aid has been withheld?
    Now let me turn to this document. First off, let me ask 
both of you whether you know if a full verbatim transcript 
exists of this July 25th call.
    Mr. Collins, do you know?
    Mr. Collins. I know that all the witnesses testified that 
this was a clear and accurate transcript.
    Mr. Hastings. Mr. Raskin, do you know whether a verbatim 
transcript exists?
    Mr. Raskin. For the July 25th call?
    Mr. Hastings. Yes.
    Mr. Raskin. Well, that is not a verbatim transcript.
    Mr. Hastings. Correct.
    Mr. Raskin [continuing]. That we have. That is a 
contemporaneous memorandum that was written by the White House. 
I have never seen--I have never seen a verbatim transcript.
    Mr. Collins. There is no witness that testified--there is 
no witness that contradicted the statements in that and on any 
of the witnesses.
    Mr. Hastings. Excuse me?
    Mr. Collins. They did not. They said the transcript was 
accurate.
    Mr. Hastings. Well, what about all of those people that 
testified before your committee that discussed matters that 
they thought were wrong that the President did?
    Mr. Collins. Wow, Mr. Hastings, I wish we had had all those 
people testify before my committee, but they didn't.
    Mr. Hastings. Okay. Let me turn to the footnote on this 
unclassified document that is in the record. It says: A 
memorandum of a telephone conversation is not a verbatim 
transcript of a discussion. The text in this document records 
the notes and recollections of Situation Room duty officers and 
NSC policy staff assigned to listen and memorialize the 
conversation in written form as the conversation takes place. A 
number of factors can affect the accuracy of the record, 
including poor telephone communications connections and 
variations in accent and/or interpretation. The word, quote, 
inaudible, unquote, is used to indicate--it says ``indicate''--
portions of a conversation that the note-taker was unable to 
hear.
    Do either of you know why the full transcript is in a 
classified server that can be accessed only by the highest of 
authorities insofar as classification of their ability? Do any 
of you know why this thing is in a server, this classified 
server?
    Mr. Raskin. No, I cannot give you the full explanation of 
that.
    Mr. Hastings. Mr. Collins.
    Mr. Collins. Mr. Morrison testified it was put there in 
administrative error. Mr. Morrison testified to that.
    Mr. Hastings. Administrative error.
    Mr. Collins. That is his testimony, his words, not mine.
    Mr. Hastings. Who is Mr. Morrison?
    Mr. Collins. The gentleman who testified at committee, Mr. 
Kim--no--he works for the NSS--no, NSC. I am sorry.
    Mr. Hastings. Is he the person that put it in the server 
or----
    Mr. Collins. He is the one that testified to it. You would 
have to ask him. Again, I would love to do all this. We would 
have loved to have had these witnesses actually in Judiciary.
    Mr. Hastings. Would you have loved to have the server?
    Mr. Collins. I would love to have the witnesses.
    Mr. Hastings. We have got people running around Ukraine, 
looking for a server under some CrowdStrike notion.
    Mr. Collins. Yeah, and we also have several people bribing 
public officials, too, and that is a Ukrainian issue as well 
but on this one----
    Mr. Hastings. There is no issue.
    Mr. Collins [continuing]. There is no credible witness who 
says there is anything in the transcript that was not there.
    Mr. Hastings. I find it----
    Mr. Collins. None of your witnesses, none of your 
witnesses.
    Mr. Hastings. I find it that the President goes out, issues 
this unclassified statement, and there is a statement out there 
somewhere in a classified server that may have gotten there 
mistakenly according to Mr. Morrison, as you are testifying, 
but my question ultimately would be: Why is it there? Why 
hasn't it been retrieved? And why have you all not received it?
    But I digress. Let me go on and finish up with this----
    Mr. Collins. Mr. Hastings.
    Mr. Hastings [continuing]. Unclassified statement.
    Mr. Collins. Can I ask you this question? There is an 
implication--and I would like a clarification. Are you implying 
there is another transcript out there?
    Mr. Hastings. I am implying that there is more than what we 
have here----
    Mr. Collins. Okay. Which----
    Mr. Hastings [continuing]. That is on the server.
    Mr. Collins. Okay. Which no witness testified to.
    Mr. Hastings. Understood.
    Mr. Collins. No witness of your witnesses testified to.
    Mr. Hastings. Understood.
    Mr. Collins. I was just making sure you didn't believe 
there was another transcript out there.
    Mr. Hastings. I don't know what is out there. I know 
something is in this server.
    Mr. Collins. That is about like us with the Intelligence 
Committee's findings as well that they haven't transferred over 
to Judiciary.
    Mr. Hastings. I would like to see what is in the server.
    Mr. Collins. I would love to see what is over from the 
Intelligence Committee that was supposed to have been turned 
over to H. 660 as well. So I think you and I are in agreement 
there.
    Mr. Hastings. Yeah, in that regard, we are.
    I would also--let me tell you what--even the media in 
dealing with this statement have not gone into certain of its 
particulars. Here is what was said by Mr. Zelensky--and I am 
truncating this so that I can get off and let other members go 
about their business. He said: I would also like to thank you 
for your great support--this is Mr. Zelensky talking to 
President Trump on July 25th--in the area of defense. We are 
ready to continue to cooperate for the next steps. 
Specifically, we are almost ready to buy Javelins from the 
United States for defense purposes.
    President Trump replies: I would like you to do us a favor, 
though.
    This is from the man talking about buying Javelins. He goes 
immediately to: I would like for you to do us a favor, though.
    And a lot of emphasis has not been placed on that language, 
and I am not a linguistic person, but the last time I recall 
somebody asking me to do a favor, though, it was for something 
that they wanted, and I can't believe that policy is what he 
was talking about. He goes on to say: Because our country has 
been through a lot, and Ukraine knows a lot about it. I would 
like you to find out what happened with this whole situation 
with Ukraine. They say CrowdStrike. I guess you had one of your 
wealthy people. The server, they say Ukraine has it. There are 
a lot of things that went on. The whole situation, I think you 
are surrounding yourself with some of the same people. I would 
like you--I would like to have the Attorney General, meaning 
our Attorney General.
    And my question is why would you like the Attorney General 
to call you or your people? And I would like you to get it--get 
to the bottom of it. As you saw yesterday, that whole nonsense 
ended with the very poor performance by a man named Robert 
Mueller, an incompetent performance, but they say a lot of it 
started with Ukraine.
    And my question is: Who said that? The only people I know 
that said that are the Russians.
    Yes, Mr. Raskin.
    Mr. Raskin. Thank you very much for raising this important 
point.
    Dr. Fiona Hill, leading Russia expert who figures 
importantly in this whole matter, has testified before this 
committee--and it is completely uncontradicted and unrefuted--
that this CrowdStrike story about Ukraine being the one that 
attacked our election in 2016 is Russian disinformation.
    The President there was essentially just repeating Russian 
disinformation and propaganda, either wittingly or unwittingly. 
It seemed innocent enough. He really thought he thought he had 
something there, but that is what he was repeating. There is 
nothing behind it. Has been completely debunked and 
discredited, but what makes me suspicious, Mr. Hastings, is 
that he decided to tie that in with his other plan----
    Mr. Hastings. Other plan.
    Mr. Raskin [continuing]. Which was to get President 
Zelensky to come and to point the finger at Joe Biden and say: 
This is the guy we are investigating.
    And, you know, you talk about national security and how 
national security was compromised--and, obviously, America is a 
country that nations all over the world look to, and we are 
interested in the security of our land and our people but also 
that of our allies and our strategic partners around the world, 
and we should have some interest in what happens to Ukraine and 
whether Russia is going to get to trample Ukraine or not.
    But here is another way that national security is 
implicated. If we say that forever hereafter we are going to 
allow the President of the United States to use the awesome 
powers of his office to shake down particular governments, 
whether they are tyrants and despots, like Duterte in the 
Philippines and Orban in Hungary and Putin in Russia and Sisi 
in Egypt, or they are democrats--struggling democracies that 
need our help, like the reformer Zelensky and Ukraine, but the 
President is now allowed to shake them down, to get them 
involved in on a covert basis in our campaign. Guess what? The 
President might think he is slick by getting away with that, 
but now there is a foreign government that has got something--
--
    Mr. Hastings. Got something on us, uh-huh.
    Mr. Raskin [continuing]. On us. They have leverage on us at 
that point.
    Mr. Hastings. It turns out----
    Mr. Collins. Mr. Hastings, would you allow me?
    Mr. Hastings. Of course.
    Mr. Collins. Thank you. I know you are always great at 
this.
    Look, I think the process, I think we are looking the wrong 
direction here, and I think it is interesting that we can talk 
about all the other corruption around the world and the dislike 
of the way this President has dealt with them, but we also have 
to remember: Even in the transcript that you just read, it is a 
backwards look, not a forwards look. It is a 2016 look at what 
happened then. And you have rightly read the transcript that he 
was talking about Robert Mueller, which was coming out of the 
2016 election, all of the problems that were coming in.
    Mr. Hastings. Did you read the Mueller report?
    Mr. Collins. I read every bit of it, sir. That is my 
committee.
    Mr. Hastings. And you disagreed with the findings?
    Mr. Collins. I agree with the findings. There was no 
collusion from Russia, and he disagreed even with every member 
of the Judiciary Committee on obstruction----
    Mr. Hastings. On obstruction----
    Mr. Collins [continuing]. On obstruction.
    Mr. Hastings. That there were 10 obstructions of justice by 
the President, do you agree with that?
    Mr. Collins. No, they are not, because he did, because he 
did.
    Mr. Hastings. That is interesting.
    Mr. Collins. Because obviously you didn't listen to the 
Judiciary Committee when several members of the Judiciary 
Committee outlined in pretty PowerPoints on the screen ``here 
is this, here is this, this,'' and then he looked at them and 
said, ``But I disagree with your conclusion.''
    So you have to take the whole transcript. And this is what 
I am talking about here. When you look at it here, he was 
looking backwards. The Mueller report had just been done, but 
Ms. Fiona Hill----
    Mr. Hastings. I am going to reclaim my time and look----
    Mr. Collins. Because Fiona Hill is interesting, because he 
brought up Fiona Hill. And I just wanted to say this one thing. 
Ukrainians, not Ukraine but Ukrainians, even Fiona Hill said 
the Ukrainians bet on the wrong horse and after being reminded 
by Ken Vogel that the various Ukrainian officials, Leshchenko--
I can't remember--the powerful Ukrainian--Parliament--
Leshchenko was spinning tales and providing false information 
to Nellie Ohr, information that we all know has made its way 
into the Steele dossier. This was aligning themselves with 
Clinton.
    Mr. Hastings. Mr. Collins----
    Mr. Collins. So it is backwards. That is all I am saying.
    Mr. Hastings. Mr. Collins, were you there when Ms. Hill 
testified?
    Mr. Collins. Not for Ms. Hill's testimony, no.
    Mr. Hastings. All right. But you have.
    Mr. Collins. I am happy to read the transcript just like 
you are.
    Mr. Hastings. All I can tell you is she dropped a dime on 
President Trump's actions in Ukraine.
    Mr. Collins. But not enough to find it in the Articles of 
Impeachment.
    Mr. Hastings. Well, perhaps alone.
    Mr. Collins. An abuse of power, again, we disagree on this. 
And this is where we can honestly just disagree. I disagree 
that abuse of power is a categorical catch-all.
    Mr. Hastings. All right. I am going to--I am reclaiming my 
time.
    Mr. Collins. And I appreciate it. Thank you.
    Mr. Hastings. You are going to filibuster----
    Mr. Collins. Thank you.
    Mr. Hastings [continuing]. And I am going to reclaim my 
time from you as well. Both of you-all talk pretty fast, no, I 
might add, in defense of Mr. Collins for a minutes. It is 
very--continuing, but President Trump says, is: It's very 
important that you do it if it is possible.
    Truncating again, because it is so much in here, but I will 
try to start mid paragraph with Mr. Zelensky's reply: I would 
also like and hope to see him having your trust--he is talking 
about an ambassador that he is sending to the United States--
and your confidence and have personal relations with so we can 
cooperate even more so. I will personally tell you that one of 
my assistants spoke with Mr. Giuliani just recently, and we are 
hoping very much that Mr. Giuliani will be able to travel to 
Ukraine, and we will meet once he comes to Ukraine.
    My question there is: Meet about what when Giuliani comes 
to Ukraine? And the President just recently said that Giuliani 
is a good man and a patriot, and he has done--he is doing this 
for love. Last time, I bought an airline ticket, I didn't 
present something that said ``love.'' And the question becomes: 
Who is paying Giuliani?
    I have a theory about, but I won't go into it.
    He then goes on to say: I just wanted to assure you once 
again that you have nobody but friends around us. I will make 
sure that I surround myself with the best and most experienced 
people.
    He goes on at some point: So we can continue our strategic 
partnership. I also plan to surround myself with great people 
in addition to that investigation. I guarantee, as the 
President of Ukraine, that all the investigations will be done 
openly and candidly. That I can assure you.
    Then Trump says: Good, because I heard you had a 
prosecutor--I think he is talking about Shokin--who was very 
good, and he was shut down, and that is really unfair. A lot of 
people are talking about that, the way they shut your very good 
prosecutor down, and you had some very bad, bad people 
involved. Mr. Giuliani is a highly respected man. He was the 
mayor of New York City, a great mayor, and I would like him to 
call you. I will also--I will ask him to call you, along with 
the Attorney General. Rudy very much knows what is happening, 
and he is a very capable guy. If you could speak to him, that 
would be great. The former Ambassador from the United States, 
the woman, was bad news, and the people she was dealing with in 
the Ukraine were bad news. So I just wanted to let you know 
that. The other thing, there is a lot of talk about Biden's 
son, that Biden stopped the prosecution, and a lot of people 
want to find out about that. So whatever you can do with the 
Attorney General would be great. Biden went around bragging 
that he stopped the prosecution. So, if you can look into it, 
it sounds horrible to me.
    Now then, Zelensky says, truncating again, that: Since we 
have won the absolute majority in person, my candidate, who 
will be approved by the Parliament and will start as the new 
prosecutor in September, he or she will look into the 
situation, specifically to the company--and my guess is he is 
talking about Burisma in that particular incident--mention in 
this issue. The issue of the investigation of the case is 
actually the issue of making sure to restore the honesty. So we 
will take care of that, and we will work on the investigation 
of the case.
    On top of that, I kindly ask you, if you have any 
additional information that you can provide us, it would be 
very helpful for the investigation to make sure that we 
administer justice in our country with regard to the Ambassador 
to the United States from Ukraine. As far as I can recall, her 
name was Yovanovitch.
    Now that lady didn't deserve President Trump commenting 
that she was going to go through some things.
    And I quote him: I will have Mr. Giuliani give you a call, 
and I am also going to have Attorney General Barr call, and we 
will get to the bottom of it. I am sure you will figure it out. 
I heard the prosecutor was treated badly.
    Now everybody in the European Union, friends of mine knew 
that Poroshenko was a crook, and there is nobody in this room 
that does not know that, and Trump very well knew that or 
should have or had poor staffing during that period of time.
    I am going to end here where he says: Good. Well, thank you 
very much. And I appreciate that. I will tell Rudy and Attorney 
General Barr to call.
    And I just can't believe that Perry and Sondland and Rudy 
Giuliani, or whoever the Three Amigos were, were running around 
in Ukraine in some fashion, aside from the diplomatic 
responsibilities that we have with any country.
    And, yes, Mr. Collins, we do have an FBI. We do have people 
that do investigations in foreign countries when there are 
commissions of crimes, and we don't use people running around. 
Otherwise, they could have used me. I was on the Intel 
Committee, and people could have asked me. I went to Ukraine. I 
did, after the Orange Revolution, the monitoring that led to 
them being able to stand up their government, and thanks to the 
Lithuanians and the Polish, along with Zbigniew Brzezinski, at 
that time that we were able to do that, and then I went back a 
second time to Ukraine to monitor their election. So I am no 
rookie in this stuff.
    But when it comes to policy, what we have here is a corrupt 
President that wanted to do something to advance his political 
circumstances. And as the chairman said, that is so wrong.
    What say you, Mr. Raskin?
    Mr. Raskin. Well, first of all, I am moved by your 
statements and also by your work for democracy and for freedom 
and anticorruption in Europe; and I know that that is something 
that has been very important to you.
    The President essentially empowered and outsourced an 
alternative channel to the regular Department of State and 
National Security Council officials. And Rudy Giuliani, as you 
say, was at the heart of it. We have lots of testimony from 
witnesses who said, whenever the President got some kind of 
report on Ukraine, he would say: Talk to Rudy. Talk to Rudy.
    In other words, Rudy has got the franchise on Ukraine, and 
we know what Rudy wanted to do. As recently as today, we had an 
update on it. Rudy now puts himself front and center in the 
campaign to smear----
    Mr. Hastings. On FOX News this morning.
    Mr. Raskin. He put himself front and center on the campaign 
to smear our Ambassador, the U.S. Ambassador to Ukraine who is 
fighting corruption, who is one of the world's leading 
anticorruption fighters, and she understood that Ukraine had a 
chance here with the election of President Zelensky.
    And instead of bolstering Ukraine, helping them, getting 
the aid that we voted for them, aid that had been approved by 
the Department of Defense, having cleared all of the 
anticorruption criteria that we had legislated and the 
Department of State, which had done that--all the Ts are 
crossed, all the Is are dotted, the money is set to go--the 
President holds it up. And then he puts this other team into 
action to engineer the shakedown against President Zelensky in 
order to get the political favor or the domestic political 
errand, as Dr. Fiona Hill said, that he wanted.
    Mr. Hastings. It is in my judgment a shame what happened. 
And my colleagues on the other side of the aisle, I can't 
believe that they won't address the facts as you have just 
outlined them and as I have attempted to and as the chairman 
has. All they want to talk about is process. This ain't about 
process. This is about the President abusing his power, and 
you-all will pardon me nor not using my inside voice, but you-
all don't either.
    I yield back, Mr. Chairman.
    The Chairman. I am happy to yield now to the gentleman from 
Georgia, Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman.
    I rarely find myself in disagreement with my good friend 
from Florida. In fact, more often than not, I find myself 
educated by him. But I have got to disagree with him today 
because this is all about process. It is all about process.
    I don't know how many minds were changed when the gentleman 
from Florida read the transcript again. I suspect none, 
probably the most single-most read transcript in American 
history. Folks know what they think that they know. But to my 
friend from Florida's point: Is there a verbatim transcript 
somewhere? I don't know. You asked the question to the two 
witnesses that we had called to testify, two of the brightest 
Members of Congress in my estimation. They don't know.
    And if I understood my friend from Georgia correctly, there 
were no witnesses who were working on that transcript that you 
had an opportunity to talk to directly?
    Mr. Collins. No, we had no witnesses in Judiciary.
    Mr. Woodall. So my friend from Florida is rightly outraged 
by his perception of wrongdoing. I hope that he is equally 
outraged by the inability to get information, not just our 
inability, sitting here on the Rules Committee today, but your 
inability. If we had an Intelligence Committee member here, 
they could have answered Mr. Hastings' question. And I don't 
know.
    Well, I will ask my friends, as Mr. Hastings did: Is there 
somebody in this room on this committee that believes that the 
American people and our support of the Constitution that we 
have all sworn to uphold is threatened by having a member of 
the committee of jurisdiction be here to share with us? How are 
the American people advantaged by the absence of our--by the 
inability of our witnesses to answer Mr. Hastings' questions? 
How is America advantaged by that?
    My friend from Georgia, leading the Judiciary Committee, 
said that he was told--and I hope I am misquoting you, Mr. 
Collins, and I misquoted you before. So I won't take any 
offense with your correcting me. I believe you said you asked 
the chairman about having a minority witness day, and he 
dismissed it as dilatory.
    Mr. Collins. That was part of the--included in the long 
letter that he read to us, yeah. It was basically dilatory. 
That is very similar to the letter that was given to Mr. Cole 
in answer.
    Mr. Woodall. I have the letter that was sent to Mr. Cole, 
and if we needed a finer chairman on the Democratic side of the 
aisle, then we might have some other choices on our side, but 
there is no finer chairman on the Democratic side of the aisle 
than my chairman on the Rules Committee and the staff that he 
has to support him, but I don't know if you have seen the 
letter. I will share with you what it says, Mr. Collins. It 
says that: Not to worry. In this case, however, it says, 
Chairman Nadler has appropriately said that he will work with 
the minority to schedule their hearing.
    The Chairman. Will the gentleman yield to me?
    Mr. Woodall. I will be happy to.
    The Chairman. And, you know, maybe he wasn't here when I 
referenced Mr. Nadler's response before, but I am quoting right 
here where he says: I am willing to work with the minority to 
schedule such a hearing.
    All right. I mean----
    Mr. Woodall. My friend from Massachusetts misconstrues my 
statement.
    The Chairman. Oh, okay.
    Mr. Woodall. I stipulate what you are saying is absolutely 
true, absolutely true. I was only going to ask----
    Mr. Collins. Can I object?
    Mr. Woodall. I was only going to ask--I was only going to 
ask my friend from Georgia what good it was going to do to hold 
the minority hearing 2 days or 3 days or 3 weeks after we voted 
to impeach the President of the United States.
    Mr. Collins. What, in essence, does it matter if you throw 
the person in jail and then say, ``Oh, the Innocence Project 
will come around at some point and clear him''? That is not 
what has happened here. You can't just say: Oh, we will get--if 
Chairman Nadler came to me and said: You know, April 1st next 
year looks like a great day for your minority day hearing.
    What good does that do? It does none. And, again, it goes 
to the basic fairness.
    And I do want to say one thing, if you will allow me, Mr. 
Woodall.
    Mr. Woodall. Please.
    Mr. Collins. Two things have come up. One, there is no 
witness, period, no witness in the statement that said that 
there was, number one, another transcript; or, number two, that 
the transcript we have was not accurate. Okay. That is just a 
fact.
    The other thing here is I have talked about process a lot, 
will continue to, but I have also acknowledged, and I have very 
much a factual defense of what I believe the facts are wrong 
here. You may disagree with my interpretation of that, but I 
have made a factual defense. I will go back to it. We talk 
about the four things that we talk about that didn't change, 
the pressure. But there is also five meetings, five meetings.
    If you want to draw a correlation between the conditioned 
aid--and it should have come up. It has come up in these five 
meetings. On July 25, we have the transcript of the call 
between the President and President Zelensky. On July 26, 
Special Envoy Volker and Taylor met with President Zelensky. 
The alleged link in aid and the investigations never came up. 
August 27, John Bolton met with President Zelensky. Link in aid 
never came up. September 1, Vice President Pence met with 
Zelensky in Warsaw; link in aid in investigations never came 
up. On September 5, Senators Johnson and Murphy met with 
Zelensky again; The supposed link in aid never came up.
    I point out the last two because they are important, 
because the last two are after it became public knowledge 
through Politico that the aid was being held. Nothing came up. 
Facts matter. And when you don't have the right facts, then you 
have to go to the more amorphous topics. That is something. I 
have fought on the facts. We may disagree about them, but I 
have fought back on facts.
    Mr. Woodall. Mr. Raskin appropriately points out that what 
we are doing is precedent-setting. Hopefully, it is not 
unprecedented, but it is certainly precedent-setting, and I 
think he asked us to think of the right question and his 
question was: If this were a Democratic President, would your 
answer still be the same? I care less about the Republican 
President and Democratic President. I know Mr. Raskin has a 
love of the law.
    My question, Mr. Raskin, is: How are the American people 
advantaged by Mr. Collins having no opportunity to put together 
a list of fact witnesses of his choosing, have them share their 
story, and then the very able majority on the Judiciary 
Committee, the Democrats, cross-examine those witnesses? How 
are the American people advantaged by that absence?
    Mr. Raskin. So the first thing we need to say, again, is 
that the President and his team had the power to call whatever 
witnesses they wanted.
    Mr. Woodall. Well, if I could reclaim my time for a 
moment----
    Mr. Raskin. Yeah.
    Mr. Woodall. You have said that several times.
    Mr. Raskin. Yeah.
    Mr. Woodall. The first time you said it, you properly 
caveated it with: Any of the 17 witnesses that the Democrats 
called on the Intelligence Committee, the President could have 
called any one of those Democratic witnesses back to testify 
again. I don't believe you mean the President has the right to 
call any witness that he wants in front of the Judiciary 
Committee. For Pete's sake, he wouldn't even give the ranking 
member the right to call people in front of the Judiciary 
Committee.
    Mr. Raskin. You certainly do not have the right to call 
irrelevant witnesses. And so, ultimately, it would have been up 
to the chair to decide whether the person was relevant or not.
    Mr. Woodall. To be clear, there is the ability--because I 
have a misunderstanding. The President had the ability to call 
a witness into the Judiciary Committee, other than the 17 
witnesses that the Democrats on the Intelligence Committee 
decided they were going to deposition?
    Mr. Raskin. He could have submitted names for anybody he 
wanted to.
    Mr. Woodall. My ranking member submitted names and the 
answer was, no: No, we are not going to do that, but your 
definition of the fair and free process that advantages the 
American people is that the President could submit any name he 
wants to. The chairman just gets to say no.
    Mr. Raskin. But my dear Mr. Woodall, you understand that we 
are in the process of collecting information to establish an 
indictment, in essence, charges against the President. These 
are Articles of Impeachment. The trial process takes place in 
the Senate. That is where they conduct a trial, where their 
rules will govern and anybody presumably will be able to bring 
in whatever witnesses they want to bring in. Now we have tried 
to run a completely open, fair, and transparent process.
    Mr. Woodall. Reclaiming my time for a moment----
    Mr. Raskin. Yeah.
    Mr. Woodall [continuing]. Because you frequently, and you 
did when we established the rules for the impeachment process 
in this committee----
    Mr. Raskin. Yes.
    Mr. Woodall [continuing]. You have frequently referred to 
the grand jury room. The grand jury room is not intended to be 
a place of fairness. It is intended to be a place of 
indictment. You have said----
    Mr. Hastings. Mr. Woodall, whoa, whoa, whoa, would you 
yield?
    Mr. Woodall. I would be happy to yield to my friend from 
Florida.
    Mr. Hastings. My Goodness gracious, what did you just say?
    Mr. Woodall. The grand jury room is not intended to provide 
fairness to any defendant. It is intended to indict. As my 
friend from Maryland simply stated, the defense comes next.
    Mr. Hastings. Understood. But are you saying that 
prosecutors don't have any other responsibility in the grand 
jury other than to indict?
    Mr. Woodall. Of course not.
    Mr. Hastings. Okay. I just want to make sure.
    Mr. Woodall. Of course not.
    Mr. Raskin. Mr. Woodall----
    Mr. Woodall. The prosecutor has an obligation to people 
that the prosecutor serves in the same way that we have that 
same obligation and the words--I want to quote him correctly. 
Mr. Raskin said there has been plenty of fairness in this 
process.
    And my question was: How are the American people advantaged 
by Mr. Collins getting absolutely no witnesses before the 
committee and the White House getting absolutely no witnesses 
in front of the committee? And the answer is, Mr. Woodall, this 
wasn't intended to be a defense of the President----
    Mr. Raskin. If you want me to say that, I clearly did not 
make myself clear. The President and Mr. Collins and the 
Republicans could have called any of the witnesses who 
appeared, any of the 17 sworn witnesses.
    Mr. Woodall. Any of your----
    Mr. Raskin. It is not yours or mine. These are American 
citizens. These are the Department of State.
    Mr. Woodall. These----
    Mr. Raskin. These are National Security Council employees.
    Mr. Woodall. Reclaiming my time.
    The Chairman. Let me just say we can't speak over one 
another because the stenographer can barely keep up with us 
because we all talk so fast. So we are talking over each other. 
So I just I caution everybody, the witnesses and members of the 
committee, just to ask a question, let the answer.
    Mr. Woodall. And I am hamstrung, Mr. Chairman, by the fact 
that Mr. Raskin isn't the decisionmaker on these issues.
    And, again, to Mr. Collins's point about the clock being 
the master, Mr. Nadler, Chairman Nadler, has put in months of 
work on this, not as much time as Chairman Schiff has put in on 
this, but put in months of work, and we have neither of the two 
committee chairmen who have done all of the work here before us 
to answer our questions.
    And I have no doubt that Mr. Raskin is exasperated because 
he is an answerer, and he is a fact provider, and he educates 
this committee on a regular basis on matters of the law.
    But it offends my sense of fairness that my ranking member 
can't have a witness of his choosing. I am not talking about a 
hundred witnesses. I am talking about a witness of his choosing 
to come and that the process gets described over and over again 
as the White House had plenty of opportunity and everybody had 
an equal chance to question. Nonsense. Nonsense.
    And to let that record stand perpetuates the myth that this 
is supposed to have been a fair process, I would argue it could 
have been a fair process. It simply wasn't.
    Mr. Collins.
    Mr. Collins. Just to be clear here, and I think the 
operative word that my friend from Maryland said was ``tried'' 
and I think--I will give a try. It just wasn't a real good one 
to be fair in this.
    For me, and, again, you can't have it both ways. You can't 
call the grand jury, which only the prosecution calls witness. 
There is no exculpatory. They have to depend on the prosecutor 
to live up to the prosecutor integrity and all that kind of 
stuff. You can't have it and say, ``We are a grand jury,'' and 
then, on the other side, say, ``We want to make it fair so that 
people can call witnesses and give their side of their 
defense.'' They don't call that side of the defense in a grand 
jury. They don't do that.
    So here is my--here is the issue. I have never been--when 
I--in a court or where I was practicing, I never went to the 
prosecutor to say, ``Who could I call,'' and the prosecutor 
say, ``Well, you can call all of my witnesses.''
    Well, at least at some point in that mix, Mr. Raskin, I 
believe would at least--and others even on the Democrat side, I 
believe they would at least have to acknowledge that having the 
chairman determine relevancy of my witnesses called or even the 
White House is a problematic exercise because, if they are 
determining relevancy, then they are discounting any 
possibility, any possibility of exculpatory evidence coming 
from one of my witnesses. They are basically saying they are 
irrelevant. So we don't want to hear from them and discounting 
any possibility, any, that they will be exculpatory. So let's 
make that very clear in this.
    That is why this was, again, we felt a very unfair process.
    Mr. Woodall. Now, Mr. Raskin, you said earlier, and I think 
rightly, you said some folks can't even--you can't concede that 
the call was not perfect. Surely, folks could concede that 
things were not perfect, and Mr. Collins did not characterize 
the call as perfect. My question is, can't you concede what Mr. 
Collins----
    Mr. Raskin. I never heard anybody say that. Who said that?
    Mr. Woodall. Mr. Collins. He wasn't trying to describe it 
as perfect. He was trying to describe it as noncriminal. I am 
misquoting--I am misquoting his statement.
    Mr. Raskin. Who said that?
    Mr. Woodall. But my question--my question to you is, can 
you not concede that having the chairman who is leading the 
impeachment inquiry determine relevancy of the, for lack of a 
better word, defense witnesses is flawed?
    Mr. Raskin. Yeah, so this was the exact same process that 
took place in the Clinton impeachment. It was the same process 
that took place in the Nixon impeachment, which is the minority 
gets the right to request witnesses; and if they are relevant, 
they will be accepted. It is hard to know what to do otherwise, 
especially in an environment where people are bringing all 
kinds of extraneous conspiracy theories to try to explain what 
is going on.
    Mr. Woodall. Just to quote your--you back to you, because I 
want to use the best sources I can--
    Mr. Raskin. Yeah.
    Mr. Woodall [continuing]. On this material, when you quoted 
the--when you cited the House rule that required the minority 
witnesses be heard, you said in your recollection that is not a 
conditioned precedent to having the hearing and reporting the 
bill and you are, of course, right.
    Mr. Raskin. You are talking about the minority hearing 
provision----
    Mr. Woodall. That is right.
    Mr. Raskin [continuing]. Not having an independent hearing 
for the minority, yeah.
    Mr. Woodall. There is absolutely no House rule that 
requires that we hear from the minority before not just the die 
has been cast, but the bill has been reported, passed on the 
floor, and sent to the President. That is not a requirement, 
and you were right that we should probably go back and look at 
if that we are truly trying to give the minority a voice.
    But you have to tell me how the American people are 
advantaged by hearing from exculpatory witnesses after the 
House has voted.
    Mr. Raskin. Okay. First of all, if there is a name of an 
exculpatory witness, please put it forward. We have done 
nothing other than try to get all of the President's men to 
come in and testify. It is the President who has been 
blockading Secretary Pompeo and Secretary Perry and the 
Director of the Office of Management and Budget and numerous 
other witnesses.
    It is just to me it is the height of irony that you guys 
are making the argument that somehow we don't want the evidence 
in. We want all the evidence. That is why we want to hold the 
President in obstruction of justice because he has been 
preventing us from getting----
    Mr. Woodall. It would not surprise me if you were right.
    So let me ask the gentleman from Georgia. Is that right? 
You submitted a list of witnesses that you wanted to come to 
the committee, and the President said that those witnesses 
would not be allowed to testify?
    Mr. Collins. No President talked to me about that.
    Mr. Woodall. No, that is not right.
    Mr. Collins. The interesting thing--and I found out 
something new today. This is why hearings are actually good, 
and maybe you can recall it when it is good. This is the first 
time I have ever heard it--and Mr. Raskin said it twice today--
that if I had just called one of the 17, I would have got them. 
That has been interesting. He said it a couple of times now, if 
not more, that if I had just called them, and now they are 
having to correct him. He said it several time, and I 
understand this is tough, and he is in a very tough position, 
and he is doing an admirable job for what he is doing.
    But it is interesting that that would come out, because I 
know he is an integral part of that team, that if I had just 
called one of the 17, they would have been accepted which would 
have been interesting. Wouldn't it have then been logical for 
the chairman to call some of those 17 so we could have at least 
had the impression we were actually doing our own interviews of 
these witnesses? Because what happened even in the Intel 
Committee was, is some of the--after you talked to them, they 
gave testimony. Then they had to come back, and some of them 
actually re-upped their testimony. Why wouldn't we have brought 
them back, say, ``Okay, you done this a couple of times, but we 
didn't get that''? The majority whose job it was to prosecute 
this didn't do that as well.
    Mr. Woodall. Well, as you recall, we fought that on our 
side of the aisle when this process was being set up. Thought 
it was odd that the Intelligence Committee was going to be the 
only one talking to factfinders. Tried to require that 
exculpatory evidence be provided to the Judiciary Committee.
    I want to touch on one more piece of process because my 
friend from Florida raised it, and he raised it in the context 
of Mr. McConnell and Mr. Graham, Senator McConnell and Senator 
Graham, in that they should recuse themselves because they have 
already picked a dog in this particular fight.
    I think we so often say things to one another around here 
that the American people end up listening to that turn out to 
be flawed, and, again, I think everyone on this committee has 
great respect for Mr. Raskin. He is not just a valuable member 
of the Judiciary Committee; he is an even more valuable member 
of our Rules Committee.
    But because I didn't have a chance, when I found out I 
wasn't going to have a chance to talk to Mr. Nadler, I went and 
brushed up on Raskin policy and I think they misquoted you, to 
be fair, Mr. Raskin, but Salon did an interview with you even 
before the President was elected and their headline is ``At 
Least One Democratic Congressman is Already Preparing to 
Impeach Donald Trump.'' The article is Donald Trump won't be 
sworn in for another 48 hours, and at least one Democratic 
Congressman has already seen enough. You go on to talk about 
the emoluments clause and your, I think, legitimate questions 
as a constitutionalist about those issues.
    That was 48 hours before the President was sworn in. You 
are sitting on the grand jury that is impartially considering 
the evidence, and the emoluments clause that you were quoted as 
supporting impeachment on behalf of 48 hours before the 
President was even elected I can't find anywhere in the 
articles that we see before us today. Have you changed your 
mind from then or do you think, as Politico is reporting, that 
we are going to see part two of impeachment come down the road, 
that this was just impeachment number one and there is going to 
be impeachment number two and impeachment number three?
    Mr. Raskin. Thank you very much for that question.
    I would love nothing more than to have a separate hearing 
on my personal views about the meaning of the foreign 
emoluments clause and the domestic emoluments clause. I have 
written widely about it, including The Washington Post. I have 
written several pieces about it. But I am here to represent the 
Judiciary Committee because of the absence of Mr. Nadler, and 
it wouldn't be fair for me to get into that because I would not 
be representing the views of the entire Judiciary Committee.
    Mr. Woodall. I think that is perfectly--I think that is 
perfectly fair. When we voted to table, as Mr. Cole referenced, 
in regard to Mr. McGovern's vote in December of 2017, of 
course, you opposed that motion to table as well, and at that 
time you said it was a vote out of frustration and that what 
you wanted was a real inquiry, a real inquiry into corruption 
and criminality in the Trump administration. Now this was 2 
years before this phone call ever happened. And so, again, I am 
looking at Articles of Impeachment here. I have got members of 
the Judiciary Committee who were certain of corruption and 
criminality in the Trump administration that exists nowhere 
here.
    Mr. Raskin. Mr. Woodall.
    Mr. Woodall. Please.
    Mr. Raskin. You would concede that there are other episodes 
of corruption in the business career of Donald Trump and in the 
political career now that are not part--at all part of this 
process. So, I mean, I don't know if--look, there are patterns 
of conduct and behavior that have been noticed. One of them is 
extremely relevant to this investigation. That is what took 
place in 2016. That is when Donald Trump essentially invited in 
Russia--the whole world heard him say it--invited Russia to 
come into our election. He welcomed their interference. The 
special counsel at the Department of Justice found more than a 
hundred contacts between the Trump campaign and Russian 
nationals there, and then when it began to happen, the 
President moved to obstruct the investigation, and that is in 
the Mueller report which we talked about today, all of those 
episodes of corruption.
    So there is a pattern of evidence, and I don't know--look. 
When Bill Clinton got impeached for what he did, you could 
certainly find Republicans who had been calling for his 
impeachment for several years for other stuff. There were 
conspiracy theories about him going on for years that. That 
doesn't necessarily discredit what happened in the impeachment 
of Bill Clinton. You have got to take it on its own terms. That 
is why we are trying to get back to the facts of what took 
place here with the Ukraine shakedown.
    Mr. Woodall. I think you are mistaking my intent. I was not 
citing comments that you had made in the past to put you as a 
Never Trumper whose sole purpose was to reverse a legitimate 
American election. That was not my intent. My intent was to 
mention you as someone who is a thoughtful legal mind, who had 
other legal concerns going back for years.
    And when folks say, ``Rob, what do you mean this process is 
rushed; we have done it over--just under 90 days; isn't that 
long enough,'' well, no, that is faster than any other 
process--that is faster than--well, we have got a response from 
the Justice Department when we asked for our Fast and Furious 
documents.
    But what it isn't is a complete process, I think by your 
own testimony here, that there is more that we could have done 
that we didn't do. And my question then is, because I do think 
we are all about advantaging the American people and the 
Republic and the Constitution: Are we advantaged, are the 
American people advantaged by--because, again, Politico is 
reporting that the investigations are going to continue, that 
the investigations do not stop with the House vote tomorrow. We 
will continue to investigate the potential impeachment of the 
President long after we have already voted to impeach the 
President is the story that is out there today.
    Are we advantaged as an institution to have impeachment 
number one and impeachment number two and impeachment number 
three instead of, as we did in the Bill Clinton era, put all of 
the articles into a single document after a longer and more 
thorough investigation and have this process sent to the Senate 
just once?
    Mr. Raskin. I believe I am going to ask my staff just to 
confirm this. I believe the Clinton investigation moved much 
more quickly after the Starr report arrived in Congress than we 
have so far, but we will check the days on this, but I think 
they are approximately in the same ballpark.
    But, look, your basic question is an excellent one. You ask 
an excellent question here. And all I can say is that we have a 
clear and present danger to our democracy right now because of 
the electoral corruption. This President invited in a foreign 
power to come and interfere in our election, and he used all of 
the resources of his office to coerce President Zelensky to 
come in to make these announcements he wanted for a totally 
political purpose. That is this election that is going on right 
now.
    And so we have got to deal with this, and we have a very 
serious and complicated problem to address as a country right 
now, which is: Do we want to establish that this can be the 
norm going forward, that any President, whether their last name 
is Trump or Obama or Woodall or anything else, can go to 
foreign governments in the middle of a campaign, lure them in, 
either through coercion or through honey, whatever it might be, 
and get them to participate in our election? That is a really 
serious problem.
    So, look, I agree with you. There--and, you know, you ask a 
trenchant question, Mr. Woodall. There are other things that 
are not part of this, but that is because of the urgency of 
this situation.
    Mr. Woodall. I take that----
    Mr. Collins. Mr. Woodall.
    Mr. Woodall. I take that point.
    Mr. Collins.
    Mr. Collins. I say it again: clock and calendar. That is 
why we are doing it. That is all it is. That is why we say 
things like it is imperative, ongoing, whatever you want to 
call it. It is a clock-and-calendar issue.
    And, look, we already know that, when this fails, there 
will probably be others. That has been reported widely, not 
just in, you know, magazines. Straight out of the words of Mr. 
Schiff, straight out of the words of Mr. Green, other 
colleagues that we have had.
    And, again, it is--Professor Turley said it this way: The 
current lack of proof is another reason why an abbreviated 
investigation into this matter is so damaging to the case for 
impeachment.
    It doesn't have the footing on it. And if you are doing it 
because you want to get into an election, when obviously the 
discussion was a previous one in which there was, you know, 
issues that was looking at that, then I can't help you, and 
time and calendar will take over.
    Mr. Woodall. Well, we are talking today about reversing 
America's last election. Candidly, I have every bit as much 
concern about the time that we will reverse the next election 
or the election after that or the election after that. To do 
this in a partisan way, of course, there are always going to be 
differences of opinion. I disagree with my chairman about much 
more than I agree with him about, but that doesn't mean that we 
can't find a process to move forward on together.
    It is not more divided in this Congress today than it was 
in 1998 when folks found a process that they could work on 
together because, as much as we cared about the Presidency 
then, we cared more about the Constitution later, and we found 
a way to move forward and moving forward in a partisan way is 
going to have repercussions. I know my friend from Maryland 
knows that. He believes it is urgent enough that it is worth 
the risk, but it is a measurable and substantial risk, and 
certainly the 13 of us, 14 with Mr. Collins here today, are 
going be judged on that front because, despite our own personal 
interests in the facts, we are not a fact committee. We are a 
process committee, and I don't believe America is going to 
judge us harshly because of the way the facts come out. I think 
America is going to judge us harshly because the process that 
has come forward.
    And I yield back.
    The Chairman. I thank the gentleman.
    Let me just say, we keep on hearing a lot about the clock 
and calendar, but I would remind everyone that we are here 
because of abuse and obstruction and the President's abuse of 
power and obstruction of Congress. That is why we are here.
    And, you know, I said it in my opening. And I will say this 
again. We just have a difference of opinion. My friends try to 
characterize this as trying to overturn the last election. I 
look at this, as a crime in progress and that we are trying to 
prevent the President from rigging the next election.
    And, again, I have never, ever, ever seen or witnessed a 
moment like this where a President of either party has publicly 
invited foreign intervention in our election. He did it when he 
was running for President. He did it with Ukraine. And the 
administration has purposely decided not to cooperate, to drag 
their feet, hoping that we would get through the next election. 
This is--I said it was wrong. I mean, it is beyond the pale. 
And we just have a difference of opinion on this.
    I yield to the gentlelady from California, Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman.
    And thank you to both of you for being here.
    I also want to thank my colleagues that have spoken before 
me today for using your indoor voice and for exercising 
decorum. We are on the third floor of the U.S. Capitol, and I 
think it is important for us to be respectful with each other.
    Today, we regrettably face one of the most solemn duties 
the Constitution vests in Congress. I, like all of you here, 
did not come to Congress to impeach a President. As a matter of 
fact, on January 20th of 2017, I stood in the freezing rain to 
watch Donald Trump be sworn in as the 45th President of the 
United States. I was there in good faith. I was there because I 
believe in the peaceful transfer of power. I was there because 
I believe in the rule of law. And, maybe foolishly, I also 
believe in second chances, that we would have elected someone 
who can stand up and represent all Americans.
    But then, in September, approximately 3 months ago, we 
learned that President Trump had withheld critical military 
funding to Ukraine, a strategic partner in a war with Russia; 
and then, October 3, President Trump announced that China and 
Ukraine should investigate his political rivals on national TV. 
The President's personal attorney also said that Biden should 
be investigated.
    Now, President Trump famously said that he could shoot 
someone dead in the middle of Fifth Avenue in New York City, 
and he would get away with it. What mindset do you have to be 
in to say that out loud on national TV and to believe that? 
Well, anyone who turns a blind eye to behavior like this is 
providing him that right.
    Five GOP primaries have been canceled: Kansas, Alaska, 
South Carolina, Arizona, Nevada. GOP, Republicans across the 
Nation are locked in step to defend at any cost the bad actions 
and illegal actions of this President. The facts are clear. To 
quote the USA Today editorial board, Trump used your tax 
dollars to shake down a vulnerable foreign government to 
interfere in a U.S. election for his personal benefit.
    Ambassador Gordon Sondland, President Trump's handpicked 
Ambassador to the European Union, testified to President 
Trump's abuse of power under oath. And he said: I know that 
members of this committee have frequently framed these 
complicated issues in a form of a simple question: Was there a 
quid pro quo? As I testified previously with regard to the 
request--to the requested White House call and White House 
meeting, the answer is yes.
    We also have the rough transcript of Trump's July 25 call, 
released by the President himself. For all the claims that 
President Trump was withholding military aid over corruption in 
Ukraine, he never once utters the word ``corruption'' in the 
call. He does ask for a favor, though, a favor that has nothing 
to do with U.S. national interests and everything to do with 
his own political interests. Trump's actions were a clear abuse 
of Presidential power. He conditioned official acts of office 
on a political advantage in the next election. Think about 
that.
    All of us here, Members of Congress, have taken Ethics 
training on the House rules and on Federal crimes. I just did 
the training last week. We have all sworn the same oath of 
office to protect and defend our Constitution. And imagine, 
imagine if a city in our districts asked for our help with a 
grant or an appropriations request, would any of us reply, ``I 
would like you to do us a favor, though, and announce an 
investigation into my political opponent?'' Of course not. And 
why would you not do that? Because no one--no one--is above the 
law, not even the President. And you know that asking for that 
type of favor is illegal.
    The rule of law is what gives our great country its 
strength. The rule of law is what separates us from Third World 
countries where dictators reign for decades on. The rule of law 
is what makes us, our great country, the envy of the world, the 
place that other countries look for inspiration as they grow 
their own democracies. And it is the rule of law that brings 
all of us here today.
    And as the only Member of Congress from Central American, 
take it from me that we never want to see a day when the rule 
of law simply fades away. I never want to see a day where 
American families have to send their children to live outside 
of the country because of public corruption. Look at Honduras. 
Their Constitution banned Presidential reelections. Their 
Constitution clearly states that if Presidents tried to get rid 
of the reelection ban that they should be removed from office 
immediately.
    And despite all of this, President Juan Orlando Hernandez 
ran again any way and the Supreme Court in Honduras, filled 
with his supporters, got rid of term limits, and he is now 
serving his second term in violation of his country's founding 
principles.
    Honduras is now a narco-state, and we have thousands of 
Honduran families at our southern border seeking asylum.
    In Guatemala, the people have been waging an uphill battle 
against corruption for years. Former President Otto Perez 
Molina took bribes in exchange for lower taxes. Millions of tax 
dollars line the pockets of high ranking officials instead of 
meeting the needs of the people in one of the poorest countries 
in Latin America.
    Today, President Trump said, after a meeting with President 
Morales, in Guatemala they handle things much tougher than the 
U.S. Imagine that. CICIG, the anticorruption organization 
formed to bring justice to Guatemala, brought hundreds of cases 
of corruption to light, but once they began investigating 
President Jimmy Morales for illegal campaign financing, he 
promptly shot down the commission. Does this sound familiar to 
anyone?
    President Morales even forced the former Attorney General, 
Thelma Aldana, who worked to fight corruption, to seek asylum 
in the United States because her safety is now at risk. Does 
this sound familiar to anyone?
    I bring these examples up to remind my colleagues that the 
future health of our democracy is not assured. We can slide 
back to tyranny one corrupt act at a time and until our 
democracy is like the fake village in North Korea that faces 
the DMZ, a nice-looking facade that masks the tyranny within. 
That is why the Articles of Impeachment are so important.
    Mr. Chairman, the Constitution did not come from a higher 
power. It is just a document, a piece of paper with words 
written on it. But we, the people, give the Constitution its 
power. We, the people, decide to follow and honor our laws. And 
today, we, the people, must agree that the laws apply to 
everyone, including the President of the United States. That is 
the precedent that we expect of all elected officials and it is 
the precedent that we must reaffirm in these proceedings.
    Sixty years ago, Martin Luther King issued a warning during 
the civil rights era which resonates very much with the choice 
before us today. And Dr. King said: If you fail to act now, 
history will have to record that the greatest tragedy of this 
period of social transition was not the strident clamor of the 
bad people, but the appalling silence of the good people.
    Let's move forward.
    I want to ask you, do you know how many witnesses were 
blocked from testifying?
    Mr. Raskin. I think I may have to help on that. I believe 
there are nine administration witnesses who--I am sorry--
somebody will correct me if I am wrong, but I believe there 
were nine administration witnesses who were called who did not 
come forward.
    And if I might, Mrs. Torres, I am moved by what you had to 
say. I was not aware that there were GOP primaries being 
canceled.
    Mrs. Torres. Canceled.
    Mr. Raskin. It allows us to refocus on the importance of 
elections and sovereignty of the people. I know some people 
would say, well, that is just a private affair, let them do 
their own thing, but forgive the law professor in me, but there 
is a whole line of cases--Smith v. Allwright, Terry v. Adams--
it is called the white primary line of authority, which says 
party primaries are actually essential for the voting rights of 
all citizens, and equal protection does apply there.
    Mrs. Torres. But Republicans in five States are being 
denied an opportunity to choose a Republican candidate to move 
forward and represent them. Five.
    Mr. Raskin. So the general point there is that our system 
is based on the idea of popular self-government, so you need to 
have the channels of effective political participation open so 
people can participate and people can compete.
    Competition is good in economics, it is good in sports. It 
is good in politics, too. We want to have a play of ideas and a 
marketplace of ideas so we are able to get the best ideas out 
there.
    But the other critical point you made--and thank you for 
pointing us to the Central American and the Latin American 
example, because there has been a lot of instability in 
democracy there where it is under attack by despots and 
dictators and corrupt forces, and we are seeing this all over 
the world now.
    What is taking place in America has got to be seen in a 
global context. There are dictators, despots, tyrants, 
kleptocrats, and Putin is one of the ring leaders and Orban in 
Hungary who is championing illiberal democracy and Sisi in 
Egypt and Duterte in the Philippines and the homicidal Crown 
Prince of Saudi Arabia and on and on, and they are all 
besieging democracy.
    And who is the beacon of hope for the world in terms of 
democracy? America is, and we have got to show how it is really 
done.
    Mrs. Torres. So I am going to ask you one last question.
    Did witness intimidation occur during your committee 
hearing.
    Mr. Raskin. To be clear, there were nine senior officials 
who refused congressional subpoenas.
    Mrs. Torres. On what grounds?
    Mr. Raskin. Well, there were different statements made by 
different of them. Some of them said that it was because of an 
executive branch policy. And I would have to go back and look 
and see which ones invoked this or that doctrine perhaps. I am 
not sure. But we have never seen anything like this in scale 
and scope and degree in American history. We just have not.
    Mrs. Torres. A coverup.
    Mr. Raskin. And the chairman of the Intelligence Committee 
and the chair of the Judiciary Committee have praised those 
people who have come forward.
    And if I could, if you would allow me just one thought 
about this. I think it has been said a couple times: Your 
witnesses.
    I think there were multiple witnesses there who totally 
recoiled and rebelled against the idea that they were anybody's 
witness. These are people who have devoted their lives to the 
State Department, the National Security Council, serving the 
American people. We have people in there like Ambassador 
Taylor, a decorated Vietnam war hero. We have the lieutenant 
colonel who was injured in Iraq, is a purple heart winner. We 
have Fiona Hill. We have Ambassador Yovanovitch whose family 
fled Nazi-Germany and Stalinist Russia and committed her whole 
career to American democracy as an example.
    These people are not majority witnesses or minority 
witnesses or these or ours. The vast majority of them said: We 
are not here in any partisan context. We are not here with any 
partisan purpose. We are here to tell the truth.
    And they swore an oath to tell the truth. Those people went 
under oath. They are not throwing tomatoes from the sidelines. 
They went under oath and told exactly what they saw and what 
they heard, and we have their direct testimony.
    Mrs. Torres. And rather than commending them for their 
courage, someone on Twitter decided to intimidate and diminish 
their testimony.
    Mr. Raskin. You know, I never thought in my lifetime we 
would get to a point where the President of the United States 
heckles people for doing their civic duty of going under oath 
to tell the truth.
    Mrs. Torres. Mr. Chairman, I yield.
    Mr. Woodall. Would my friend yield just one moment?
    Mrs. Torres. I will absolutely yield to you.
    Mr. Woodall. I was similarly shocked, as Mr. Raskin was, 
when I heard folks were canceling their primaries. So since 
South Carolina happens to be my neighbor, I went back and 
looked. And it turns out that is just something that they do. 
They did it for Reagan and Bush and they did it for Clinton and 
Obama, that the party that is in power, has the White House, in 
the name of saving dollars cancels it. And I share that with 
you because I was comforted when I heard that it was a 
historical practice as opposed to something that had just----
    Mrs. Torres. And I appreciate----
    Mr. Woodall. I thank my friend.
    Mrs. Torres. I appreciate your feedback on that.
    I am going to yield back to Mr. Chairman.
    The Chairman. Thank you very much.
    So I think that the committee is going to take a 5-minute 
break, so you can stretch your legs and do whatever else you 
need to do.
    Mrs. Torres. Breathe.
    The Chairman. All right. This is a strict 5 minutes if we 
can. Without objection, the committee stands in recess.
    [Recess.]
    The Chairman. The Rules Committee will come to order.
    I will now yield to the gentleman from Texas, Dr. Burgess.
    Dr. Burgess. Thank you, Mr. Chairman.
    I thank our witnesses for staying with us throughout all of 
this. I know you have been through a lot already.
    But I can't help but be struck by the fact that this does 
seem to be proceeding rather rapidly. It did, after all, all 
start with a phone call.
    No, not with a phone call in July, but with a phone call in 
November when Mollie Hemingway overheard incoming Chairman 
Nadler talking to constituents on the telephone and said that 
impeachment of the President was going to be of the highest 
order.
    So although there is not a transcript of that call, it was 
well documented in social media, and that seems to be one of 
the things that we can now use as evidence that can be 
introduced.
    Mr. Collins, correct me if I am wrong, but it does seem 
like this is an exercise--and I think this is reflected in your 
dissenting views that you submitted--this seems like 
impeachment first, build a case second.
    Mr. Collins. It does.
    Dr. Burgess. And there is an inherent problem with that, of 
course, in that the old saying goes: When your only tool is a 
hammer, the whole world looks like a nail. And you have already 
alluded to the clock and calendar. And I would also submit that 
this does seem like we are busily trying to find the data that 
would actually define the crimes that we can then prosecute the 
crime.
    The difficulty--and, again, this is reflected in your 
minority views--the difficulties for future Presidents and, 
indeed, future Congresses, it says in these dissenting views, 
if partisan passions are not restrained, the House of 
Representatives will be thrown into an endless cycle of 
impeachment, foregoing its duty to legislate and usurping the 
place of the American people in electing their President.
    And we have seen a week or we are seeing a week this week 
unlike any other that we have seen this year in that today we 
voted on the appropriations for $1.4 trillion. We are going to 
vote tomorrow, I think, on Articles of Impeachment. And then on 
Thursday we are going to vote on approving a significant and 
important trade authorization that has actually been basically 
agreed to for the past year, but we are just now bringing it up 
this week.
    And I guess it just begs the question, the committees of 
jurisdictions--certainly your committee has been involved in 
this, a lot of time in your committee has been taken up with 
this process. No question the Intelligence Committee has been 
doing this work. I don't know if they had other work they 
should have been doing this fall, but they have been doing this 
work exclusively.
    And, although I am a member of the Committee on Energy and 
Commerce, and certainly we have our jurisdictional tussles with 
the Committee on Ways and Means, it bothers me that the 
committee on Ways and Means has had to give up their hearing 
room for all of these weeks so that Intelligence and then 
Judiciary could hold the hearings on the Articles of 
Impeachment in the Ways and Means hearing room.
    Does this bother anyone else that all of Congress' 
attention has been diverted to this at the exclusion of every 
other process?
    Mr. Collins. It bothers me, believe me. I will let the Ways 
and Means folks, no offense to them, I will let them keep their 
room. I prefer Judiciary and others.
    Look, I am not going to be one, I think we have had a large 
number, especially the Judiciary Committee this year, we have 
passed other bills, and I will disagree with those and there 
were some we have actually made bipartisanly. But it has been a 
start and stop process.
    I remember when impeachment was taken away from us, is the 
way we have described it, in September. We went, like, almost a 
2, 2\1/2\-week period we didn't know what to do. I mean, 
because we literally had been doing so much of investigation 
and Mueller and everything that there was nothing in the 
hopper, so to speak, for us to move forward on.
    And the chairman did a good job, I think, trying to recover 
from that. And I disagreed with some of the bills that we have 
passed, but at least we had some other hearings.
    I think over time, without elaborating on this a great 
deal, I think the biggest issue that we have here is at the end 
of the day I think there is a large decision being made, and 
that decision is being made on we need to do this now--and I 
disagree vehemently with the majority on this--we need to do 
this now.
    But I do, after taking a step back, look at the--because we 
have had to live within the Judiciary, in particular, this 
year, the institutional discussion and damage, as I would call 
it, to our rules and our processes and our things. Those are 
the things that concern me most, whether I am here or not. 
Because the good thing--you know, the logical thing is most all 
of us here will not be here in a number of years, whatever that 
year may be, but there will be others.
    And the Intelligence Committee is a committee you used to 
never hear of. It was a committee that did its job in silence 
in the dark in the basement. When I first got here Mike Rogers 
and Mr. Ruppersberger, I thought they were combined, because 
every time I saw them, I saw both of them together. And now it 
has become a committee that I don't think it ever, ever 
intended to be and I don't think it should have had this time.
    It could have been handled differently. I may disagree with 
the findings of my Judiciary colleagues and even Intel 
colleagues, but this should have never been in Intel to start 
with, and I just disagree inherently with that. There were 
other committees that could have handled it properly. I just 
don't think this is where it should be. But I know sort of--I 
feel like I know why it was, but it just shouldn't have been 
down there.
    Dr. Burgess. Well, and the optics of having this done 
absolutely in secret, in a secure compartmentalized facility 
downstairs, not just in secret, but behind locked doors with 
armed guards out front.
    Mr. Collins. And especially when none of it was classified. 
I mean, that is the whole different issue. If it was all 
nonclassified, then why do that?
    And, again, I am not going to--we are late in the day and I 
am tired and everybody else is tired. There are reasons that it 
was happening. But they did it for a purpose. They got the 
intended result. But, again, it was not classified.
    And really what bothered me was, you talk about the rules, 
and I talked with the House parliamentarians and others, there 
was no reason we could have not got that information before it 
was decided to be released. I am a Member of Congress. I could 
have went to any of those committees--and I did go to two of 
those committees and was turned down to get that information 
while it was going on.
    That was just a flagrant violation of House rules. And you 
can dress it up and make it look better and say, well, it was 
all in a bigger cause, but that leads us down some pretty bad 
roads as well.
    Dr. Burgess. And I will tell you, you have been a member of 
this committee in the past, so you know the responsibility that 
rests with this committee. Anything that comes to the floor is 
going to come through us. We set the rules and the parameters 
around the debate. So it is an important job that is done up 
here.
    It certainly has bothered me that all of this activity was 
done downstairs and in secret and we weren't allowed--even as a 
member of the Rules Committee, I was not allowed to review the 
transcripts until very late in the process. There is a lot of 
material that was collected.
    I knew that as a member of the Rules Committee eventually I 
was going to be asked to render some sort of judgment, but it 
was virtually impossible to keep up then with the volume of 
information that when it came out, there was a lot that came 
out.
    You are also doing now your open hearings in both 
Intelligence and then subsequently Judiciary, so there was a 
lot of material with which to keep up.
    But let me just ask you, were all of the transcripts that 
were collected down in the Intelligence Committee secure room, 
were all of those made available to all Members of Congress?
    Mr. Collins. No. We still have one--we know of one that is 
still out, that is the Inspector General of the Intelligence 
Community's report.
    Dr. Burgess. May I ask, is that classified information?
    Mr. Collins. You would have to ask Mr. Schiff, but he 
doesn't seem to want to talk about that on the record. So, I 
mean, he just keeps it--we don't have it.
    But it also is a violation of 660. It is a violation, 
clearly a violation of 660. The White House, we know, has not 
got all the information sent to them. That is a clear violation 
of 660.
    Dr. Burgess. When you say 660----
    Mr. Collins. That is House Resolution 660.
    Dr. Burgess. The House resolution that authorized the 
impeachment inquiry?
    Mr. Collins. That came out of this committee, yes.
    But I want to also say one thing, and, again, not to be--I 
am not trying to be controversial here.
    But you just made a statement that should really, frankly, 
bother every Member, no matter what committee they serve on. 
And I am not going to take any committee and name them. But you 
said: I am on the Rules Committee, I couldn't go.
    Any Member who wears a pin has the power and authority to 
go look at those. And if we can't trust Members to go look at 
those and do that as their job, then I really question why are 
we doing this. I mean, because you can say, well, leaks. Well, 
golly, that didn't stop the leaks from coming out of the rooms. 
We had plenty of leaks.
    But it didn't matter because when you stop Members from 
being Members, then inherently no matter how good your, quote, 
intention is or how breathless you think that the next election 
is in peril, the moment you have to take down the liberties and 
the rights and responsibilities of Members to get there, that 
is a problem.
    Dr. Burgess. Well, Mr. Chairman, I apologize. I should have 
brought copies of the letters that I sent to the Speaker and to 
the chairman of the Intelligence Committee asking to review 
those documents on a more contemporaneous basis. Because, 
again, I knew we were going to get to this day. I knew this day 
was coming in the Rules Committee, we were going to be asked to 
vote on stuff that, again, just the sheer volume of information 
that we now have to sort through in order to make an informed 
decision for, yes, our constituents, but for other Members of 
the entire House of Representatives, because they are all going 
to be hanging on what we decide here tonight.
    Mr. Collins. I agree. And I just want to add, because I am 
not making this up and this is for any Member of the committee, 
any Member watching right now, this is clause 2(e)(2)(a) of 
Rule XI. This is a rule of the House.
    And it was really interesting because they could have 
waived a lot of this, but they didn't. This was always 
available to us, but yet was denied by us on many occasions. 
And, again, it just goes--no matter how desperate you are to 
get to an end result, this is what concerns me this time next 
year or the next year: When is this going to be brought back up 
again?
    Dr. Burgess. So let me just ask you, Mr. Collins, it seems 
to me, and, in fact, the words in your minority views are that 
the charges are vague and malleable, and I think my fellow 
Texan, Mr. Ratcliffe, asked the question during--I think it was 
during a Judiciary hearing, it may have been during an 
Intelligence hearing, what was the crime? Were you aware in 
talking to the witnesses, asked witnesses at the witness table, 
what was the crime that you witnessed? And in general, what 
answer was he given to that question?
    Mr. Collins. That they witnessed none. And I think what the 
majority is doing is taking full advantage of the political 
nature of impeachment in nondefining to move forward with this.
    Dr. Burgess. Which, of course, is one of the inherent 
difficulties going forward. If you allow the charge to proceed 
that is vague and malleable, it certainly can occur again under 
different circumstances.
    A lot has been said today about fact witnesses. And, well, 
let me just ask you this. Was there anyone that you interviewed 
during the Judiciary Committee proceedings that had direct 
knowledge of the phone call?
    Mr. Collins. I chuckle a little bit, because, again, we 
didn't get to interview anybody. We had four law school 
professors and two staff members. That is it.
    And what was really interesting is, we had two 
presentations, one of which--by the way, our witness actually 
testified, he presented, and then had to testify under oath, 
and then the one who presented for the Judiciary Committee 
actually then left the presenting table and came and questioned 
our member under oath and transferred out with the Intelligence 
Committee staff member.
    So, no. Like I said, I can't lay this out any better. But I 
want to make it very clear and I have done this all day: I will 
fight you, I will fight this on process and I will fight this 
on facts. We win both. And I think that is what is coming out 
the most in this.
    Dr. Burgess. I am glad you brought up about process, 
because we do get a lot of criticism that we are talking a lot 
of process. This is the Rules Committee. That is kind of what 
we do, is the process. You remember. You were on the Rules 
Committee.
    Mr. Collins. Yes.
    Dr. Burgess. Well, there is a statement from Lieutenant 
General Keith Kellogg, national security advisor to the Vice 
President, and I am going to go read just a portion of this.
    ``I was on the much reported July 25 call between President 
Donald Trump and President Zelensky. As an exceedingly proud 
member of President Trump's administration and a 34-year highly 
experienced combat veteran who retired with the rank of 
lieutenant general in the Army, I heard nothing wrong or 
improper on the call. I have had no concerns.''
    So was this--I mean, I am assuming this type of information 
was made available to you while you were conducting your 
hearing. Is that not correct?
    Mr. Collins. He didn't testify. He submitted that.
    Dr. Burgess. He submitted.
    So, Mr. Chairman, I would ask unanimous consent to put 
Lieutenant General Keith Kellogg's statement into the record.
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Dr. Burgess. Again, it just goes--you didn't have testimony 
from an actual fact witness. As far as we know, no actual crime 
was elucidated when Mr. Ratcliffe of Texas asked his questions 
of the witnesses who were there.
    So it gets to a point, where what are we doing? Why are we 
doing this? And we do need to have a good answer for the 
American people because they are going to be asking us these 
questions, and they should ask us these questions.
    And without an identifiable crime, with people who are 
present when the telephone call was made who have significant 
credentials and say there was nothing wrong and they witnessed 
nothing improper, what are people to think?
    Mr. Collins. Well, I agree with your assessment here and 
this is one of the reasons we brought out the problems that we 
have been bringing out.
    But, again, I will also have to say, I have done everything 
I possibly can do in my side and I know my colleagues have as 
well. I am not going to have to answer that question. Everybody 
who votes yes tomorrow is going to have to answer that 
question.
    Dr. Burgess. And I think that is an excellent point. 
Everyone who votes yes tomorrow will have to answer those 
questions.
    Let me ask you just one last thing, and it has to do with 
the transcript--not the transcript of the telephone calls, but 
the fact that phone calls were released as part of--and I know 
it wasn't your report, it was the Intelligence Committee's 
report that detailed telephone calls. The transcripts of the 
calls themselves were not revealed, just who made calls to 
whom.
    I have got to tell you, of all of the things that we have 
encountered in this, that is the one that I have gotten the 
greatest amount of anxiety back home. People ask me: Wait a 
minute, they intercepted a call from the President's lawyer to 
the President?
    I mean, that is pretty serious stuff. They intercepted a 
call from a Member of Congress? I realize that we are not held 
in very high regard outside of this room, but still a Member of 
Congress was listed on that form and not given an opportunity 
to know about that before their name was listed? That seems to 
me to be really going too far.
    Mr. Collins. Well, look, and I have said this--I have 
testified to this before. The subpoenas that were issued were 
valid subpoenas, they got the numbers, they did the metadata, 
they got the stuff, and they matched numbers.
    But to say that there wasn't a determination as we look to 
do these calls into how those numbers, such as the ranking 
member, such as the member of the media, and others, even if 
you wanted--even if you just grossly in your mind could come to 
the conclusion it was okay to know that, at what point was it 
okay to put it in that report and not say anything about it?
    There was no reason to put that in the report. I mean, it 
is the unindicted co-conspirator kind of thing, and I have 
heard this already. Well, that is even more of a smear on a 
Member of Congress. Well, we didn't really do anything wrong, 
but that is what we do.
    No. That should never have happened. There was ways to do 
it. Mr. Goldman had no answer for that. In fact, he was very 
uncomfortable because then he told us he wasn't going to talk 
about how they did their investigation, which is problematic 
even further, because we are the committee, this is our one 
chance to actually look into how the sort of methodology was 
that went behind it.
    And, again, look, it is very important to Members of 
Congress and it should be on both sides of the aisle doing 
that, because at the end of the day it did not make their case 
better, it did not make their case stronger, it did not make 
their case any better except for the simple fact that all of a 
sudden when this report came out, there was about 15 or 20 or 
30 or 40 or 50 or 500 media outlets that picked that up. And it 
just inherited this story of----
    Dr. Burgess. It snowballed.
    Mr. Collins. It snowballed. And that is I think exactly 
what they wanted. Because, frankly, if I had the report that I 
had to put out, I would want something to take attention away 
from it. And that is sort of what they did. They threw it in 
there as a gratuitous that meant nothing. But it just goes to 
show how rushed and how partisan this has become, and that 
should scare everyone.
    Dr. Burgess. So in your opinion that was a diversionary 
tactic?
    Mr. Collins. I think it was a tactic to say: Look at what 
else we have done here and also look at the ranking member, 
let's look at the others. All this involved, I think it was 
just simply--again, without going into the mind of Mr. Schiff, 
who I would actually blame for this, Mr. Goldman not, we don't 
know. What was your reason for doing that, what was your reason 
for putting his name in there, except to make a point, because 
you all had been publicly feuding for a long time about how 
this process is going? Why else would you put it in there? 
Because there was no other evidentiary value for it.
    Dr. Burgess. As a practical matter, let me just share with 
you as a rank-and-file Member of Congress, humble back bencher 
that I am, we talk about damage to national security. This was 
damaging to national security. The release of that information 
and the way it was released was damaging to national security, 
because you and I are going to have to make a determination, 
and I realize it is not quite the same thing, but the 
reauthorization of 215 of the PATRIOT Act is going to come in 
front of us at some point. And how am I supposed to vote for 
the collection of amorphous metadata to be held in some place 
until its queried by one of our intelligence----
    Mr. Collins. Yeah. And I appreciate that. I think this is 
definitely two conversations to have on a different level. And 
I agree with your concerns and I have had similar concerns.
    My concern more with this is how we treat each other, and I 
think this is where this hits for me, is how we are treating 
each other, and not the fact that we can disagree vehemently.
    And we have had great times up here. And I can remember Mr. 
Hastings and I, I appreciate Mrs. Torres talking about our 
inside voices. Mr. Hastings and I have sometimes not used our 
inside voices in here, and it is just because we get passionate 
about what we do. But we have done that. But we disagree 
vehemently.
    But I would never think about taking a report that didn't--
and put his name in it in a derogatory way that had nothing of 
value to add to my report. I just wouldn't have thought that.
    And so if that is the level that we have gotten to, no 
matter what you believe about the facts, no matter what you 
believe about the President, the phone call, the transcript, 
the witnesses or anything else, to do things like that that 
have these gratuitous kind of political I call it hit job in 
the middle of a report that didn't have to be there, that does 
not benefit you at all, is a problem.
    Dr. Burgess. Just one last observation. And I appreciate 
your comments. We had, as you mentioned, you did have one panel 
of witnesses. There were four witnesses, one of which you 
selected. I do wish you would have selected someone who had 
actually voted for the President. That would have made me feel 
better.
    However, I thought the witness you did select did a very 
good job. And certainly, I mean, as you recall, he came and 
testified here at the Rules Committee at one point when we were 
contemplating illegal action against then President Obama over 
some part of the Affordable Care Act we thought had been 
administered improperly. So I always enjoy listening to Mr. 
Turley testify.
    His statement that he is concerned about the lowering of 
impeachment standards to fit a paucity of evidence and an 
abundance of anger, I mean, I think those are the words that 
are going to echo down throughout history.
    That is what this exercise has been all about, very little 
facts and a great deal of anger--anger at the President, anger 
at the American people for electing him--and it reverberates 
over and over and over again. I have said before in this 
committee, that is not a good look for us.
    Thank you, Mr. Chairman. I will yield back.
    The Chairman. I thank the gentleman.
    And he had mentioned he had sent several inquiries to our 
leadership. I think we will probably be here for a little while 
longer if your staff want to collect them. We are more than 
happy to make them part of the record.
    I would also say that those of us who vote yes on 
impeachment obviously have to answer to our constituents. Those 
who vote no have to answer to their constituents as well.
    Mr. Collins. I fully agree, Mr. Chairman.
    The Chairman. These are votes of conscience. I have not 
been a supporter of the President when he ran for President. 
That is no secret. But I assure you that my vote for 
impeachment is based on my strong belief that what he did rises 
to the level of an impeachable offense.
    And I genuinely believe, as I have said over and over and 
over again, that we see a crime in progress, and I am worried 
about the next election. And that is why there is urgency here.
    And I appreciate the conversation you just had. It is all 
fine and relevant about getting in the weeds over the 
investigation. But we also need to talk about the President's 
behavior and what he did.
    I now yield to the gentleman from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thank you, Mr. Chair.
    And, first, I would like to introduce into the record four 
things.
    The oath that the Senators have to take of impartiality if 
they sit as jurors in a trial on impeachment.
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Perlmutter. Second, a letter from 700 historians, their 
statement on the impeachment of President Trump.
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Perlmutter. Third is the editorial from USA Today 
dated, I think, December 12, concerning impeachment of 
President Trump.
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Perlmutter. And fourth is a law review article in the 
Colorado Lawyer by a gentleman named Scott Barker called ``An 
Overview of Presidential Impeachment.''
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Collins. Mr. McGovern.
    The Chairman. Yes.
    Mr. Collins. Mr. Chairman, I have a very unusual request, 
but as a former Member, I would just like to ask, USA Today, I 
had actually the response to that editorial in that same paper.
    The Chairman. You want to put that in?
    Mr. Collins. Could I put that in as well?
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Collins. There you go. Thank you very much.
    Mr. Raskin. You have to put my letter to the editor, too.
    The Chairman. Mr. Perlmutter.
    Mr. Perlmutter. I would like to read a statement and then 
ask some questions of my two colleagues here.
    The President should be impeached. His actions were an 
abuse of power that jeopardizes America's national security and 
compromises our elections. No one is above the law and that 
includes the President.
    By withholding almost $400 million Ukraine desperately 
needed to defend itself against Russia until Ukraine did the 
President's political bidding, the President committed High 
Crimes and Misdemeanors for which he should be impeached under 
Article I, Section 2, Clause 5, and Article II, Section 4 of 
the Constitution of the United States of America.
    This abuse of power is compounded by the President's 
refusal to cooperate with Congress' impeachment investigation 
and his stonewalling of witnesses from testifying or turning 
over documents to Congress.
    Almost 14,000 people have been killed since Russia invaded 
Ukraine. Withholding $400 million Congress appropriated to help 
Ukraine defend herself unless Ukraine helped the President dig 
up dirt on his political rival Joe Biden was the last straw for 
me. People's lives and our national security were placed at 
risk. This was more than paying hush money for strippers, 
profiting from foreign governments staying at resort 
properties, or even obstructing justice as laid out in the 
Mueller report.
    The Founders fought and died for freedom and independence 
from a tyrannical ruler in a foreign government. Impeachment 
and removal from office was the remedy they included in the 
Constitution to act as a check on a President who placed 
himself above the law, abused his power for his own personal 
benefit, and invited foreign governments to get involved in our 
domestic affairs, especially our elections. A President who 
flaunts the separation of powers and checks and balances in our 
Constitution and who refuses to allow witnesses to appear 
before Congress would receive our Founders' universal 
condemnation.
    Treating taxpayer money as his own to extort a, ``favor,'' 
from a foreign government to aid him in his reelection goes to 
the very heart of concerns raised by our Nation's Founders when 
they drafted and advocated for impeachment to act as a check on 
the awesome powers of the chief executive.
    For instance, Madison said in Federalist 47: ``The 
accumulation of all powers, legislative, executive, and 
judiciary, in the same hands may justly be pronounced the very 
definition of tyranny.''
    He went on to say during the Constitutional Convention, 
``The executive will have great opportunities of abusing his 
power,'' and further that a President, ``might betray his trust 
to foreign powers.''
    George Washington's farewell address warned of ``foreign 
influence and corruption'' which leads to the, ``policy and 
will,'' of America being ``subjected to the policy and will of 
another.''
    Alexander Hamilton wrote in Federalist 65 that impeachment, 
``proceeds from the misconduct of public men, from the abuse or 
violation of a public trust.''
    The USA Today editorial board stated it perfectly when they 
wrote in their December 12, 2019, editorial, quote: ``In his 
thuggish effort to trade American arms for foreign dirt on 
former Vice President Joe Biden and his son Hunter, Trump 
resembles not so much Clinton as he does Richard Nixon, another 
corrupt President who tried to cheat his way to reelection.'' 
``This isn't party politics as usual,'' they go on to say, ``it 
is precisely the misconduct the Framers had in mind when they 
wrote impeachment into the Constitution.''
    Impeachment is the remedy the Founders placed in the 
Constitution to remove a President during his or her term of 
office. This is especially true when the misconduct involves an 
upcoming election.
    The President invited foreign participation in our 
elections at least three times, first, with, ``Russia, if you 
are listening;'' second, with his demands on Ukraine to, ``do 
us a favor though;'' and third, with his request for China to 
get involved in the 2020 election by starting, ``an 
investigation into the Bidens.''
    Any further delay or simply allowing the election cycle to 
run its course results in the harm and abuse impeachment was 
designed to prevent. For the sake of the Constitution, fair 
elections free of foreign interference, and our national 
security, President Trump should be impeached.
    So, obviously, and to my friends, we have very different 
opinions about this. And we work up here in the Rules Committee 
a lot of hours. We respect one another. But for me this goes to 
the heart of the Constitution.
    And to my friend, Mr. Collins, you and I couldn't disagree 
more on this.
    And I would want to compliment my friend. My guess is that 
as an attorney--and you kind of come off with that country 
attorney kind of approach and a number of us think of ourselves 
as kind of country attorneys--my first question just is sort of 
a general proposition to you, sir, and to you, Mr. Raskin.
    Do you as an attorney understand the terminology ``time is 
of the essence''? Do you know what that means, Mr. Collins?
    Mr. Collins. Yeah.
    Mr. Perlmutter. What does it mean?
    Mr. Collins. [Inaudible.]
    Mr. Perlmutter. Because, as you would say, the clock is 
ticking.
    Would you agree with that, Mr. Raskin?
    Mr. Raskin. Yes.
    Mr. Perlmutter. Well, the clock is ticking on the 2020 
election, and I think we would all agree that if this 
impeachment were held in July or August or September, drawn way 
out, that time is of the essence; that that would really affect 
the 2020 election.
    So I appreciate the gentleman's statement that, oh, this 
has been rushed and there just hasn't been enough time and all 
of that sort of stuff, but time is of the essence.
    And this instance began, at least what started it all--and 
Mr. Hastings introduced this into the record, the memo of July 
25, 2019, which generally transcribes, but not completely 
transcribes, the President's conversation, or parts thereof, 
with President Zelensky.
    And we were talking about it and you used the word 
transcript and Mr. Hastings said memo. I mean, it is a 
memorandum of a telephone conversation and it is not a verbatim 
transcript. And it goes, down at the bottom, the word 
``inaudible'' is used to indicate portions of a conversation 
that the note-taker was unable to hear.
    So I would like to ask you a question, Mr. Collins, and 
you, too, Mr. Raskin, just in terms of the completeness of this 
document. Because I think that this document, even with things 
that are not transcribed, is a pretty damning piece of evidence 
against the President. And then I think Mr. Mulvaney's comments 
a month later saying, oh, we do this all the time and get over 
it, that, too, is damning.
    But the President says--this is right after Mr. Zelensky 
says we are ready to continue to cooperate for the next steps, 
specifically, we are almost ready to buy more Javelins from the 
United States for defense purposes--the President's next words 
are, our President: ``I would like you to do us a favor though, 
because our country has been through a lot and Ukraine knows a 
lot about it. I would like you to find out what happened with 
this whole situation with Ukraine. They say CrowdStrike, dot, 
dot, dot.''
    Gentlemen, in your experience, what does dot, dot, dot 
mean?
    Mr. Raskin, I will start with you.
    Mr. Raskin. What do ellipses mean?
    Mr. Perlmutter. Yes. Something is left out.
    Mr. Raskin. Well, yeah. Yeah. So, right. What we can say 
generally, that something to be continued, but we don't know 
specifically what in every case, but you try to deduce it from 
the context.
    Mr. Perlmutter. And I assume, Mr. Collins, you would agree 
with that.
    Mr. Collins. To a point. But I will say, in effect----
    Mr. Perlmutter. Was that a yes?
    Mr. Collins. Yes.
    Mr. Perlmutter. Okay. So then it goes on: ``I guess you 
have one of your wealthy people, dot, dot, dot, the server, 
comma, they say Ukraine has it.''
    So, again, just in that one paragraph, right after 
President Zelensky says, we are ready to buy the Javelins for 
our defense, there are missing pieces to this memorandum. And 
it doesn't say the word ``inaudible'' is used to indicate 
portions of a conversation that the note-taker was unable to 
hear, does it, in your readings, gentlemen?
    Mr. Raskin. No.
    Mr. Perlmutter. I guess that is a no.
    So this document--and Mr. Burgess was going into the 
classified nature and why was everybody down in the 
Intelligence room downstairs--just looking at it on its face, 
it says, and it is crossed out now, and you--apparently it was 
an inadvertent error.
    But can you tell me, Mr. Collins, when this memorandum, up 
at the top, there is a cross-out, and I think underneath the 
cross-out it says, secret, slash, slash, ORCON, slash, NOFORN. 
Do either of you know what those--what that means?
    Mr. Collins. The President declassified the document, so it 
could be made----
    Mr. Perlmutter. But what is it? My question was, what is 
that?
    Mr. Collins. That means that it is not normally put out to 
the public. We don't normally transmit the telephone calls 
between two world leaders and our President doesn't do that. 
And in an order of transparency he did it in this case, so that 
means it is a declassification.
    Mr. Perlmutter. So this--so----
    Mr. Collins. There is no----
    Mr. Perlmutter. No, no, wait a second. But earlier you said 
it was an inadvertent error. But now you are saying that, oh, 
when there are conversations between two foreign leaders we 
mark it as secret?
    Mr. Collins. No.
    Mr. Perlmutter. Or ORCON or NOFORN?
    Mr. Collins. No, we are talking two different things.
    Mr. Perlmutter. Okay. So--but initially----
    Mr. Collins. You and I are talking two different things.
    Mr. Perlmutter. Mr. Collins, initially this document was 
treated as classified and secret, top secret, was it not?
    Mr. Collins. If you let me explain here, because we are 
talking two different things.
    Mr. Perlmutter. No.
    Mr. Collins. Okay. Then we don't. Then I won't answer.
    Mr. Perlmutter. Okay. Mr. Raskin, you go ahead and answer 
it.
    Mr. Raskin. So I am not certain I can completely answer 
that, Mr. Perlmutter, but can I just try to answer where I 
think you are going. Here is what I would say about this.
    There is no mystery here, right? As you stated, Mr. 
Perlmutter, the July 25 contemporaneous memorandum itself is 
overwhelmingly damning of the President's designs on President 
Zelensky. You add that up with everything that came before and 
everything that came after, and it is all uncontradicted. To 
me, it looks like it is case closed.
    Let's talk about July 26, the next day.
    Mr. Perlmutter. I think that is a good idea.
    Mr. Raskin. The day after the July 25 call, the President 
called Ambassador Sondland. That is his ambassador to the EU, 
but he is part of the Three Amigos who were working on getting 
Zelensky to do the President's will. Okay. He called Ambassador 
Sondland to ask whether President Zelensky was going to do the 
investigation.
    Ambassador Sondland stated that President Zelensky was 
going do it and would do anything you asked him to, and then he 
famously said, he loves your ass.
    According to David Holmes, who overheard the conversation, 
or part of the conversation, Ambassador Sondland and President 
Trump spoke only about the investigation in their discussion 
about Ukraine. There was nothing about the war, nothing about 
corruption, and so on.
    And after Sondland hung up the phone, he told Holmes that 
President Trump--forgive me now, I hope my children aren't 
watching--but he told Holmes that President Trump did not give 
a shit about Ukraine. Rather, he explained, the President cared 
only about the big stuff. The big stuff was the stuff that 
benefited him personally, like, quote, the Biden investigation 
that Mr. Giuliani was pitching.
    This is not an Agatha Christie mystery. There is no alibi. 
There is no alternative hypothesis of the facts. The President 
went after exactly what he wanted. And we know that our 
President is very capable of stating what he wants and telling 
people what his will is.
    Mr. Perlmutter. So let's talk about that for a couple 
seconds.
    And I know, Mr. Chairman, you would like to get moving. But 
I just have a few more questions.
    So Holmes, Mr. Raskin, was the political counselor at the 
U.S. Embassy in Kyiv, right?
    Mr. Raskin. Correct.
    Mr. Perlmutter. And his job was, and I think in his words, 
quote, gather information about Ukraine's internal politics, 
foreign relations, security policies, and report back to 
Washington, represent U.S. policies to foreign contacts, and 
advise the ambassador on policy development and implementation. 
I think that comes from his opening remarks.
    Mr. Raskin. Yes.
    Mr. Perlmutter. So going back to kind of the questions I 
was asking Mr. Collins and you about the secret nature of this 
memo, at least initially, which it was unclassified 2 months 
later, 2 months later, Holmes testified: ``Contrary to standard 
procedure, the embassy received no readout of the call'' and he 
``was unaware of what was discussed until the transcript was 
released on September 25.'' Is that your understanding?
    Mr. Raskin. Say that once more.
    Mr. Perlmutter. That he, Holmes, was unaware of what was 
discussed----
    Mr. Raskin. Correct.
    Mr. Perlmutter [continuing]. Even though it was ordinary 
procedure that he would get to know something like that, until 
this thing was released 2 months later----
    Mr. Raskin. Correct.
    Mr. Perlmutter [continuing]. And taken out of the top 
secret server?
    Mr. Raskin. That is right. And my recollection is, he was 
not on the July call.
    Mr. Perlmutter. Even though it was a supposed inadvertent 
error to put it in the top secret server.
    So you kind of glossed over a couple of kind of cruder 
terms that Sondland was saying in connection with this call 
between himself and the President, but Holmes, as you said, he 
could hear, could he not, the phone conversation between 
Ambassador Sondland and President Trump.
    Mr. Raskin. He could hear it.
    Mr. Perlmutter. Okay. And I think Holmes' testimony was: 
``Ambassador Sondland . . . went on to state that President 
Zelensky `loves your ass.' I then heard President Trump ask: So 
he's gonna do the investigation? Ambassador Sondland replied 
that `he's gonna do it,' adding that President Zelensky will do 
`anything you ask him to.' ''
    And then his remarks about whether the President cared 
about Ukraine or not, but actually Holmes' final statement was: 
``I noted that there was `big stuff ' going on in Ukraine, like 
a war with Russia, and Ambassador Sondland replied that he 
meant `big stuff ' that benefits the President, like the `Biden 
investigation' that Mr. Giuliani was pushing.''
    So a couple more things that I think have to be discussed, 
and that was Mr. Taylor--and you mentioned this. The 
individuals who testified--and, by the way, I would say to my 
friend, Mr. Collins, that you said, oh, we didn't get any 
witnesses. Well, you had Mr. Castor, you had your--Mr. Turley 
testified.
    And then the Intelligence Committee, if I am correct, had 
at least three witnesses that the Republicans called. And I 
would agree with Mr. Raskin that these aren't witnesses for or 
against the defense, although I got to compliment you, I think 
you have been a heck of a defense counsel so far because the 
record has gotten pretty muddy. And the old saying in law 
school that I went to: If you don't have a fact, do your best 
to distract.
    Mr. Collins. I have the truth.
    Mr. Perlmutter. Huh?
    Mr. Collins. I have the truth.
    Mr. Perlmutter. Well, so the three witnesses that the 
minority called during the investigation, Ambassador Volker, 
Under Secretary Hale, and Mr. Morrison, so at least five 
witnesses.
    Plus, Mr. Raskin, you said that a number of other witnesses 
were called, like Mr. Bolton and Secretary Pompeo, Mr. 
Mulvaney.
    So I want the record to reflect that plenty of witnesses 
were called. And the President has had the opportunity to call 
witnesses. He was invited--he and his staff were invited to 
participate in an investigation, were they not?
    Mr. Raskin. Yes, indeed.
    Mr. Perlmutter. And they just chose not to?
    Mr. Raskin. I mean, we were very disappointed that he chose 
not to participate, just like we were disappointed when he 
executed his plan to blockade witnesses from coming and refused 
to turn over any subpoenaed documents.
    Mr. Perlmutter. Just a comment that came out of testimony 
by Mr. Taylor, because those individuals that did testify were 
either decorated war heroes, individuals who have been public 
servants working in the intelligence community, the State 
Department, a whole range of things over the course of decades 
under both Republicans and Democrats, and Mr. Taylor was one of 
those. What was his background, if you recall?
    Mr. Raskin. He was a Vietnam war hero and had spent his 
life in, first, the military service and then the civilian 
service of the country.
    And I think he was, if I am remembering correctly, he was 
scandalized about the treatment of Ambassador Yovanovitch, who 
was the target of an unprecedented smear campaign by people 
working directly with the President, including Rudy Giuliani. 
She was somebody who worked for America and fought for our 
foreign policy priorities in Ukraine. She described herself as 
completely nonpartisan. She had a family background of fleeing 
persecution from totalitarian regimes.
    And they just decided to set her up and to describe her as 
a tool of George Soros and somebody who was on the side of the 
corrupt and so on, until finally the President decided to 
recall her and bring her back.
    That is a scandalous chapter in American history that that 
was allowed to happen to one of our ambassadors, and it was all 
to clear the way for the shakedown of President Zelensky, 
because as Mr. Giuliani said today, he is quoted in the paper 
today, she was in the way of the plan to get from President 
Zelensky what the President wanted.
    Mr. Perlmutter. Last thing. In Ambassador Taylor's 
testimony he was talking about conversations with Ambassador 
Sondland. And in one of those conversations Ambassador Taylor 
said Ambassador Sondland told him,: ``President Trump had told 
him,'' Sondland, ``he wants President Zelensky to state 
publicly that Ukraine will investigate Burisma and alleged 
Ukrainian interference in the 2016 U.S. election . . . In fact, 
Ambassador Sondland said everything was dependent on such an 
announcement, including security assistance. He said that 
President Trump wanted President Zelensky in a box, making 
public statements about ordering such an investigation.''
    Earlier you referred to putting President Zelensky----
    Mr. Raskin. That is absolutely right. And, you know, if I 
had to pick one quote for people to remember from Ambassador 
Taylor, it is when he said: As I said on the phone, I think it 
is crazy to withhold security assistance for help with a 
political campaign.
    And that was in a text message that he was engaged in. I 
believe that was with Sondland and Volker. I think it is crazy 
to withhold security assistance for help with a political 
campaign. That was on September 9, 2019.
    Mr. Perlmutter. Last question I would like to ask you is 
concerning Mr. Giuliani, who you just mentioned. And in that 
Taylor deposition, there is a reference to a New York Times 
article concerning Mr. Giuliani's role, and it is an article 
from May 9, 2019, which says, ``Mr. Giuliani said he plans to 
travel to Kyiv, Ukrainian capital, in the coming days to meet 
with the nation's President-elect to urge him to pursue 
inquiries that allies of the White House contend could yield 
new information about two matters of intense interest to Mr. 
Trump. One is the origin of the special counsel's investigation 
into Russia's interference in the 2016 election. The other is 
the involvement of former Vice President Joe Biden, Jr.'s son 
in a gas company owned by a Ukrainian oligarch.''
    So this is in May of 2019. The ambassadors were told they 
should work with Mr. Giuliani. And their testimony, again, from 
the Sondland deposition, is they were ``disappointed by the 
President's direction that we involve Mr. Giuliani. Our view is 
that men and women of the State Department, not the President's 
personal lawyer, should take responsibility for all aspects of 
U.S. foreign policy towards Ukraine.''
    Do you recall that testimony?
    Mr. Raskin. Yes.
    Mr. Perlmutter. Well, Mr. Sondland, and I don't know who 
came up with the name Three Amigos, apparently referring to 
Ambassador Sondland, Ambassador Volker, and Ambassador Perry, 
they had a couple choices. They could work with Mr. Giuliani or 
not.
    And in his testimony, Mr. Sondland says in working with Mr. 
Giuliani that, ``all communications flowed through Rudy 
Giuliani.'' He determined, in his testimony, he said: ``This 
turned out to be a mistake. But I did not understand until much 
later that Mr. Giuliani's agenda might have included an effort 
to prompt Ukrainians to investigate Vice President Biden or his 
son, or to involve Ukrainians directly or indirectly in the 
President's 2020 reelection campaign.''
    Do you recall that testimony?
    Mr. Raskin. Whose statement was that that was----
    Mr. Perlmutter. From the Sondland deposition, at page 26.
    Mr. Raskin. Yeah, I recall reading that, yes.
    Mr. Perlmutter. Okay. Well, the articles that the Judiciary 
Committee has brought talk about an abuse of power, talk about 
betrayal of national security, talk about corruption. Are these 
the kinds of pieces of evidence that support the articles that 
your committee drafted that you would like the whole House to 
vote on tomorrow?
    Mr. Raskin. Yes. It was a vote of 23 to 17 in committee. 
The majority felt we were brought to the inescapable conclusion 
that the President of the United States had abused his power in 
sweeping and systematic ways for personal purposes, by bringing 
a foreign government into our elections in order to alter our 
political destiny as a people, and he proceeded to obstruct 
justice in order to cover that up.
    That is a pattern that we saw again from the 2016 campaign. 
And the President has demonstrated his unrepentance, he has 
pronounced his behavior perfect and absolutely perfect, and 
assures us that Article II of the Constitution gives him the 
power to do whatever he wants to do. So we have a very clear 
choice as a country right now.
    Mr. Perlmutter. Well, and to end with that, in fact, I 
think the President actually said a couple days before the 
conversation with Mr. Zelensky that Article II of the 
Constitution allows him to, ``do whatever I want as 
President.''
    And I think that is the problem, that is the core of the 
issue, that we are in a democratic republic, that we have a 
framework of laws, of checks and balances that limit a 
President from doing something like that or to entangle other 
governments in our politics and in our domestic affairs, and 
that is why we have brought these Articles of Impeachment, and 
that is why I am going to vote for them tomorrow.
    I yield back.
    Mr. Collins. Mr. Perlmutter, before you yield back, because 
I always like to ask--because I am going to answer this 
question one way or the other, and I would love to answer it 
with you----
    Mr. Perlmutter. Sure.
    Mr. Collins [continuing]. Going back to our original. And 
the two issues we hear that you have said that is not for 
foreign sharing, that was what is always listed on these--you 
are going back to----
    Mr. Perlmutter. So now you are going to have to speak a 
little slower for me.
    Mr. Collins. Yeah, no problem.
    Mr. Perlmutter. I haven't interrupted you before, but 
please.
    Mr. Collins. No, you did fine. And that was mine. It was 
mine.
    What I wanted to make sure was my clarification in my 
answer in respect to your question. It was two separate things 
we were talking about. I was talking about that Mr. Morrison 
said it was put on the other server by an administrative 
mistake.
    All of these conversations that they have with foreign 
leaders are marked the way that one is marked, unless the 
President himself declassifies it, that not for sharing with 
foreign government, that is that not foreign on there, then you 
also have the secret classification which was struck through 
because he declassified it.
    Mr. Perlmutter. All right. So that brings to light--and I 
appreciate. Thank you for clarifying that.
    So in his testimony, Mr. Holmes also said that it was 
unusual for him not to get a readout. I think the term was 
``readout'' of the call. Do you know whether that was unusual 
or not, or you just have to accept his testimony?
    Mr. Collins. That would be his testimony. It is not 
something that I would--could talk about.
    Mr. Perlmutter. Okay. No, and I thank you for----
    Mr. Collins. But I wanted to clarify it, and I wanted to do 
it with you because I could do it in a minute, but I wanted to 
do it with you just to have that----
    Mr. Perlmutter. I thank you for clarifying your answer.
    Mr. Collins. No problem. Thank you.
    Mr. Perlmutter. I yield back to the gentleman.
    The Chairman. I am happy to yield to the gentlewoman from 
Arizona, Mrs. Lesko, who not only has the privilege of serving 
on the Rules Committee and sitting through this hearing today 
but also in the Judiciary Committee.
    Mrs. Lesko. I know. I am going to dream impeachment in my 
arguments, I think. Although, to me, it is a nightmare, quite 
frankly.
    Mr. Chairman, before I start asking questions, and I have 
several of them--sorry, Mr. Collins and Mr. Raskin--I would 
like to ask unanimous consent to include my statement on these 
Articles of Impeachment into the record.
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mrs. Lesko. And, Mr. Chairman, I also ask unanimous consent 
to include President Trump's letter to Speaker Pelosi into the 
record.
    The Chairman. Without objection. And I was going to do it 
at the end, but you beat me to it.
    Mrs. Lesko. I beat you to it.
    The Chairman. I think it is important to have that part of 
the record, having just read it.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mrs. Lesko. All right. Before I get into my questions, I 
just want to--I thought it was very interesting, I had staff 
look up votes on impeachment. And, Chairman McGovern, at the 
beginning in your, I believe, opening statement, you said 
something to the effect that no Democratic Congressman or woman 
on the Rules Committee has voted for the Articles of 
Impeachment before. I think that is----
    The Chairman. Yeah.
    Mrs. Lesko [continuing]. What you said, right?
    The Chairman. I did.
    Mrs. Lesko. And, boy, I think that is a little disputable 
or maybe a little misleading, I am not sure, but I can tell 
you, I have here the final vote result for--it was H. 
Resolution 646, and it was dated December 6, 2017, 58 
Democrats, including many on this committee, voted to advance 
an Article of Impeachment for the high crime or misdemeanor of 
dissing the NFL anthem protest and calling a Member of Congress 
wacky.
    This was a House resolution that Mr. Green introduced, and 
all nine of the Democratic members on the Rules Committee voted 
to table it, which means that if this was--or against tabling 
it, I am sorry, let me clarify--against tabling it, which means 
if it wasn't tabled, you would have voted on the floor of the 
House of Representatives to impeach the President of the United 
States.
    The Chairman. Well, if the gentlelady would yield just for 
a correction. the intent was to vote to advance it to the 
Judiciary Committee, because that is--you know, I voted against 
tabling because I wanted to send it to the Judiciary Committee 
where I thought that was the appropriate way to deal with it.
    So I stand by what I said. Nobody in this House has yet 
voted on an Article of Impeachment. And tomorrow will be, 
assuming we get them a rule, will be the first time that 
anybody, Democrat or Republican, will have that opportunity. 
But thank you for letting me clarify the record.
    Mrs. Lesko. And thank you. And with all due respect, I 
asked my staff that because you had said that in your opening 
statement, and I said, is that accurate? And they said, no, 
that would be if there was a referral. This was actually 
Articles of Impeachment on the floor of the House of 
Representatives that if it had not been tabled, you actually 
would have been voting on the floor of the House of 
Representatives for Articles of Impeachment against the 
President.
    The one that was on December 6, 2017, was because you 
didn't think--you didn't like that President Trump said 
something negative about the NFL anthem protest and called a 
Member of Congress wacky, and all nine of you--all nine of you 
here voted against tabling that.
    Mr. Morelle. Yeah, Mr. Chairman, with all due respect, if I 
could just interrupt. I don't think Ms. Scanlon, myself, or Ms. 
Shalala were Members of the House.
    Mrs. Lesko. Oh, oh, oh. This is--I was on the wrong one. I 
apologize. Thank you for pointing that out to me. This one was 
Mr. McGovern, Hastings, Raskin, and DeSaulnier voted against 
tabling. So there is another one where it is all nine. So I 
mis-----
    The Chairman. Tabling what? What are we talking about, 
impeachment or----
    Mrs. Lesko. Yes. It was House Resolution 646. It was--the 
staff has told me, they were Articles of Impeachment on the 
floor of the House of Representatives, and Representative 
McGovern, Hastings, Raskin, and DeSaulnier voted against 
tabling, meaning that if it wasn't tabled, you would have been 
able to vote on the floor for Articles of Impeachment.
    Then on January 19, 2018, House Resolution 705--and I have 
this one right here--66 Democrats, including many on this 
committee, voted to advance impeachment for the high crime or 
misdemeanor of President Trump's rhetoric. And on that one, Mr. 
McGovern, Hastings, Raskin, and DeSaulnier all voted against 
tabling, so meaning that if it wasn't tabled, there would have 
been a vote.
    Then on this one, more recent----
    The Chairman. Well, let me just--if the gentlelady would 
yield. If there was a vote, you don't know how we would have 
voted on it. I mean, I appreciate it, but I mean--and, again, 
you can go on.
    Mrs. Lesko. Right.
    The Chairman. I would just simply say that, you know, we 
could have this conversation, it has nothing to do with the 
Articles of Impeachment that are before us right now, but I am 
happy to yield to the gentlelady.
    Mrs. Lesko. Thank you, Mr. McGovern. A lot of what has been 
said today hasn't had anything to do with Articles of 
Impeachment. But this, I believe, does because it proves to me 
that it was predetermined that you are going to impeach a 
President of the United States and you are just searching 
around for anything or anything to impeach him on.
    So impeachment number three, on July 17, 2019, House 
Resolution 498, 95 Democrats, including many chairmen and many 
members of this committee--in fact, let's see, I have Mr. 
McGovern, Torres, Raskin, Scanlon, DeSaulnier, all voted 
against tabling--voted to advance impeachment for the high 
crime or misdemeanor of insulting the squad.
    And so, Mr. Collins, my question to you is, do you think 
the fact that so many of our Democratic colleagues, both 17 out 
of 24 Judiciary Committee members that are Democratic, and 
here, a number of my Democratic colleagues on the Rules 
Committee, voted to move forward Articles of Impeachment prior 
to the July 25, 2019, phone call that the Democrats are using 
as their central case for impeaching the President, do you 
think that that kind of undermines their argument?
    Mr. Collins. As I stated earlier today, I do believe that 
it is true, and we have seen this over time.
    Mrs. Lesko. And, Mr. Collins, do you also think that moving 
Articles of Impeachment against the President on--because he 
dissed the NFL anthem protest, against his rhetoric, and 
against insulting the squad kind of lowered the bar for 
impeachment?
    Mr. Collins. I think we have seen a lot of those things 
that has happened in the last--you know, this Congress and the 
last Congress as well. I think a lot of this does. I think this 
lowers the bar for impeachment, and I think it is just 
something that we are having to plow through at this point. 
And, you know, again, they have the votes, and they will move 
it forward.
    Mrs. Lesko. Thank you.
    And, Mr. Collins, earlier, much earlier, Mr. Raskin had 
said something--he was comparing how the closed-door hearings 
that Adam Schiff did were comparable to what Ken Starr did in 
the Clinton impeachment. But isn't it true that Republicans on 
the Judiciary Committee asked to have Mr. Schiff testify, like 
Ken Starr did, and the Democrats refused us?
    Mr. Collins. Yes.
    Mrs. Lesko. Thank you.
    And I also want to--I think you already addressed this, Mr. 
Collins, but another statement Mr. Raskin said earlier was 
there was no evidence Trump tried to root out corruption prior 
to Joe Biden becoming candidate, or something to the effect. 
And I just, from what I have heard, that is absolutely false, 
and I wanted to hear what you said.
    I was told that Trump actually had a meeting with the 
former Ukrainian, Poroshenko, concerned about corruption in 
Ukraine prior to giving him aid, and also that two of the 
witnesses, Democrat witnesses, testified that all along Trump 
was concerned about corruption in Ukraine. Is that accurate?
    Mr. Collins. That was the testimony of the witnesses, yes.
    Mrs. Lesko. Thank you.
    And also another thing that I want to clear up for the 
record, Mr. Raskin said previously that this same process that 
we are doing now was done--it is the same process that was used 
in the Clinton impeachment. Mr. Collins, do you agree with 
that? Because I sure don't.
    Mr. Collins. No, I do not.
    Mrs. Lesko. And would you care to expand--expound?
    Mr. Collins. Yeah. I mean, I think there is a lot of 
different things here, and, again, I think it goes back to the 
inherent nature of what we are dealing with today, and that is, 
frankly, the only bipartisan nature of this impeachment is 
``no.'' It is not bipartisan in the sense of seeing it should 
go forward; it is bipartisan in ``no,'' and that will be the 
only bipartisan that you will see tomorrow.
    Now, again, my friends across the aisle will say that they 
are standing for truth, and I get that, and that is fine. That 
is their argument. And my argument will be that it is--you 
know, everything that we have talked about so far. And that is 
also why at a certain point in time we continue to go on here.
    But I think when you look at the actual things that were 
going on, you know, the issues of how witnesses are called, how 
you dealt with an outside counsel--and, again, it was also said 
earlier that the Starr--the Judiciary Committee handled the 
Starr faster than this, that is not true. It was longer than 
this going through, once it got to Judiciary.
    There was several--I mean, there was 2\1/2\ weeks set up 
before the first impaneling of scholarly witnesses. I mean, so 
we never had that. We didn't have barely 2\1/2\ weeks of the 
entire thing. So when you look at it from those--and I think 
there is just--again, I have argued here today, and I feel 
comfortable in my argument today that I have argued both the 
process problems and the factual problems. I have not been 
afraid to back away from either. We can genuinely disagree with 
that. That is why we are here tonight. If we didn't disagree 
with this, we wouldn't be here.
    So I think, you know, moving this forward at a late hour 
and just discussing the facts that this is, you know, an issue 
we have. I will say something that it needs clarification, 
again, I know from my Democratic friends it will not matter, 
but it does, I think, need to be at least added to the record. 
And it has been brought up that Mr. Mulvaney on several times, 
you know, on his comments on that was the way it was done, get 
over it, it was also referring to general conditions placed on 
foreign aid to all countries, and he did clarify his statement 
later.
    If we have gotten to the point where we can't clarify 
statements--and I get that, because if it doesn't fit the 
narrative, we don't do that--then we do have an issue and a 
problem, because there is not a one of us in here at the 
witness table or at the dais who has not misspoke at some point 
in their life and, you know, possibly even today. So, I mean, 
we just have to look at it from that perspective and go 
forward.
    Look, I think we are--I made all the points that I think, 
frankly, we can make. I would love to have seen this done 
differently. It does concern me that the future is now 
predicated on this. And like I said, it is just a concern that 
the bar is at a certain point now to where it is anything you 
want it to make it.
    It has always been a concern, but the Founders were 
concerned about many things from foreign influence to different 
things, but they were also very concerned about this being an 
overreach in the branches that impeachment, you know, could be 
used in a partisan way or as the quote actually was is whoever 
had the most votes basically, who was stronger in their 
majority.
    Well, and that is very true in the House, and I think that 
is why it is resting in the House. And that is why I agree with 
my friend on the Constitution side, it rests in the House for a 
reason, because we are the--it is the same reason taxes and 
spending have to originate here. We are the closest to the 
people that actually do this.
    So I think this is normal that impeachment would be here. I 
just don't want it to become that it is, frankly, this--you 
don't even have to jump to clear the bar anymore, and I think 
that is the concern I have about impeachment is--going forward 
now.
    Mrs. Lesko. Thank you.
    I am going to actually turn to the actual bill, and I am on 
page 2 now under Article I, abuse of power. And I read: ``The 
Constitution provides that the House of Representatives shall 
have the sole power of impeachment and that the President shall 
be removed from office on impeachment for and conviction of 
treason, bribery, or high crimes and misdemeanors.''
    So, Mr. Collins, I have a question for you. Were any of the 
Democrats' fact witnesses able to establish that the President 
committed treason, bribery, or high crimes or misdemeanors?
    Mr. Collins. No, not in the sense of the way that was laid 
out. And, again--and I have made this comment earlier, and I 
appreciate the gentlelady for bringing this up, they are not 
depending on a crime, okay, and that is fact. And they are 
willing to admit that. I freely give that. They are not 
depending on a crime. They are depending on a pattern of 
action, abuse of power is what they are calling it.
    The interesting thing is, though, is in the report 
theirself they mention bribery and extortion and all these 
other things, but they just couldn't bring it up to actually, 
you know, to get the elements, if you would, to be, you know, 
crass, criminal about it, that they couldn't get the elements 
to where they could explain it to the American people and what 
they were doing, at least in my opinion personally.
    Mrs. Lesko. Thank you, Mr. Collins.
    And I am going to be asking you several questions. So then 
further down on page 2, the Democrats are claiming, which I 
think is inaccurate, using the powers of his high office, 
President Trump solicited the interference of a foreign 
government, Ukraine, in the 2020 United States Presidential 
election.
    Mr. Collins, was there any mention of the 2020 election in 
the phone call?
    Mr. Collins. No.
    Mrs. Lesko. And, Mr. Collins, has there been any proof or 
evidence or witness or anyone that can prove that Mr. Trump was 
referring to the 2020 election?
    Mr. Collins. No. And the only testimony that, you know, 
that it was--it really was never to that. It was discussed on 
aid and conditions on aid that they tried to put forth.
    Mrs. Lesko. And then in--on the bottom of page 2 and to 
page 3, it says that--it alleges--again, I think a lot of this 
is a wishful thinking fairy tale going on here by my Democratic 
colleagues--it said it would benefit his reelection, harm the 
election prospects of a political opponent, and influence the 
2020 United States Presidential election to his advantage.
    Again, has there been any proof of that, Mr. Collins?
    Mr. Collins. No. And it did raise the question that has 
never still been answered from earlier today, is now by running 
for President you are free to do whatever you want to and not 
be investigated overseas.
    Mrs. Lesko. Thank you.
    And then the other thing that is repeatedly said in these 
Articles of Impeachment is that Trump had corrupt purposes or 
corrupt intent. Has there been any proof from their witnesses, 
from anyone, that Trump's intent or purposes were corrupt?
    Mr. Collins. Depending on how you are wording that 
question, no. And I think the interesting issue is, is how they 
would presume what his intentions were in those phone calls, 
and those were presumptions or beliefs given to them by someone 
else. But it goes back to the fact Mr. Sondland himself said it 
was presumed, and then when talked to the President himself 
said, I don't want anything, I just want him to do the job that 
he ran for.
    Mrs. Lesko. Exactly. And I have said before in Judiciary 
Committee and elsewhere that there is no way that you can prove 
what was on Trump's mind or that he had corrupt intent, because 
there are other logical explanations, even though, Mr. Raskin, 
earlier you said there was no other logical explanations.
    Yes, indeed there is, because there was proof--or I should 
say there is evidence that President Trump was concerned about 
corruption in Ukraine. He also said in his phone call that he 
was very concerned that other European countries weren't 
pitching into Ukraine. He also talked about the video of Joe 
Biden bragging about how he got a prosecutor fired by saying he 
is going to withhold $1 billion from Ukraine.
    So, to me, those are all logical explanations of why 
President Trump would want to talk about that, not some 
nefarious reason.
    Mr. Collins. Well, and I think----
    Mrs. Lesko. And so----
    Mr. Collins. Go ahead. I am sorry.
    Mrs. Lesko. Mr. Collins.
    Mr. Collins. I apologize.
    Mrs. Lesko. Did you want to add something?
    Mr. Collins. No. I thought you were through. I am sorry.
    Mrs. Lesko. Okay. Thank you.
    Also, let's see. Oh, this is a good one that this gets 
under my skin, so I guess that is why you guys keep using it, 
is on page 3 at the bottom, my Democratic colleagues in 
Judiciary Committee and here in the impeachment, they keep on 
saying that--it says, a discredited theory--we are talking 
about Ukraine now--a discredited theory promoted by Russia 
alleging that Ukraine rather than Russia interfered in the 2016 
election.
    Mr. Collins, did Republicans or--I don't think President 
Trump ever said that--ever say that Russia was never involved, 
or did we just say that it is possible that both could have 
influenced the 2016 election?
    Mr. Collins. Well, we have never said--I mean, I have never 
been--I believe Russia has been involved in the election, and 
not only in ours, but others for years. That has never been a--
and it really is one of the disturbing parts. And I know we 
have some disagreements between my Judiciary colleagues.
    It was one of the main things to come out of the Mueller 
report that was genuinely we both understood, but we never 
dealt into that legislatively. We dealt with it in some of our 
elections, and maybe touched on it, I will give that much to 
some of the bills that we passed, but we didn't really dig into 
it in depth.
    But I think the issue was is Fiona Hill and others, you 
know, had talked about the Ukrainians, and I will say that 
individuals, you know, who did side with Clinton. And in Fiona 
Hill's, her own statement was, the Ukraine--in her words were, 
Ukraine bet on the wrong horse.
    But, again, this goes to a whole, you know, discussion that 
we have had on this, and at this point it has become very 
clear. We have talked about this over and over and over. These 
are the facts, you know, and we look at it. I think it is 
interesting that you would say that I hear this a good bit that 
these are undisputed facts.
    They are disputed, inherently disputed, because if we 
didn't have undisputed facts, we would all be agreeing here, 
and that is not true. We don't agree on the basis for the fact. 
We don't believe on the basis of the motivation of the call. We 
don't believe that that is--and that is an inherent difference 
in the two sides. That is why we are here.
    The Chairman. Will the gentlelady yield for a unanimous 
consent request?
    Mrs. Lesko. Yes.
    The Chairman. I ask unanimous consent to insert into the 
record at this time a November 8 Politico article entitled, 
quote, Ukraine didn't interfere in the 2016 campaign, Trump 
officials testified.
    Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Collins. And I appreciate the gentleman putting that in 
the record, but, again, for my 14th time or I think today I 
have not said Ukraine; I said Ukrainians, individual 
Ukrainians. So there is a difference. There is a United States 
and there is--you know, there are members of--there are 
Americans who may do something, but it is not the American 
Government. And I think this is the point that I have tried to 
make, you know, during the rest of this--you know, during the 
hearing today.
    Mrs. Lesko. Yeah. And, in fact, there was--I think it was 
op-eds guest columns written by Ukrainian officials that were 
against President Trump, if my memory serves me correctly.
    Not to belabor this too much, but I think it is important 
to get this all on the record. On page 4 of the Articles of 
Impeachment it claims that things were--he conditioned two 
official acts on public announcements that he had requested. 
Again, Mr. Collins, is there any proof of that?
    Mr. Collins. No, there is not. I mean, we went through this 
over and over. I mean--and, again, one of the questions that 
came up, is it going to box him in, box him in so he had a 
public stance on corruption. He just got elected, and like all 
of us--we have members, you know, that--you want to make sure 
that he is making the stance not only on what he ran on, but 
also he is going to actually do it, because if you actually do 
it, you know, say it, you can do it. This is, again, a concern 
about the corruption issue that we brought up before.
    Mrs. Lesko. And I would just, so I am not repeating myself, 
there was--over and over again in here, it says openly and 
corruptly urging and soliciting Ukraine to undertake 
investigations for his personal political benefit.
    As you noted, Chairman McGovern, I serve on the Judiciary 
Committee. I went over transcripts. I, you know, listened to as 
much live testimony as I could. I was rejected from actually 
going into the Mr. Schiff's room so that I could cross-examine 
witnesses, which was very disheartening and I think very 
unfair.
    But, again, there is no proof. There is no proof of this. 
It is like wishful thinking or something. It is like what you 
want. And as Mr. Collins said, in these--the Nadler report, I 
mean, it throws out all kinds of stuff. It talks about bribery, 
which isn't even in the Articles of Impeachment here, so 
obviously didn't have much proof on that. And you just keep 
throwing out these things.
    All right. Let's move to Article II, obstruction of 
Congress. Mr. Collins, can you kind of explain what the normal 
procedure or what has been done in the past when the 
legislative branch wants something from the executive branch?
    My understanding is they first pursue accommodations, like 
they talk with each other to see what they can come up with, 
and then if they run into a roadblock, then one of them goes to 
court and they get a ruling.
    Is that your understanding? And did the House Democrats 
pursue any accommodations? And if there was a roadblock, did 
they take the time to go to court or did they just move forward 
with Articles of Impeachment instead?
    Mr. Collins. Well, again, it is a whole year process, but 
if you just want to talk about the last couple months, whenever 
they would call a witness or the witness would not--you know, 
wouldn't come, in a couple of cases, the witness actually went 
to court to determine, you know, should they testify or not 
given their position. And the House majority withdrew from the 
suit. I mean, so they didn't want to continue that process in 
court.
    Historically--and look, if you take the majority's argument 
on face value that there is a time issue here, that there is an 
election issue that is a clear and present danger, as they have 
actually said many times, then you would want to avoid 
something that could drag this out further. I get that. But 
this is not historically the way this is done. It is not 
historically even investigations of impeachments have been 
done. Those took long, you know, several years, the Nixon, the 
Clinton. I mean, there were investigations for a long time into 
these things as we go along.
    Remember, though, we were tied up for the first half of the 
year in Mueller, and then we got out of Mueller in July, and we 
went basically straight into this, you know, right after it. So 
this has been the situation we are in.
    Mrs. Lesko. Thank you.
    Mr. Collins, I am now going to turn to the what I call the 
Nadler report, which was kind of dumped on us at, I think it 
was midnight last night, it was after midnight the night 
before, 658 pages, so I was frantically trying to read through 
it while I was in different committees.
    But, Mr. Collins, at the beginning of this it says--to me 
this was laughable, I have to admit. It says: From start to 
finish, the House conducted its inquiry with a commitment to 
transparency, efficiency, and fairness. The minority was 
present and able to participate at every stage.
    Boy, Mr. Collins, do you think that is true?
    Mr. Collins. Well, I think they are talking about what they 
witnessed and not what they did. You know, I think this is--the 
interesting part of this is getting it from our committee and 
being a rubber stamp for what somebody else did. Granted, I am 
not going to--and I have not denied that there was not 
witnesses that testified in the Intelligence Committee, and 
also that--and I never have not been one of the members who 
said that we didn't have our time. We had, you know--our 
members actually discussed, our counsels discussed that those 
were actually testimonial times.
    I did think it was really interesting that--and this I 
think shows sort of the craziness of this. And I think it was 
Mr. Perlmutter, but I am not sure, actually brought up Mr. 
Castor--Mr. Castor is a staff member--being our witness. And 
the only reason Mr. Castor was a witness is because Mr. Schiff 
wouldn't testify, because Mr. Nunes should have been sitting in 
that seat, and actually he was at the beginning of the hearing. 
He was behind Mr. Castor.
    So, I mean, I don't agree with it in any shape or form, but 
the discussion that you just read is viewing another committee, 
not our own, because once it got to us, as I found out today--
and I am hoping it was a misspeak, and I assume from my friend 
it probably was--that only 17 members that were called was the 
ones we could have actually called. I am going to assume that 
was a misspeak.
    But also, it is really interesting when you are dealing in 
such magnitude as an impeachment, that you actually allow the 
chairman of the committee or--on them by virtue of a majority 
vote determine their relevance when no idea and not even a 
question was determined could this provide exculpatory benefit 
or could it provide anything that would go further in this 
process, just simply say those witnesses are not relevant.
    And really I have never had to get a letter from Chairman 
Nadler about that because I could see the timing of--I have 
also been around this game long enough. You have to notice 
hearings. And the way we were noticing hearings, there was not 
enough time to notice the next hearing if you had to put in 
either a minority hearing day or you had to add witness day or 
the President--you just didn't have the time.
    Because when they started actually noticing hearings, 
sometimes, like I said, it is just a simple fact you can look 
that you are not going to get the witnesses. It didn't matter. 
I could have put anybody on there, and it wouldn't have 
mattered because they didn't have the time. They had already 
scheduled the hearings, you know, out when they got it back.
    So that is just a concern that just goes into the general 
concern I have about where do we go in this body in this House 
come January 1, because it is going to be long gone from us 
tomorrow. But where are we going to be on January 1 if we all 
have to get together, we all have to work together, we all have 
to look forward, and then who sits in these seats after this 
time happens? And that is just the general concern that a lot 
of us have.
    You will get what you--the majority will get what they 
want, and that is fine. But is that in the long term a benefit 
not only to what they are wanting to accomplish, but also to 
the long-term benefit of this body, I would have to say no.
    Mrs. Lesko. And thank you.
    Mr. Chairman, I am going to close with something that I 
have said before in Judiciary Committee, and at the risk of 
repeating it, it is, I guess, an oldie but a goody, in my 
opinion. And so it is actually Chairman Nadler's own words, and 
I want to repeat.
    So during an interview on MSNBC's Morning Joe on November 
26, 2018, so not that long ago, Chairman Nadler outlined a 
three-prong test that said would allow for a legitimate 
impeachment proceeding. Now, and I quote: ``There are really 
three questions, I think. First, has the President committed 
impeachable offenses?''
    I believe the answer is no and there has been no proof.
    ``Second, do these offenses rise to the gravity that is 
worth putting the country through the drama of impeachment?''
    Again, I would say no, because there has been no evidence 
of any crime committed or that no evidence put forward, they 
were not able to establish treason, bribery, or any high crimes 
or misdemeanors.
    ``And three, because you don't want to tear the country 
apart. You don't want half of the country to say to the other 
half for the next 30 years, we won the election and you stole 
it from us. You have to be able to think at the beginning of 
the impeachment process that the evidence is so clear of 
offenses so grave that once you have laid out all the evidence, 
a good fraction of the opposition voters will reluctantly admit 
to themselves they had to do it. Otherwise, you have a partisan 
impeachment, which will tear the country apart. If you meet 
those three tests, then I think you do the impeachment.''
    Well, in all three counts, I don't think Mr. Nadler has met 
his test, and especially in the last one, even if you contest 
the other ones, this has been a partisan impeachment. Not one 
Republican voted to move forward with House Resolution 660 to 
move forward with the inquiry. Not one Republican in Judiciary 
Committee voted for the Articles of Impeachment. I suspect not 
one Republican will vote to move this forward in Rules tonight. 
And I suspect that not one Republican will vote for these 
Articles of Impeachment on the floor of the United States House 
of Representatives.
    And, Mr. Chairman and members, this is tearing the country 
apart. And with that, I yield back.
    The Chairman. Thank you very much.
    I am kind of a stickler for details and accuracy in terms 
of some of the things that have been said here, because these 
hearings are going to be enshrined in our files and they will 
be there forever. But I want to go back to something the 
gentlewoman said about the votes on impeachment. I repeat, 
nobody, Democrat or Republican, has had an opportunity to vote 
on Articles of Impeachment. And contrary to what has been said, 
voting to not table doesn't mean you get an automatic vote on 
the impeachment.
    I will give you an example. On November 6, 2007, the House 
rejected a motion to table a Kucinich resolution to impeach 
Vice President Cheney, and then moved to adopt a motion to 
refer the resolution to the Judiciary Committee. And that is 
what most of us had in mind.
    So I can't say everybody, but I can say that it is just 
inaccurate to say that people would have automatically voted 
for impeachment or that voting not to table would mean a vote--
an automatic vote on impeachment. I just think it is important 
for the record to be clear.
    And having said that, it has nothing, absolutely nothing to 
do with what we are talking about here today. And I appreciate 
the fact that the gentlewoman is not fazed by the overwhelming 
evidence about the President's behavior, but some of us 
genuinely are, and many of our constituents are. And I think 
that is what compels us to be here today.
    And with that, I want to yield to the----
    Mrs. Torres. Mr. Chairman, my name was invoked, and I would 
like to say something.
    The Chairman. All right. Mrs. Torres.
    Mrs. Torres. Yes. So in reference to the squad, I am not 
sure why Members and the President continue to pick on them the 
way they do. Not that I need to defend any of them, because I 
think they do a great job defending themselves, but I believe 
that the tweet that caused that resolution from the President 
of the United States actually states, ``Go back to the 
countries where you came from,'' referring to American citizen 
Members of Congress. If that is not despicable racism that will 
continue to be tolerated by some Members of our Caucus, I don't 
know what it is.
    And I yield back.
    The Chairman. And I appreciate that. I think the concern 
many of us have is the bar has been so lowered that we are 
justifying and defending the indefensible.
    Ms. Scanlon.
    Ms. Scanlon. Thank you.
    Mr. Raskin, I saw you sitting up in your seat over a couple 
questions, so I just wanted to ask if you would care to comment 
on the question about whether the conduct alleged in the 
articles is not just a constitutional crime but also a 
statutory crime that could be criminally prosecuted?
    Mr. Raskin. Well, yes, of course. And, you know, there are 
a whole series of crimes in the middle of the Venn diagram 
which are both high crimes and misdemeanors and also possibly 
statutory crimes. But it has never been the understanding of 
any Congress, whether it was the Congress--the House of 
Representatives that impeached Bill Clinton or the House of 
Representatives that brought articles against Richard Nixon or 
back to Andrew Johnson that you need first to prove a statutory 
offense before the House gets to move Articles of Impeachment.
    And you can understand how nonsensical that is because it 
is impossible to square with the other argument we have heard 
so long from our colleagues, which is that the Department of 
Justice may not under any circumstances prosecute, try, or 
convict a President while he is in office.
    Whatever the merits of that proposition--and I do think 
they deserve greater scrutiny. Whatever the merits of them, how 
can you say the President cannot be prosecuted under any 
circumstances because he can be impeached? It is only Congress 
can impeach him, and then when there is an impeachment 
investigation, then it is being said you must first prove that 
he has committed a crime.
    I mean, it just doesn't make any sense. It is a game of 
Three-card Monte. All of it essentially supports the 
President's own claim that he is basically above the law. I 
mean, he said that under the Constitution he can do whatever he 
wants. And so I think that all of us should be aware for all 
time of making arguments that put the President in a different 
kind of box, a box that is above the Constitution and above the 
people. That is going to be really dangerous for us.
    Ms. Scanlon. Okay. I also wondered if you could address the 
fact, it has struck me that with respect to this call to the 
President of the Ukraine that occurred on July 25, that we 
didn't hear any rationale, no witnesses testified that there 
was any legitimate national security or any rationale for that 
call until after the whistleblower blew the whistle on that 
call. So there were no contemporaneous conversations. Could you 
address that point?
    Mr. Raskin. Well, Ms. Scanlon, you are absolutely right. 
All of these are after-the-fact concoctions and 
rationalizations that don't square with any of the evidence 
that we have on the record. And when I say evidence, I am 
talking about the evidence that has actually been submitted to 
Congress through people's sworn testimony. I am not talking 
about the kind of stuff that people just put on social media or 
a tweet. I am talking about real evidence.
    So what do we know? Well, if the President was concerned 
about continuing corruption in Ukraine, why did he cut 
anticorruption funding to Ukraine in half? If he was concerned 
about fighting corruption in Ukraine, why did he recall the 
U.S. Ambassador to Ukraine who was the lead champion of the 
anticorruption effort there? And why did he recall her under 
circumstances where she was under attack by people who were 
working with the retrograde corrupt forces in Ukraine as part 
of this smear campaign? That is a really serious problem when 
you think about it.
    In any event, Congress passed the aid to go to the reformer 
President, the anticorruption President, President Zelensky. We 
attached stringent anticorruption criteria, which were 
satisfied according to President Trump's own Department of 
Defense, according to President Trump's own Department of 
State.
    The money was on its way, and then he held it up because 
everyone knows why he held it up. He held it up because he 
wanted these statements, these announcements from President 
Zelensky that had to do with Joe Biden and trying to overthrow 
our intelligence community's understanding that it was Russia 
that interfered in our Presidential campaign in 2016, instead 
replacing Ukraine.
    Well, that, again, is nonsensical. But none of that appears 
on the record anywhere. We asked lots of witnesses. They also 
said, for example, oh, the President was concerned about burden 
sharing. Actually, the European countries, the EU member 
countries had given billions of dollars to Ukraine.
    Mr. Hastings [presiding]. $12 billion.
    Mr. Raskin. $12 billion to Ukraine. How insulting is that 
for us to go around saying as a way to justify our President's 
behavior, oh, they weren't doing enough for Ukraine? The EU 
member countries put up $12 billion, and I am proud of the more 
than billion dollars that we put in over the last few years, 
but that is not as much as the EU member countries collectively 
put in.
    So we would rather pick a fight with our own democratic 
allies and say they are not doing enough, even though 
Ambassador Sondland himself testified, the President's own 
Ambassador testified when we asked him, did the President ever 
say to you, go to the EU member countries and tell them they 
need to increase their funding? No, never happened. There is no 
record of the President doing anything to try to get them to 
put more money in.
    It is an after-the-fact rationalization. It is a pretext. 
And it is beneath the dignity of this body for us to keep 
spreading this as some kind of plausible rationale for the 
President's behavior. If you don't think it is a big deal for 
the President of the United States to shake down foreign 
governments and pressure them to get involved in our campaigns, 
just tell us so, but don't make up all of these other fairy-
tale explanations for what was going on.
    Ms. Scanlon. Okay. And contrary to these after-the-fact 
rationalizations, in fact, we have contemporaneous witnesses, 
like Ambassador Sondland and others, who said, no, it was clear 
that what was important to the President was getting this 
personal political favor.
    Mr. Raskin. I mean, the President himself said when asked 
in public what would he have the Ukrainians do, he basically 
said the same thing, just like his Chief of Staff admitted it, 
this stuff is happening in plain sight. Let's stop playing 
pretend. We have got a very heavy decision to make about what 
to do with a President who enlists and recruits foreign 
governments to get involved in our elections.
    Is that what democracy is going to be like for the rest of 
the 21st century? Is that what it is going to be like for our 
children and our grandchildren and our great grandchildren? We 
have got to decide that.
    You know, Dr. Fiona Hill in her testimony said Russia can't 
beat us militarily. Russia can't beat us economically. But they 
have got a strategy that involves the internet and intervention 
in elections around the world. She said she thinks of Russia as 
the world's largest Super-PAC, right. And are we going to be 
allowing the President of the United States to be working with 
Vladimir Putin's Super-PAC for the tyrants and the despots and 
the people who are trying to interfere with the growth and the 
spread of democracy around the world? I hope not.
    Ms. Scanlon. Okay. Well, I wanted to spend a couple minutes 
just looking at the real fundamental question here before us, 
which is, should these Articles of Impeachment move forward. 
And, Mr. Collins, I understand from the dissenting views from 
the minority that you think it is too vague to charge with 
abuse of power here. And I also understand that you accept that 
abuse of power can form the basis for an impeachment, correct?
    Mr. Collins. Yes.
    Ms. Scanlon. But as I understand it, the objection is that 
you need more concrete facts. So I would like to just explore 
for a minute what concrete facts could get you, if any, could 
get you over that bar. So if a President were to send our 
troops to war in exchange for a personal cash payment, that 
would be impeachable, wouldn't it?
    Mr. Collins. I think where we are going to go down a road 
here of hypotheticals that, frankly, I am just not going to 
play with. And, I mean, there will be things that you and I 
could both----
    Ms. Scanlon. Okay. Then reclaiming my time.
    Mr. Collins. That is fine.
    Ms. Scanlon. Mr. Raskin, in fact, that was a hypothetical 
that the Framers of the Constitution looked at, wasn't it?
    Mr. Raskin. Would you mind repeating it? My daughter sent 
me a text.
    Ms. Scanlon. Sure. That the executive can't interfere with 
that. When the Framers were looking at what kinds of offenses 
should be impeachable, didn't they look to the example of an 
executive who was being paid off by a foreign country?
    Mr. Raskin. Oh, absolutely. I mean, you know, first of all, 
all four witnesses, the three called by the majority and 
Professor Turley from GW, who was the minority witness, all of 
them said that abuse of power is an impeachable offense. In 
other words, we had unanimous agreement among our academic 
scholars that abuse of power is an impeachable offense. There 
is nothing vague or nebulous about it. Abuse of power meant 
something to the Framers.
    Now, we have got to wrestle with the facts. That is our 
job. But they all said that. And when they canvassed all of the 
records of the constitutional convention and the ratifying 
conventions and the Federalist Papers--and everybody can 
retrace their steps themselves, and I encourage you to do it 
because we have got to use this episode as a civics lesson for 
America.
    And when you retrace it, you will find that there were 
three kind of things on their mind: One was a President who 
tries to corrupt our elections; two was a President who makes 
deals with foreign powers in order to alter the course of our 
political destiny, in other words, taking choice away from we 
the people and giving it to foreign despots and spies and, you 
know, people who would not have our best interest at heart 
basically; and the third thing was the President elevating his 
own personal, financial, and political interests over the 
common good.
    And, you know, I really want to emphasize that point 
because the Framers wanted the President of the United States 
to have complete and undivided loyalty to the American people 
and not foreign powers and not his or her own financial plans 
and certainly not elevating his or her own electoral ambitions 
over the rule of law such that he or she would be willing to 
corrupt elections just to get reelected.
    And, you know, George Mason famously asked, you know, is 
there anybody who really should be above justice, and 
especially the person who himself has the more means of 
injustice. And so we have more to fear from the President 
because of his awesome powers. How can we say then that he 
should be beyond the reach of the law?
    Ms. Scanlon. Well, that is one of the things I found really 
interesting as we have gone through this, listened to the 
experts.
    I did want to ask unanimous consent, and I am not sure 
which letter Mr. Perlmutter introduced before, but we do have a 
letter now that has 500 legal scholars who signed on saying 
that there is grounds for impeachment in our current fact 
situation.
    Mr. Hastings. Without objection.
    Ms. Scanlon. And over 700 historians who have signed a 
separate letter.
    Mr. Hastings. Without objection.
    Ms. Scanlon. So I am not sure which one.
    Voice. We will introduce them twice.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Ms. Scanlon. Okay. But so I wanted to explore a little bit, 
and I am sorry if Mr. Collins doesn't want to do this, perhaps 
he would consider another question, because I am trying to 
find, you know, do we have any common ground here with respect 
to what might be impeachable.
    So if the President ordered the government to withhold 
payment from a contractor building his wall on the southern 
border unless the contractor paid the President $1 million, 
would that be an impeachable abuse of power?
    Mr. Collins. With all due respect to the gentlelady who is 
very talented in law, if we want to talk about the issue at 
hand, I will be happy to. But I think we are way past the point 
here at Rules Committee to determine--because we have already 
issued the Articles of Impeachment. And I think--and in all due 
respect, we are just getting it to the floor. And I will 
discuss, as I have, the facts of this case, which I disagree 
with and we both disagree, and I respect that greatly. I 
don't--I am not going to just chase a what is impeachable 
offense. I wish the majority had done that a long time ago. So, 
you know, but I am not----
    Ms. Scanlon. Okay. Reclaiming my time.
    Mr. Collins. Appreciate it. You can go back to it.
    Ms. Scanlon. I think, you know, the minority's report says 
that you don't think the abuse of power allegation here is 
concrete enough, so I am trying to figure out what, if 
anything, you might think is concrete. How about if the facts 
showed that the President had ordered a government--ordered our 
government to withhold foreign aid to Israel unless the Prime 
Minister of Israel paid off our President, would that be 
enough?
    Mr. Collins. The gentlelady is very good, but I will also 
continue to say, if the gentlelady--my report is specific to 
this action, and the gentlelady is laying out a hypothetical 
and laying out a theoretical, which is fine, but I just--with 
all due respect, I am just not going to participate in it.
    Ms. Scanlon. All right. Then would the gentleman agree that 
if the President abused his office by--if we could agree that 
the President had sought this favor for personal political 
reasons rather than one of these after-the-fact explanations 
that he has offered, would that be impeachable, if we agreed 
upon the intent?
    Mr. Collins. Look, again, this is sort of the last run 
around this, if you alleged crimes, if you alleged actual 
things than abuse of power, instead of saying an amorphous 
abuse of power, which is what we list in our report, instead of 
going to that--none of those specific charges were listed in 
your abuse of power, but yet you have propagated your report 
with all these other things.
    There are ways that you can build it, and the gentlelady 
knows my answer is, is can there be an abuse of power, yes, and 
I have never not denied that. But what I am not going to do 
tonight, because I do not find it convincing or relative to 
this hearing of getting--or rule to put this on the floor 
tomorrow is what our report actually says. Is there abuse of 
power element? Yes, you can go back to the Nixon impeachment. 
There were abuse of power. Those are things that you can look 
at.
    In this highlight here, and Mr. Raskin, I am sure, can 
discuss this at length in his discussion, I will go back to 
what I find here is not an abuse of power. I have said this 
clearly on many occasions. And to engage in hypotheticals to 
make this abuse of power look better, I am just not going to 
do. And I appreciate the gentlelady.
    Ms. Scanlon. Mr. Raskin, you had something?
    Mr. Raskin. Yes. President Nixon was charged in the abuse 
of power article with conducting a break-in of his political 
opponent's campaign headquarters. President Trump is 
essentially being charged with conducting a break-in of 
American democracy in order to harm his political opponent. The 
two crimes are quite analogous.
    Now, one has the additional factors you just pointed out, 
Ms. Scanlon, of dragging a foreign government into the 
equation, which was something extra that the Framers feared 
greatly. But both of these are abuses of power. The House of 
Representatives didn't say, oh, you have got to demonstrate 
that he has been convicted of burglary in the District of 
Columbia or conspiracy to commit burglary before you take it up 
as abuse of power, right.
    And so it is true that our abuse of power claim has some 
overlapping elements with bribery, as we have discussed 
thoroughly, in the report with on its surface is fraud against 
the people, perhaps extortion, and perhaps many other crimes. 
And all of those things can be prosecuted under the 
Constitution later, but that doesn't absolve us of our 
constitutional responsibility to prevent high crimes and 
misdemeanors against the American people in the meantime.
    Mr. Collins. Would the gentlelady----
    Ms. Scanlon. I guess one last try, Mr. Collins. Let me 
just----
    Mr. Collins. I have something I was going to say. So that 
is fine.
    Ms. Scanlon. I am just curious. I mean, we have the 
precedent of President Nixon who was accused of abuse of power 
because he ordered the FBI to investigate his political 
opponents to get dirt on them. Do you think that was 
impeachable?
    Mr. Collins. Again, I will comment on the phone call of 
this year, and also I will talk about what Mr. Turley said. And 
what he said, he said, facts must be clear, convincing and 
comprehensive. This record is contested. And the Democrat--and 
the majority has not accepted exculpatory evidence here.
    So I think when you look at it from our perspective, that 
is what we laid out in our report, and it goes back to the fact 
that I inherently will sit here with the facts in dispute, do 
not believe it is the abuse of power based on this phone call--
--
    Ms. Scanlon. And, Mr. Collins, I am just trying to find out 
what, if anything, you would consider impeachable, because we 
haven't seen that yet. I mean, you won't even concede what was 
precedent from the Nixon situation, and here we have a 
situation, I am asking if the facts were to show that the 
President withheld foreign aid to another country in order to 
get a personal political favor not for matters of national 
security, would that be impeachable? And you don't seem able to 
answer that question.
    Mr. Collins. I seem very capable of answering that. I am 
just not going to follow your path on what you are wanting me 
to lead, because at the same point in time----
    Ms. Scanlon. Well, I understand.
    Mr. Collins [continuing]. I have got to--you and I both 
have to vote on words on paper, and words on paper tomorrow is 
this case. It is not the hypothetical of it, because I don't 
believe you have made this case, and that is why I am pushing 
back on it and will continue very politely to push back on 
this. I am just not going to go down this road because you have 
not made your case. Now, you can convince yourself and others 
that you can----
    Ms. Scanlon. Well, with all due respect, Mr. Collins----
    Mr. Collins [continuing]. But that is my minority vote.
    Ms. Scanlon [continuing]. The House is not the finder of 
fact. The trial is for the Senate. Right here we are talking 
about whether there is enough evidence to make out the case. I 
believe that there is.
    Mr. Collins. And I disagree. There is not.
    Ms. Scanlon. Fine.
    I guess one other thing I wanted to just push back on is 
this idea that somehow this impeachment process is some kind of 
radical left plot of some sort. I do have to thank our 
colleagues on the other side for giving my children a good 
laugh that their, you know, soccer mom carpool driving PTA 
running the apple festival at the Methodist church mom is some 
kind of radical.
    But I did want to make clear for the record that the only 
radical view I am embracing here is the idea that we the people 
should be governed by a constitution that divides powers 
between three coequal branches and establishes checks and 
balances on the President.
    And despite the rhetoric that somehow this is a completely 
partisan exercise, my faith in these core constitutional 
principles is I believe it is still a shared American value 
that unites Democrats, Independents, Conservatives, 
Libertarians. I think there is a growing consensus even among 
Republicans who speak off the record or are not dependent on 
the President for continuation in their job.
    And I would just like to point to a couple examples. This 
weekend, Tom Ridge, the former Republican governor of my home 
State, Commonwealth of Pennsylvania, the first Homeland 
Secretary of the United States, Member of Congress, Vietnam vet 
said that he believed the President's conduct here was an abuse 
of power to ask a foreign leader for a political favor.
    Our former colleague, Mr. Dent, also from Pennsylvania, 
said he has spoken with Republicans who are absolutely 
disgusted and exhausted by the President's behavior.
    Another former Republican colleague of ours, David Jolly, 
said we have witnessed an impeachable moment.
    Former Republican Congressman Reid Ribble of Wisconsin said 
recently, clearly there was some type of quid pro quo. And when 
asked if he believes the testimony presented warrants 
impeachment, he said, I do.
    Former South Carolina Republican Congressman Bob Inglis, 
who served on the Judiciary Committee during the Clinton 
impeachment, said last month, without a doubt, if Barack Obama 
had done the things revealed in the testimony in the current 
inquiry, we Republicans would have impeached him.
    And while I am hesitant, I don't want my colleagues to have 
a stroke, Joe Scarborough, who is a former Republican 
Congressman from Florida, said, every Republican knows that 
Donald Trump was asking for dirt on Joe Biden in exchange for 
releasing the military funds.
    These are just a few of the folks who have come out here 
and----
    Mr. Hastings. Ms. Scanlon, would you yield just one moment 
so I can add one?
    Ms. Scanlon. Certainly.
    Mr. Hastings. William Webster, the only person that has 
been the FBI Director and CIA Director, said the same thing.
    Ms. Scanlon. Okay.
    Mr. Hastings. At age 95.
    Ms. Scanlon. At age 95. Okay.
    And with that, I would yield back.
    Mr. Raskin, did you have anything further?
    Mr. Raskin. I just want to say, nothing strikes me as more 
conservative than wanting to conserve the Constitution and the 
Bill of Rights and the political order that has been bequeathed 
to us by the Framers and the Founders.
    And the conservative tradition is a great tradition in 
America, like the liberal tradition. And the heart of the word 
``liberal'' is liberty. And liberals have every reason to stand 
up for the Constitution now. Just like progressives, people who 
look for progress, they have every reason to rally around the 
Constitution.
    We are not one political party. We are not one political 
belief system or ideology. We are not one race or ethnicity. 
But we have got one Constitution in our country. We have got to 
cling really closely to our Constitution through this period.
    And I know that doesn't mean we are all going to agree in 
the end, but I think that if we are all constitutional patriots 
we are going to be able to see our way through a very dark 
moment in American history.
    Mr. Collins. Could I comment on that? If not, you need to 
give back, that is fine. I understand.
    Ms. Scanlon. That is fine.
    Mr. Collins. Okay. All of these that you just mentioned, 
the Republicans you just mentioned--Tom Ridge is a great guy. 
In fact, the last time I saw him was a few months ago when he 
awarded Hakeem and I the Civility Award from Allegheny College. 
He is a good guy. There is just one difference in all of these: 
They don't wear pins currently in this Congress. They are not 
voting on these articles.
    And I would have to assume----
    Ms. Scanlon. And I believe I mentioned that.
    Mr. Collins. And I would have to assume in my position that 
if they did, then we can always disagree. But they are not. And 
I think the only thing is, is from a constitutional 
perspective--and I appreciate it.
    And again, I would say this. I am looking at facts. You are 
looking at facts. We disagree. And I think at the end of the 
day, that is the way it has got to be. And I didn't mean to 
prolong that. And from that perspective, I think it is not--I 
don't fight less for the Constitution than Mr. Raskin here. I 
will never back up on that argument. He can fight and say he is 
fighting for it. I am going to fight and say I am fighting for 
it. And that is my case then to my voters and the American 
people.
    To frame this in, you know, anything else is just simply to 
say, look, here are the facts, let's deal with the facts, and 
let's vote on it tomorrow, and we will go from there.
    I yield back. Thank you.
    Mr. Raskin. If I could add one thing to I think a fine 
statement by Mr. Collins. But for those out there who don't 
know Capitol Hill lingo, wearing a pin means--I thought I had--
there is my pin. You have got to wear a pin in order to get 
into the buildings, because there are so many of us. There are 
435, so they don't recognize. Some of us are famous here. Mr. 
Collins is famous, they will let him in. But, you know, the 
rest of us, we have to wear our pins in order to get in.
    But I do want to push back against the idea that this 
conversation is only for people wearing pins. And I think 
America has got to think about this in a really profound way.
    The Framers of the Constitution were trying to decide 
whether impeachment should be located in the Supreme Court and 
treated as a matter of law and legal induction or whether it 
should be with Congress and the people's Representatives. And 
they thought it was so important and so fundamental that it had 
to be with the people.
    Now, they know we are politicians. They know we have got 
other stuff going on. We are fighting, you know, in our caucus 
to lower prescription drug prices and we are fighting for the 
Equality Act and we want to pass the universal criminal mental 
background check. My colleagues have an agenda; we have got an 
agenda. We have got to deal with all of that and also think 
about impeachment. And what else do Representatives have to do? 
We have got to interact with our constituents.
    So when people say to me, oh, well, you know, you don't 
want to talk to the public about it, you just want to go 
decide--I don't think that is right. I think this is a national 
dialogue that we are engaged in here. It is about the destiny, 
the future of our whole country, our whole form of government.
    So I am glad that you raised this. I am glad that I hear 
from conservatives all the time on our side. I am sure that 
there are some liberals who are on the other side. I think that 
is the way that it should be. I think we have got to not be 
bound just by what these labels, certainly these partisan 
labels are all about.
    You know, our greatest political leaders have understood 
that we are in partisan competition in the election. Like 
Thomas Jefferson, he was a real brawler when it came to 
elections. He was savvy; he was smart. But when he got elected 
in 1800 and he gave that inaugural speech, he said we were all 
Republicans, we are all Federalists.
    And George Washington reminded people always that the word 
``party'' comes from the French word ``parti,'' a part. Our 
party is just part of the whole.
    When we get into office we have to try to look out for the 
whole, not just for our part. Barack Obama said this is not the 
red States of America or the blue states of America. This is 
the United States of America.
    So when we get elected, we have to try to think about the 
good of everyone. And I know that everybody in this room comes 
in that spirit and is trying to speak to the whole country and 
not just to a narrow base.
    Ms. Scanlon. Thank you, Mr. Raskin. I can never match you 
on the historical references, but I do want to close by noting 
Franklin's response to a constituent when he and his fellow 
Framers came out of Independence Hall in Philadelphia and they 
were asked what kind of a government they had produced, and he 
said, ``A republic, if you can keep it.''
    So I think your emphasis on people needing to look at the 
evidence themselves, actually read the transcript, you know, 
come to this and engage with it as citizens.
    So thank you, and I yield back.
    Mr. Hastings. Thank you very much.
    Mr. Morelle, you only have an hour and 45 minutes.
    Mr. Morelle. And I will use it wisely. I promise.
    Thank you, Mr. Hastings.
    I want to thank both Mr. Raskin and Mr. Collins for 
enduring a long day and for all of the hard work that you have 
put in.
    Just some observations and then a few questions, if I 
might.
    When America's Founders gathered for the Second 
Constitutional Convention more than 230 years ago they laid 
down not just laws and procedures, but the core principles and 
values that would guide this young Nation.
    At that time George Washington asked whether we are to have 
a government of respectability under which life, liberty, and 
prosperity are secured to us or whether we are to submit to 
one, which may be the result of chance or the moment springing 
perhaps by some aspiring demagogue who will not consult the 
interests of his country so much as his own ambitious views.
    The Founders did not take lightly the matter of 
impeachment, as has been described. The journals of James 
Madison, for instance, detail a solemn and thoughtful debate 
among the Framers over the power to remove a President and the 
conditions that would warrant such a decision. It was to be 
reserved only for treason, bribery--and although those were 
narrow, they added high crimes and misdemeanors, meaning not 
just serious crimes against an individual, but it borrows from 
14th century English law those crimes instead committed against 
the State itself, or in this case, the very Nation a President 
is sworn to protect.
    And our Founders feared two things, and you touched upon 
this earlier, Mr. Raskin, but two things above all others: the 
overreach of executive branch powers by what they called the 
chief magistrate, or the President, and the interference of 
foreign powers--at the time Great Britain and France most came 
to mind--but the interference of foreign powers in our domestic 
affairs. And both, they feared, would undermine the foundations 
of our democracy.
    In fact, those fears had given rise to the very revolution 
which the American colonies sought independence from in the 
first place. And those fears have been realize, in my view, in 
the actions of the President, exactly why impeachment exists at 
all.
    And last time this committee gathered on the subject of the 
inquiry, I spoke of my hopes that the public phase of this 
process would bring answers for the American people on those 
allegations. And since that time, more than a month ago, we 
have heard--and members of the Judiciary Committee, we thank 
you, and members of the Intelligence Committee--because we have 
heard publicly from many key witnesses that have illuminated 
the alarming pattern of behavior the President has engaged in.
    And these witnesses are not partisan actors but career 
diplomats, experienced intelligence officers, and dedicated 
public servants.
    And I have to say parenthetically, one of the proudest 
things for me was to observe those people testifying and 
giving, as people dedicated to the country, patriots, who spoke 
out not as partisans but as people who love this country.
    Lieutenant Colonel Alexander Vindman described the 
unprecedented subversion of America's national interest in a 
strong Ukraine, in favor of a wholly personal interest of 
President Trump.
    Dr. Hill testified to the back channels outside of our 
usual national security and diplomatic policy that sought to 
exchange a White House meeting for investigations pursued by 
the President.
    Ambassador Sondland, closely involved in the campaign to 
pressure Ukraine at the behest of the President, declared in no 
uncertain terms that this was a clear quid pro quo.
    These and other brave Americans gave testimony, not as 
partisan Democrats, but experts in their field, underscoring 
that this process has not been one of politics but one of duty. 
We have remained committed to a fair and open process, with the 
only goals of discovering the truth and protecting the American 
public--which is why I am so troubled that members of the Trump 
administration have repeatedly refused to testify in hearings 
and provide transparency, to make their argument to the public.
    Despite this, we now have a clear picture of what occurred 
between the President of the United States and the Government 
of Ukraine.
    Regrettably, sadly, I am convinced President Trump has 
abused the powers of his public office, leveraged a foreign 
government for political benefit, and obstructed necessary 
congressional oversight of his conduct.
    In the end it comes down, I think as you just mentioned, 
Mr. Raskin, to one simple question posed by George Mason two 
centuries ago: Shall any man be above justice? The answer, of 
course, must unequivocally be no.
    This is a profound moment in our Nation's history. It is 
not just a responsibility but our somber obligation to protect 
the Republic and uphold the very tenets it was founded upon, 
and that is why we must uphold our constitutional duty to 
justice by taking up these articles of impeachment.
    And I hope those on both sides of the aisle can see that we 
are at a crossroads, and the future of our country hinges on 
decisions like the ones we make today. We cannot abdicate our 
responsibility to our constituents, to our country, by choosing 
to ignore the grave and, in my view, unlawful actions of the 
President and threaten to unravel centuries of progress.
    I am blessed, as many of us are, with three beautiful 
grandchildren and a fourth on the way. And when I talk to them 
about right and wrong, I want to be able to look them in the 
eye and tell them I have always done my best to uphold what is 
good, what is just, and what is fair.
    And today that means casting a vote to hold accountable a 
President, the highest office in the land, but a President who 
has blatantly and egregiously abused his office, jeopardized 
our national security, and put his own political favor ahead of 
our national interests. And for the sake of our children, our 
grandchildren, and all of us, I urge my colleagues to do the 
same.
    And with that, I would like to, if I may, just pose a few 
questions. And part of it involves admittedly around the 
unclassified transcripts of the phone call.
    The argument being made by the President and his 
administration in arguing that the call of July 25 was intended 
to deal with widespread corruption in the Ukraine, that is, as 
I understand, the argument. Is that correct, Mr. Raskin? Do you 
see it the same way, Mr. Raskin?
    Mr. Raskin. Forgive me. Whose argument?
    Mr. Morelle. The argument by the President and the White 
House is that their arguments and pushback was to combat 
general corruption----
    Mr. Raskin. Yes.
    Mr. Morelle [continuing]. Although it is not in any way 
described in the actual transcript. But that is the argument 
now being articulated?
    Mr. Raskin. It is impossible for me to take it seriously, 
given that I have researched all of the circumstances and the 
context. But I think that there is at least some halfhearted 
effort to stick with that story.
    Mr. Morelle. And what is interesting when you read the 
transcript, Mr. Lutsenko was the prosecutor who I believe Trump 
was referring to in the phone call when he said to President 
Zelensky: I heard you had a prosecutor who was very good and he 
was shut down and that is really unfair. A lot of people are 
talking about that, the way they shut him down, a very good 
prosecutor down, and you had some very bad people involved.
    That is Mr. Lutsenko that he is referring to, isn't it?
    Mr. Raskin. Yes, it is.
    Mr. Collins. No, it is not. No, it is not. It is Shokin.
    Mr. Morelle. Well, that is not----
    Mr. Collins. It is Mr. Shokin.
    Mr. Raskin. Oh, it is not entirely clear then.
    Mr. Morelle. It is not clear then, because that is not who 
is--it is not mentioned at all. But the--Mr. Lutsenko--Lutsenko 
is generally viewed to be corrupt himself. And that was part of 
what had happened with President Zelensky, was the removal of 
Lutsenko and other prosecutors deemed to be corrupt by the 
world community. Is that not correct?
    Mr. Raskin. That is correct. But there was a history of 
corruption going back, and Zelensky was elected as a reformer. 
So yes.
    Mr. Morelle. And, in fact, during the call, it does seem to 
me that--I don't want to say that the two Presidents were 
talking past one another. But on the one hand, President Trump 
seemed to be arguing for retaining the prosecutors who had been 
deemed by the world community generally to be corrupt and to be 
pro-Russian, and yet President Zelensky is talking about 
bringing in new and capable people.
    Is that not how I read the transcript? Or should I not read 
it that way?
    Mr. Raskin. I am sorry. That who is talking? That 
Zelensky----
    Mr. Morelle. They are talking past each other. The 
President----
    Mr. Raskin. Yes.
    Mr. Morelle. President Trump is essentially arguing for the 
status quo, the prosecutors who have been deemed to be--is 
that----
    Mr. Raskin. Well, the way--yes, the way I read it is that 
President Zelensky is walking a tightrope.
    Mr. Morelle. Correct.
    Mr. Raskin. He is elected as a reformer, he has taken on 
the corrupt forces in his society, but he is being presented 
essentially with yet another corrupt scheme.
    I mean, that is what is so heartbreaking about this, as 
described to us by Dr. Fiona Hill and Ambassador Yovanovitch. 
This was a moment where Ukraine was trying to move forward from 
all of the corruption, and as I think it was George Kent who 
said, we try to teach the other countries of the world not to 
engage in politically based prosecutions, not to have a 
situation where someone gets into office and then decides to 
prosecute their opponents or go after someone who is considered 
a political threat to the President. And here we were, the most 
powerful country in the world, which Ukraine was depending on, 
and we were essentially imposing that scenario on them.
    Mr. Morelle. Yeah. And I do note that despite suggestions 
to the contrary, the only real references to this are Biden. 
And, as it says at one point, the President says: I would like 
you to find out what happened with this whole situation. They 
say CrowdStrike. I guess you have one of your wealthy people, 
the server, they say Ukraine has it, a lot of things that went 
on.
    Unfortunately, it is somewhat unintelligible--intelligent--
intelligible to understand exactly what he is talking about. 
But at no point is there a suggestion that he is talking 
broadly about corruption.
    I want to just focus, if I can, in just a few minutes, on 
the role of Rudy Giuliani in all of this, obviously, well known 
to New Yorkers. And I note that Ambassador Taylor, I think in 
his testimony, said that he had suspicions before even taking 
the job and said, in part, can anyone hope to succeed with the 
Giuliani-Biden issue swirling?
    What was your sense of what he meant by that in his 
testimony?
    Mr. Raskin. What--when you say----
    Mr. Morelle. Sure. Ambassador Taylor said that he had 
suspicions before taking this job. And he said: Can anyone hope 
to succeed with the Giuliani-Biden issue swirling? Did he 
expand further upon that, and can you share with us?
    Mr. Raskin. Well, the general concern was that no one knew 
quite in what capacity Rudy Giuliani was operating. I think 
that that is a dilemma and a confusion that persists to this 
very day. Sometimes he is acting as a businessman for himself; 
sometimes he is acting as the President's personal lawyer; 
sometimes he is acting as lawyers for other people; sometimes 
he is acting on errands from foreign governments or he is doing 
work with foreign governments.
    There is an interesting analyst of corruption today named 
Sarah Chayes, who has written a lot about corruption in 
Afghanistan, where she lived, and she said you have got to 
understand corruption today crosses different domains. So some 
of it is in the government sector; some of it is in the private 
corporate sector; some of it is in the underworld; and then you 
get certain players who cross all of these boundaries and unify 
them in different ways.
    So I think that people understood that Rudy Giuliani had 
the ear of the President, he seemed to be authorized or 
empowered by the President to go on this domestic political 
errand and try to make this happen, and he clearly had entree 
into the highest levels of the U.S. Government and seemed to be 
working with a lot of the government officials who were 
involved there. That is why President Trump kept telling 
people: Go talk to Rudy, talk to Rudy.
    Mr. Morelle. So did you hear in committee any evidence or 
uncover any evidence in the hearings that the White House 
lacked confidence in the State Department, the diplomatic 
corps, or the Department of Justice to communicate with Ukraine 
the need for a broad attack against corruption generally?
    Mr. Raskin. I am sorry. I missed the beginning of your 
question. Did we----
    Mr. Morelle. Did you uncover any evidence or hear any 
testimony that suggests the White House lacked confidence in 
the State Department or the Department of Justice or the 
diplomatic corps to communicate effectively with Ukraine the 
President's desire to wipe out corruption generally?
    Mr. Raskin. Well, there is an unstated premise there, which 
is that the President had a general interest in fighting 
corruption in Ukraine. And we saw little or no evidence of that 
at all.
    Remember, there had been hundreds of millions of dollars 
that had flowed to Ukraine under the prior corrupt President 
without a peep being mentioned about it. And it was during 
Zelensky's rise where the President got interested. But that 
didn't even have anything to do with Zelensky. It was because 
Joe Biden was running for President, and he was looking for a 
hook to go after Joe Biden. And this was the plan that he 
decided on, and he was monomaniacal and single-minded about the 
whole thing, and brought a lot of people together to try to 
make that happen.
    Mr. Morelle. Right. So if you take the President at his 
word, which I am trying to give him every opportunity to make a 
case, you would have to make--come to the conclusion that 
somehow he lacked confidence in the Department of Justice or 
the State Department or normal diplomatic channels. Otherwise, 
why would he turn to Rudy Giuliani----
    Mr. Raskin. Well, that is a great point.
    Mr. Morelle [continuing]. Of all people, to conduct this 
investigation?
    Mr. Raskin. It is a great point.
    Attorney General Barr himself released a statement saying 
that President Trump had never contacted him with any evidence 
about the Bidens that he wanted to be investigated and never 
asked him to use the formal diplomatic channels to connect with 
the law enforcement authorities in Ukraine.
    You know, there are real crimes that are being committed by 
Americans around the world. Americans are involved in 
conspiracies with different people.
    We actually have a way of working on this problem between 
governments. The President, who would have better access to the 
Department of Justice than anybody else in the country, never 
contacted the Department of Justice about getting in touch with 
Ukraine about any corruption that he knew about. He didn't turn 
over any evidence. He didn't suggest any clues. None of it. He 
just went directly to the President of Ukraine and told him 
what he wanted him to do. He wanted him to make that 
announcement about Joe Biden.
    Mr. Morelle. Well, and I do note, going back to the 
transcript, which is much talked about, where the President 
talks about, which I referenced just a few moments ago, the 
things that he was interested, which were narrowly about the 
Bidens and the so-called server, it is actually Zelensky who 
raises the name Giuliani first.
    So it is clearly something that had been communicated and 
well before July 25, because he says: I will personally tell 
you that one of my assistants spoke with Mr. Giuliani just 
recently, and we are hoping very much that Mr. Giuliani will be 
able to travel to Ukraine and we will meet once when he comes 
to Ukraine.
    And clearly there is already a pathway, and clearly 
Giuliani, who I don't think would be tapped to talk about 
corruption generally when you had Attorney General Barr and you 
have Secretary Pompeo and thousands of members of both the 
State Department and the Department of Justice that can do it, 
why they would choose Giuliani.
    But that is clearly a cue for President Zelensky in this 
conversation to raise the name of Giuliani. It is then the 
President suggests that a lot of people are talking about that, 
the way they shut your very good prosecutor down, and you had 
some very bad people involved. Mr. Giuliani is a highly 
respected man. He was the mayor of New York. I would like him 
to call you. I will ask him to call you, along with the 
Attorney General. Rudy very much knows what is happening; he is 
a very capable guy. If you would speak to him, that would be 
great. An indication that, again, these unusual channels of 
operating, not through normal diplomatic channels.
    And then, again, later on in the conversation, the 
President: Well, she is going to go through some things--
speaking of Ambassador Yovanovitch--I will have Mr. Giuliani 
give you a call, and I am also going to have Attorney General 
Barr call, and we will get to the bottom of it.
    And again, the President: Good. Well, thank you very much. 
I appreciate that. I will tell Rudy and Attorney General Barr 
to call you. And so on it goes.
    And it is just, in my mind, troubling that Mr. Giuliani 
would be mentioned in the same breath repeatedly with the 
Attorney General and clearly representing the President 
personally. And as you point out, it is hard to tell what role 
he is playing at any given moment. Is he the President's 
personal attorney? Is he a representative of the United States? 
Is he doing the President's political bidding for him? Or is he 
doing something that relates to his own commercial and business 
interests?
    Yesterday Mr. Giuliani is reported to have said that 
President Trump was given detailed information about how 
Ambassador Yovanovitch was impeding investigations that could 
benefit Mr. Trump, not that benefit the United States, but 
benefit Mr. Trump.
    Giuliani told the President and Secretary Pompeo that Ms. 
Yovanovitch was blocking visas for Ukrainian prosecutors to 
come to the United States to present evidence to him, Giuliani, 
and Federal authorities that he claimed to be damaging to Vice 
President Biden and to Ukrainians who distributed documents 
that led to the resignation of President Trump's 2016 campaign 
chair, Paul Manafort.
    Is there any evidence at all that supports any of Mr. 
Giuliani's claims against Ambassador Yovanovitch, either those 
that were reported yesterday or reported earlier in this 
investigation?
    Mr. Raskin. Well, it is a great question. We asked that to 
numerous of the witnesses, whether there was anything to this 
conspiracy theory basically. And the answer we got was, no, 
there is basically nothing to it, they are not aware that there 
was an organized campaign by the Ukrainian Government to get 
involved in our 2016 campaign.
    My friend Mr. Collins rightfully pointed out that he and 
other supporters of the President in this matter have said 
there were Ukrainians who said things, and I think the 
Ukrainian ambassador to the United States was one of the ones 
who said things.
    But you cannot put that in the same sentence or paragraph 
or book with what Russia has been doing to elections around the 
world. Our Department of Justice special counsel found a 
sweeping and systematic campaign to subvert and undermine the 
American election. They had hundreds of employees working 
around this--working on this around the clock. They spent 
millions of dollars or rubles doing it. They were trying to 
inject poisoned racial and ethnic and religious propaganda into 
our social media system.
    And that is, you know, one thing, Mr. Morelle, that makes 
me very sad, that our country is divided. I don't think it is 
divided because we are trying to stand up for the rule of law 
in the impeachment investigation, but the Russian attack on 
American democracy did have a lot to do with it.
    I mean, why did we have hundreds of neo-Nazis and clansmen 
marching in broad daylight in Charlottesville? It is because 
there was divisive racial propaganda, ethnic and religious 
propaganda, pumped into American society.
    So I think that it is almost a patriotic duty for us in 
this very tough time to see that we try to bridge partisan and 
ethnic and racial and sectional differences, regional, all of 
those things. We cannot allow the enemies of democracy to 
exacerbate preexisting fault lines in the country and open up 
old gulfs within our country.
    Mr. Morelle. Yeah, and I--just taking--just extending that 
further. I note in the deposition from Dr. Hill, she is quoted 
as saying: I went back to talk to Ambassador Bolton, and 
Ambassador Bolton asked me to go over and report this to our 
NSC counsel, to John Eisenberg. He told me, direct quote: You 
go and tell Eisenberg that I am not part of whatever drug deal 
Sondland and Mulvaney are cooking up on this, and you go and 
tell them that you have heard and what I have said. So I went 
over to talk to John Eisenberg about this. I told him exactly, 
you know, what had transpired and that Ambassador Sondland had 
basically indicated that there was an agreement with the chief 
of staff that they would have a White House meeting or, you 
know, a Presidential meeting if the Ukrainians start up these 
investigations again. And the main thing that I was personally 
concerned about, as I said to John, was that he did this in 
front of the Ukrainians.
    But I want to go back to and extend this to the result of 
Mr. Giuliani's campaign that he had set in motion against 
Ambassador Yovanovitch, which is also--this is part of the 
deposition from Dr. Hill--why did the removal of Ambassador 
Yovanovitch mark a turning point for you? And this is to your 
point about throwing out conspiracies, et cetera. Because there 
is no basis for her removal. The accusations against her had no 
merit whatsoever. This was a mishmash of conspiracy theories 
that, again, I have told you I believe firmly to be baseless, 
an idea of an association between her and George Soros. I had 
had accusations similar to this being made against me as well, 
my entire first year of my tenure at National Security Council, 
filled with hateful calls, conspiracy theories, which has 
started again, frankly, as it has been announced that I have 
been giving this deposition.
    She goes on to say: The most obvious explanation to the 
point seemed to be business dealings of individuals who wanted 
to improve the investment positions inside of Ukraine itself 
and also to deflect where on the findings of not just the 
Mueller report on Russian interference but what has also been 
confirmed by your own Senate report and what I know myself to 
be true as a former intelligence analyst and someone who has 
been working on Russia for more than 30 years. So the fact that 
Ambassador Yovanovitch was removed as a result of this I have 
to say was pretty dispiriting.
    Who did you understand was responsible for her removal?
    I understood this was the result of the campaign that Mr. 
Giuliani had set in motion in conjunction with people who are 
writing articles and you, you know, publications that I could 
have expected better of.
    She is then asked: Did you discuss Ambassador Yovanovitch 
with Ambassador Bolton?
    I did.
    What was his reaction to this?
    His reaction was pained, and he basically said--in fact, he 
directly said Rudy Giuliani is a hand grenade that is going to 
blow everybody up. He made it clear that he didn't feel that 
there was anything that he could personally do about this, 
Ambassador Bolton.
    I also note, in a meeting on July 2 in Toronto, Canada, 
Ambassador Volker conveyed to President Zelensky the quid pro 
quo described to Ambassador Sondland. In doing so, he 
referenced the Giuliani factor and the need for the 
announcement of the two political investigations.
    And I note, parenthetically, Ambassador Sondland would 
later testify Mr. Giuliani was expressing the desires of the 
President of the United States of America. We knew these 
investigations were important to the President, and it wasn't 
so much that the investigations be done, merely that there be 
an announcement of the investigations so that it would aid the 
President's election campaign.
    Mr. Raskin. And, Mr. Morelle, if I might, that is an 
excellent point. That might be the ultimate and most 
devastating refutation of the idea that the President was 
interested in ferreting out corruption. He didn't really care 
about the investigation. He just wanted the announcement for 
electoral purposes.
    Mr. Morelle. And that is the testimony of his ambassador, 
Ambassador Sondland. Ambassador Volker had breakfast with Mr. 
Giuliani and his associate, Lev Parnas, at the Trump Hotel in 
December--I am sorry, here in Washington, the same Mr. Parnas, 
I note, who is currently under indictment for campaign finance 
violations.
    During the conversation, according to Volker's testimony, 
the ambassador stressed his belief that attacks being leveled 
against the former Vice President related to Ukraine were false 
and that Biden was a man of integrity.
    He counseled Mr. Giuliani that the Ukrainian prosecutor 
Lutsenko was promoting a self-serving narrative to preserve 
himself in power. According to Ambassador Volker, Mr. Giuliani 
agreed, but the promotion of Lutsenko's false accusations for 
the benefit of President Trump did not cease.
    Was any testimony presented that in any way contradicts 
that testimony by Ambassador Volker?
    Mr. Raskin. I don't believe so.
    Mr. Morelle. You know, also testimony on August 2, 
Zelensky's adviser, Mr. Yermak, met with Mr. Giuliani in 
Madrid. They agreed Ukraine would issue a public statement--
again, I note that again it is the public statement part of 
this, because that undermines the Biden candidacy. It does 
nothing to address corruption, because the President, as it was 
testified by Ambassador Sondland, Mr. Trump didn't seem to care 
at all about whether the investigation was actually conducted, 
simply that it was announced.
    And Volker encouraged Giuliani to report to the boss the 
results of his meetings with Mr. Yermak so that the White House 
visit could be arranged, which was what was sought after, as we 
know, by Ukraine.
    I will stop there and relate to questions about Mr. 
Giuliani, which to me is perhaps the most troubling piece of 
this whole episode, is his role, without any portfolio from the 
United States, simply acting as an actor on behalf of the 
President, and clearly, even as late as today, continuing to 
talk about how the investigations of Biden were to the benefit 
of the President.
    There is an old problem-solving principle called Occam's 
razor. I am sure you, Mr. Raskin, are well aware of it. It says 
when presented with competing hypotheses, one should select the 
solution with the fewest assumptions.
    And I just note, in order to believe those who support the 
President's view, you would have to assume the following.
    That despite the transcript of July 25 that specifically 
mentions the Vice President and CrowdStrike and the server, we 
must assume the President meant corruption generally, although 
he doesn't refer to it in any way at all.
    We must assume Secretary Pompeo, Attorney General Barr were 
incompetent in pursuing Ukrainian corruption charges generally 
and that the need was to reach out to Mr. Giuliani, although 
there is no evidence of his failure of confidence in them.
    We must assume Mr. Giuliani was in a special position to 
pursue Ukrainian corruption generally, although there is no 
evidence or rationale for that at all.
    We must assume Ambassador Sondland and Acting Chief of 
Staff Mulvaney were both in error when they confirmed a quid 
pro quo.
    We must assume Lieutenant Colonel Vindman, Ambassadors 
Taylor, Volker, Sondland, and Yovanovitch, as well as Mr. 
Holmes and Dr. Hill, were all arrayed against the President, 
despite not a modicum of evidence to that regard.
    We must assume that the White House officials, like Donald 
McGahn and John Bolton and others, somehow hold the key to the 
President's innocence, if only they would testify. But, of 
course, they refuse to testify.
    The list goes on and on.
    And I choose to follow the evidence which is laid out in 
the reports of the House Intelligence Committee, the House 
Judiciary Committee, and I continue to urge support of the rule 
and the underlying Articles of Impeachment.
    Thank you, Mr. Chairman.
    Mr. Hastings. Dr. Shalala.
    Ms. Shalala. Thank you, Mr. Chairman.
    Mr. Raskin, I want to follow up on the accusations against 
Vice President Biden, which is at the heart of what we are 
talking about.
    Mr. Trump's smears against the Vice President are debunked 
accusations made by a corrupt Ukrainian prosecutor, Viktor 
Shokin. You heard me right, President Trump and his supporters 
are so desperate to undermine Vice President Biden that they 
actually colluded with a Ukrainian fraudster.
    Deputy Assistant Secretary George Kent testified that there 
was, quote, ``broad-based consensus,'' end quote, among the 
United States, our European allies, and international financial 
institutions that Mr. Shokin was, and I quote, ``a typical 
Ukrainian prosecutor who lived a lifestyle far in excess of his 
government salary, who never prosecuted anyone known for having 
committed a crime, and who covered up crimes that were known to 
have been committed.''
    That is a nice way to say that everyone in the entire world 
agreed that this Ukrainian prosecutor was a bad guy and 
corrupt.
    And so, Mr. Raskin, would it be accurate to say that the 
allegations that Vice President Biden inappropriately pressured 
Ukraine to remove Mr. Shokin are completely without merit?
    Mr. Raskin. Totally without merit. Vice President Biden was 
acting to articulate and implement U.S. foreign policy at that 
moment, and that policy was to get rid of a corrupt prosecutor.
    Ms. Shalala. Okay. So let me repeat. It was part of the 
official policy of the United States and the rest of the world 
to fight corruption in Ukraine, correct?
    Mr. Raskin. Yes, it was.
    Ms. Shalala. Did Vice President Biden ask Ukraine to help 
him cheat in an election like President Trump?
    Mr. Raskin. No, he did not.
    Ms. Shalala. Okay. You know, we can obfuscate all we want, 
but it won't change the simple fact that there is nothing 
appropriate about President Trump's personal lawyer continuing 
to run around Kyiv with corrupt former Ukrainians prosecutors 
in search of dirt about Joe Biden.
    I believe the American people know that Joe Biden is an 
honorable man and they know it is wrong to seek foreign help to 
cheat in an election. And the President's ongoing pressure on 
Ukraine to investigate the former Vice President is powerful 
evidence for why we have no choice but to move forward with 
these articles of impeachment.
    Mr. Chairman, there is nothing more distressing to me than 
the fact that not one of our Republicans colleagues are willing 
to confront the President over his misconduct. And I have 
credibility on this. I confronted President Clinton on his 
misconduct.
    I have come to impeachment with deep sadness. The facts of 
this case are painful and indisputable. We know that the 
President abused his office, asking the leader of the Ukraine 
to announce an investigation of his political rival. We know 
that he illegally held up congressional appropriated aid to the 
Ukraine. And we know that he conditioned the release of vital 
military aid on Ukrainian President Zelensky's opening an 
investigation based on a debunked conspiracy theory about his 
political rival and foreign interference in the 2016 election.
    We also know that the President has actively blocked 
congressional attempts to determine the extent of his 
misconduct by ordering executive branch officials to defy 
subpoenas and withhold information.
    These facts are uncontested, confirmed in public by career 
public servants who have dedicated their lives to serving our 
country. Further, they are uncontested by the President and 
confirmed by his Chief of Staff.
    We have now reached a point where despite the unprecedented 
obstruction from the President, the evidence in this case is 
powerful enough to delay this vote any further would be 
irresponsible. Any delay would risk interference in the 2020 
election and the permanent erosion of our system of checks and 
balances.
    This is not a matter of politics. I have never and will 
never support the impeachment of a President over a policy 
disagreement or a different ideology. This is a matter of 
protecting the integrity of our democracy for the next 
generation.
    As we labor to pass on to future generations many of the 
great hallmarks of our society, our financial might, our 
brilliant scientific enterprises, the gifts of our great 
natural resources, the strength of our military and the 
diplomatic corps as a force for good, we must also work with 
active stewardship and vigilance to pass on a vibrant and 
functional democracy.
    If we don't do our duty to protect the Constitution, the 
republic that we hand to our children will be less vibrant, 
less resilient, and less effective than the system we were so 
fortunate to inherit.
    The Framers of the Constitution knew that democracy is 
fragile. They knew that its survival depends on the strength 
and the courage we display in maintaining it.
    But this fragility is also a strength. It requires our 
public servants to put our Nation's interests ahead of our own, 
to root out corruption, and to hold each other accountable to 
high standards of democracy that democracy demands.
    That is why we take an oath to defend the Constitution. If 
protecting the Constitution were trivial, we wouldn't have to 
take an oath. For over 200 years, honesty and vigilance and 
courage have won out as generations of Americans have adhered 
to their oath of office and met the standards of service that 
our democracy necessitates.
    Many died protecting our democracy. We cannot let this 
legacy be damaged on our watch. President Trump has not treated 
his oath of office with the seriousness it requires.
    But ultimately this is not only a vote about one person; 
this is a vote about his and our oath of office. This is a vote 
to determine whether we will maintain our democracy or set our 
Nation on a path to upend the values and standards the Framers 
laid out for us.
    I yield back.
    Mr. Hastings. Thank you very much. And I thank all of our 
colleagues for your patience. [Inaudible.] And if it is any 
consolation to you, I have been in the number nine position and 
in the number four position, and look at me now.
    Mr. DeSaulnier.
    Mr. DeSaulnier. Well, thank you, Mr. Chairman. I think that 
is the most inspiring thing I have heard and hopeful thing 
today, which may be a reflection of what we are doing here.
    I do want to say on coming in here 7, 8 hours ago, and I 
have heard a few of my colleagues on both sides say this, it is 
hard not to be, as a Member of this institution who has great 
reverence for this institution--I have heard Mr. Collins say 
many times that he believes and he is an institutionalist--not 
to be sad. I think we are all sad and depressed from our 
perspectives, because this is not the institution at its 
optimum.
    And I will say for the accusations about Never Trumpers, I 
guess I will admit to being an almost Never Trumper. After he 
was elected, I agreed with President Obama and Secretary 
Clinton that we should give him a chance. And I remember 
teasing some of my staff, well, maybe he is Chester Arthur, 
where people thought when Arthur took over for Garfield, given 
his reputation in New York--no offense--that he would not be 
capable.
    And he turned out to start the Civil Service system, which 
we have benefited from in the last few months when we have seen 
these really courageous public servants come forward. 
Irrespective of your position, you can't help but admire these 
folks.
    And then having sat as a member of Oversight and sat in 
hours of those depositions with Mr. Raskin and others, 
Ambassador Taylor, Colonel Vindman, just remarkable in getting 
the sense of that. And then having read the 300 pages and 
listened to the Intelligence hearings and the Judiciary 
hearings, I am just--my concern is that I have heard Members of 
both parties say pattern, there is a pattern here. And I will 
be honest, I am concerned about the pattern, but the 
President's pattern.
    One of the reasons why I was an early signer on to Steve 
Cohen's Articles of Impeachment----
    Mrs. Torres. Mr. Chairman----
    Mr. DeSaulnier. I am not offended.
    But having signed on to Cohen's that never came to the 
floor, as the chairman said, I approach supporting those as 
referring it to the Judiciary Committee to have a hearing. 
Because my own intuitive belief is this particular President, 
whether Republican or Democrat, in my perception, rules don't 
have the same effect on him as the majority of people.
    And I think rules are important. And I think, 
unfortunately, it is part of our business culture right now 
that stretching the rules or breaking the rules and getting 
away from them is part of what is wrong with this country.
    So, Mr. Raskin and Mr. Collins, I have really one question. 
In this pattern of things, we are all going to live with the 
consequences of our votes. I hear my colleagues feel strongly 
that they will vote against these most likely. Apparently Mr. 
McConnell believes there will be a trial, that the President 
will be acquitted.
    So what I am afraid of is that the President will be 
empowered to break more rules. I don't think he is capable of--
and I hope that is not true.
    So what happens after this? And I want to read a quote from 
James Madison in 51 when he talked about the balance of--and I 
am an amateur, I hate to say this in front of a professional 
like Mr. Raskin, but I wanted him to reply to this.
    Because I don't take this as a hypothetical. Our actions 
and the actions of the Senate are part of a pattern, and either 
it will be corrected after this is all done, or, if I am right, 
the President will go ahead and push the rules again. And I am 
mindful that he made this phone call the day after the Mueller 
report.
    And this is in the context of foreign interference, that 
the British, the French, the Germans twice, during World War I 
and World War II, were very aggressive at affecting our 
democracy. The Founders were perceptive and understanding in a 
democracy in those days, which was an unusual thing, that 
Madison said you had to bind the institutions, these three 
institutions, the judiciary, the Presidency, and the Congress, 
bind them so there is a check and balance, which is what 51 is 
all about.
    But put this in the context of what we know from the 
Mueller report and what Mr. Raskin has talked about and the 
technology that Mr. Putin and his agents have perfected. We, as 
Americans, tend to think in American exceptionalism, maybe 
sometimes that the Russians aren't very sophisticated. They are 
very, very sophisticated at propaganda that, as Mr. Raskin 
said, its ultimate goal is to disrupt democracy and have us 
basically destroy ourselves.
    Because Mr. Putin believes the worst thing that happened to 
Russia was the implosion of the Soviet Union and glasnost. And 
he sees the mass of men and women as incapable of governing 
themselves, which to us sitting here, I think we all believe, 
whether we are conservative or liberal, that is the opposite of 
what we live for, what people have sacrificed their lives for.
    So Mr. Putin wants us to be fighting each other. And they 
have used social media, and somebody from the Bay Area who 
deals with these companies and is frustrated with them to 
govern themselves, they have used it in a way, as the Mueller 
report says, to support this President, according to the 
report. And I thought that was damning enough to go ahead with 
impeachment, but we didn't, and the obstruction was clear to 
me, but we didn't.
    So in the context of that report, and sitting here a few 
months before our Democratic primary, which will be super 
primary in March, and less than a year away from an election, 
knowing that they are going to do these things, in the context 
of what we are going to do is not a hypothetical. It is part of 
a continuing effort by foreign actors who do not believe in 
this institution or in democracy or average people governing 
themselves.
    What do we anticipate the consequences after we vote 
tomorrow and after the Senate takes what I think is a mistake 
in their action?
    So let me just read what Madison said. And all of the 
Founders were amazing writers, because people wrote and read 
well then.
    So he said in 51, he said: ``The interests of the man must 
be connected with the constitutional rights of the place. It 
may be a reflection on human nature that such devices should be 
necessary to control the abuses of government. But what is 
government itself but the greatest of all reflections on human 
nature?
    ``If men were angels, no government would be necessary. If 
angels were to govern, neither external or internal controls on 
government would be necessary. In framing a government which is 
to be administered by men over men, the great difficulty lies 
in this: You must first enable a government to control the 
governed, and in the next place, oblige it to control itself.''
    So our failure to control ourself as a Congress, for the 
difficulties of the time, make me think that the consequences 
of our decisions and the inability to hold this President 
accountable and constrain him properly under the Constitution 
is not a hypothetical. It is something we are going to have to 
deal with in the days to come and before the next election 
while foreign actors and domestic actors try to disrupt our 
democracy.
    So, Mr. Raskin, Professor Raskin, what do we do after this 
decision? How do we constrain the administration and properly 
balance that with the needs of this institution?
    Mr. Raskin. You ask that at 6:50 p.m. That is a big 
question, Mr. DeSaulnier. But I will try my hardest. Let's 
see----
    Mr. Collins. Thirty seconds left.
    Mr. DeSaulnier. Mr. Collins, if you want to jump in, I 
don't think it is a hypothetical. I would love to hear your 
opinion.
    Mr. Raskin. I am going to give it my best shot.
    First, what are the consequences in terms of the 2020 
election? That is something--now, let me say this. I don't want 
to assume the inevitability of your premise that we are not 
actually going to deal with this problem.
    The House of Representatives has been immersed in this. We 
know a lot more about the facts. We know a lot more about the 
details. And now it is going over to the Senate. And I want to 
believe that 100 Senators are going to adhere to their 
constitutional oath, reflect on what that means, and then be 
open-minded, critical-thinking jurors in the process. Okay.
    But what would happen if we don't deal with it, if we all 
just go home and say, ``Hey, you know, authoritarianism is on 
the march all over the world, democracy is on the run, there is 
only so much we can do at this point,'' and we don't deal with 
it?
    Well, I think President Zelensky has got to be watching. 
Ukraine has got to be watching. From their perspective, they 
are in the middle of this. I mean, all of us are sort of acting 
like, well, President Trump got caught, so of course they are 
not going to go through with it. But if we let him go, why 
won't they go through with it? Why won't he have to go through 
with it? Why won't he have to make his announcement about the 
Bidens and then, for his own domestic political consumption, he 
will have to go through with an investigation?
    We have just set a new precedent there, a new standard, 
that the President can go and try to recruit foreign 
governments to get in our campaign by threatening, announcing, 
and engaging in criminal investigations of their political 
opponents. That is banana republic stuff, right? That is tin 
pot dictator stuff. But we have set that as a standard. So that 
terrifies me.
    Here is another pattern that we have got to deal with. 
Robert Mueller came to testify before the House Judiciary 
Committee on July the 24th. And as the President mentioned on 
the phone call on July 25, he thought basically he had gotten 
away with everything, right? Mueller found a sweeping and 
systematic campaign by Russia, he found more than a hundred 
contacts with the Trump campaign.
    But Attorney General Barr had taken the report for 3-1/2 
weeks, and he had said to America, there is nothing in there, 
nothing to be seen here, prompting not one but two letters of 
protest from Special Counsel Mueller, and yet it was too late 
for democracy to catch up, to have a serious, rigorous analysis 
of what was in the report.
    And on the very next day, President Trump has the phone 
call with President Zelensky and says but do us a favor 
though--kind of putting the icing on the cake of this whole 
effort to drag them in to our domestic politics.
    That is a pattern, because if it can be done to one 
struggling democracy, it can be done to another struggling 
democracy. And if we can allow one tyrannical authoritarian 
despot like Vladimir Putin to come on in, the water is warm, 
well, why not others? Why not Turkey? Why not the President's 
friends in Saudi Arabia?
    He already basically whitewashed their assassination, 
murder, and dismemberment of a Washington Post journalist. So 
what big deal would it be for them to say, ``Come on in and get 
involved in our election campaign''? So that is a serious 
problem.
    Now, what about--you say the pattern about checks and 
balances. It is interesting, because the phrase checks and 
balances appears in the Federalist Papers not to refer to the 
three branches. It is not legislative, executive, judicial. It 
refers to the House and the Senate. And those are the checks 
and balances we should be thinking about right now, because the 
people's body will speak this week. And if it goes the way I 
hope we will go, we will impeach this President for abuse of 
power, we will impeach this President for obstruction of the 
Congress.
    But we are placing our faith, as the Constitution obligates 
us to, in the Senate to do their job. But what that also means 
is place our faith in the people to make the Senate do their 
job, because we are politicians, and we know that we don't 
respond exclusively and entirely to the will of the 
constituents, but we do a lot. That is an important ingredient 
in representative democracy.
    But look, in Congress itself we cannot be afraid of our own 
power. One thing I disagreed with, I think I heard one of my 
majority colleagues today say, is we have got three coequal 
branches. And I have been trying to correct this from the very 
beginning.
    Our Framers, the Founders of America, overthrew a king. And 
the first sentence of the Constitution, in the preamble, they 
stated what America was about. We, the people, in order to form 
a more perfect union, establish justice, ensure domestic 
tranquility, provide for the common defense, promote the 
general welfare, and preserve to ourselves and our posterity 
the blessings of liberty, do hereby ordain and establish the 
Constitution of the United States of America.
    The very next sentence starts, Article I, all legislative 
power is vested in the Congress of the United States, the 
Senate and the House of Representatives. You see what just 
happened there? The sovereign political power of the people of 
America flowed from the act of Constitution-making into the 
Congress of the United States.
    And then you get 37 paragraphs laying out all of the powers 
of Congress, the power of appropriation and spending, the power 
to regulate commerce domestically and internationally, the 
power to declare war, the power over the seat of government, 
and so on and on. Even the power in Article I, section 8, 
clause 18, to have all of the other powers necessary to the 
enforcement and execution of the foregoing powers.
    And then in Article II you get to the President. And 
remember, in the Articles of Confederation, in the Articles of 
Association, we didn't even have a President, right? So they 
wanted to create somebody who would show executive energy, to 
execute our laws. But that was the job, to take care that the 
laws are faithfully executed and to be the Commander in Chief 
of the Army and Navy in times of actual insurrection, right? 
That is the core of what the job is.
    And section 4 of Article II is all about impeachment, in 
order to make sure a President doesn't become a king.
    Think about this. Why do we have the power to impeach the 
President, and he doesn't have the power to impeach us? And it 
was a great Republican President, Gerald Ford, who answered it. 
Here the people rule. Here the people and their Representatives 
rule.
    So if the President were to be impeached, he doesn't go to 
jail for 1 day because of that. That is criminal prosecution; 
it has got nothing to do with us. But what we are doing is 
protecting the country and the Constitution.
    Mr. DeSaulnier. Mr. Collins, you want 30 seconds?
    Mr. Collins. I think my friend just summed up the entire 
thing for me. He did. We went on a whirlwind trip. He is a 
wonderful teacher. I would have loved to have had him in class. 
And he went all over the world at a 30,000-foot level. You 
watch him along in his oratorical skim down and hits the common 
man and come up and touch the wings of the gods.
    The problem is he never addressed the issue we are dealing 
with. And I think that is the very heart of the problem we have 
right now. It is one think to speak in a rash of rhetorical 
flourishes today, and we have, and we are getting to an end, 
thank you, Lord, of dealing with this.
    But the bottom line is, is the question I believe, yes, 
where do we go from here? It is like, you know, the simple man 
who once needed to get his--you know, I used to watch--some of 
this may come as strange to my colleagues on the majority side, 
I really enjoyed ``The West Wing.'' I watched it, my family has 
watched it over and over and over again.
    And that answer right there, which I respect deeply, it is 
amazing. We differ on so many things, but actually Jamie and I 
just get along very well on many other things. He is wrong, I 
am right, but we will deal with that. No, I am kidding. But we 
do it.
    But there was an episode in which President Bartlet was in 
one of his rhetorical flourishes, and Toby asked him about a 
friend who had called about getting something fixed at the VA. 
And he went into this long story, if you remember this scene, 
he went into this long story about the red tape and that 
veterans had to come to D.C. because they were tangled with red 
tape. That is where red tape comes from.
    And Charlie, who is the body man for the President, looked 
at him, he said: But, Mr. President, all he wanted to know is 
how to get his wheelchair fixed.
    And I think that is what we are seeing a lot of here today. 
It is future. What is going on? What is going to happen? What 
happens tomorrow?
    What is going to happen tomorrow is you are going to vote 
the articles of impeachment. Probably after that it is going to 
go to the Senate, which has been a predetermined observation 
from day one, not because of anything else, it is not going 
anywhere. And that is fine. That is the path we chose.
    But where do we go from here? This is my question. Because 
I think when you look at this, to simply say--and to come at it 
from the facts, which is the only way the majority can come at 
this, is that the President did something wrong.
    At which point has he ever done anything right for this 
majority? He never has. And I think when you look at the 
discussion--and I understand your discussion, Mr. Perlmutter, I 
get it--but when you look at it from the fact that from the 
moment after the election there was discussion of impeachment, 
from minutes after he was sworn in The Washington Post said now 
the impeachment begins, when we begin to look at this process 
all the way through, my only question is, is not: When do we do 
this--how or where do we go from here? It is just when? It is 
just when do we do it again? Because it is not matter of 
disfacts; and it is like I said earlier, it is not engaging in 
hypotheticals. We go back to the simple basic facts that have 
happened in this case, four basic truths. Zelensky and 
President Trump said no pressure. The transcript shows no 
conditionality. The Ukrainians were not aware of the aid was 
being withheld when they spoke; and Ukraine didn't open an 
investigation, still received aid, got a meeting with the 
President.
    There were five meetings, three of which took place from 
the call to until the time the Ukrainians found out about the 
aid being withheld. Two of those meetings were held after they 
found out about the aid being withheld. None of these ranging 
from President Trump to Senators Johnson and Murphy, Vice 
President Pence, none of these actually discussed aid being 
linked to the money, none.
    So we start off, and we get rhetorical flourishes here at 
the end which is fine. I understand it. If I had to sell this, 
I would have to be rhetorically and flourish as well, because 
the Constitution is at stake here. It is the determination: Is 
this Congress going to be a body in which we impeach because of 
partisan ideas, which is also what the Founders discussed.
    You have the majority. We had the majority for a while, 
while I was here, for 6 years. It is a massive responsibility, 
and at times, we did it well and at times, we did not do it 
well. And I believe that is why probably last November we got 
an election that gave you the majority and gave you the gavel.
    But remember just because you can don't mean you should; 
and sometimes, when the facts, especially when you have to go 
at them from the perspective of the way this process has went, 
as I said earlier today, I will fight process and I will fight 
facts, and I will win on both. Because when I take this case 
from here at this table in just a few minutes when we leave, 
and I will take it to the floor tomorrow, and then I will take 
it to the American people, just as this President will, and 
just as though who fought.
    And when we understand what actually happened, when what is 
actually charged, not what was assumed and not was put deep 
into a report, but what was actually ended up, then I simply 
see nothing that helps us down the line. But I do see two 
things that bother me, and this will finish my statement to 
you.
    I see a process that has been trashed in the rules, and 
processes of the committee and of the whole, and I see a 
process of impeachment that has been lowered to where you don't 
have to even jump anymore, and that is my concern. I know Mr. 
Raskin doesn't share it, but that--you ask. That is my concern. 
Where do we go from here? In some ways looking at this, God 
help us.
    I yield back.
    Mr. DeSaulnier. Let the record know that was more than 30 
seconds. Let me just finish with from my perspective the 
specificity and Mr. Cole and I were talking about people 
reading the summary of the phone call and different people 
reading it and having different realities when they read it 
but, as all of us can relate to, a candidate for Federal 
office, the law says cannot, quote, ``knowingly solicit, 
accept, or receive from a foreign national any contribution or 
donation,'' and that contribution or donation, is defined as 
anything of value.
    When I read that summary, he is clearly asking for 
something of value, an investigation that would cost hundreds 
and thousands of dollars against his primary opponent, the day 
after the Mueller report, a day before he went out, I am told, 
and said that the Second Amendment gave him the right to do 
anything he wanted.
    So with that, just maybe briefly, Mr. Raskin, the President 
withheld his funds. Mr. Collins says he released them, but my 
recollection is, and the testimony, he released them because 
people in the Congress and the press were starting to say you 
need to release these.
    So, it was the pressure brought to him to release it that 
got him to release it. And in that time, Ukraine was exposed to 
his patron, Mr. Putin. So was he faithfully executing the 
duties of his office when he did that?
    Mr. Raskin. Well, he got caught red-handed; and I don't see 
any ambiguity in the historical record about that. We announced 
our investigation on the 9th of September, and then it was on 
the 11th that the money was finally released.
    Mr. DeSaulnier. Thank you.
    I yield back.
    The Chairman. I thank you.
    I have good news for both of you. I think everybody has 
asked their questions. There is nobody left here on this 
committee.
    I do want to close with this. First, I want to thank both 
our witnesses for enduring this very long hearing. I want to 
thank the members of the Rules Committee, Democrats and 
Republicans, because I think we have very sharp disagreements 
on this, but I think this hearing was conducted with civility. 
I want to thank Mr. Cole and his team for helping with that.
    I mean, I like this hearing, quite frankly, better than the 
one that was in your committee. But, I think people feel very 
strongly about these issues and I want to thank everybody for 
their cooperation here today.
    And so you are dismissed.
    And there are no other witnesses here. So that will end the 
hearing portion of this----
    Dr. Burgess. Mr. Chairman.
    The Chairman. Yes, Mr.----
    Dr. Burgess. May I be recognized for a----
    The Chairman. You may.
    Dr. Burgess [continuing]. Unanimous consent request.
    The Chairman. We have--withdraw what I just said, yes.
    Dr. Burgess. I have the four letters that I sent 
individually, asking to review the documents, two letters that 
were group projects; and I would like to add those for the 
record.
    The Chairman. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Dr. Burgess. And then also, I think it is significant. When 
President Poroshenko came and talked to a joint session of 
Congress, many remember it, 2014.
    The Chairman. The gentleman deserves to be heard.
    Dr. Burgess. In his address, he referenced a lot of things, 
how Ukraine had voluntarily withdrawn from being a nuclear 
power with the promise that they would always be protected; and 
then maybe they weren't.
    But he also, this was the speech in which he also said that 
they needed more military equipment, both lethal and nonlethal. 
Blankets and night vision goggles are important, but you cannot 
win a war with blankets.
    Again, this was from 2014. Donald Trump was not President. 
I just thought it was important to put this in this part of the 
record as we have heard----
    The Chairman. Without objection.
    Dr. Burgess [continuing]. About how national security was 
threatened by President Trump's actions.
    The Chairman. The hearing portion of H. Res 755 has come to 
a close, and we will recess, subject to the call of the chair.
    And we will work with you about an appropriate time to 
reconvene to meet some of the obligations that your members 
have and our members have tonight. We meet tonight.
    With that, the hearing is closed.
    [Recess.]
    The Chairman. Okay. The Rules Committee will come to order.
    At this time, the chair will entertain a motion from the 
distinguished gentlewoman from Pennsylvania, Ms. Scanlon.
    Ms. Scanlon. Thank you, Mr. Chairman.
    I move the committee grant House Resolution 755, impeaching 
Donald John Trump, President of the United States, for high 
crimes and misdemeanors, a closed rule.
    The rule provides that immediately upon adoption of this 
resolution, without intervention of any point of order, the 
House shall proceed to the consideration of House Resolution 
755. The rule provides 6 hours of debate on the resolution, 
equally divided and controlled by the chair and ranking 
minority member of the Committee on the Judiciary, or their 
respective designees.
    The rule provides that the amendment in the nature of a 
substitute, recommended by Congress on the--I am sorry--
recommended by the Committee on the Judiciary, now printed in 
the resolution, shall be considered as adopted.
    The rule provides that the question of adoption of the 
resolution as amended shall be divided between the two 
articles.
    The rule provides that during consideration of House 
Resolution 755, only the persons shall be admitted to the hall 
of the House, or rooms leading thereto, only the following 
persons. A, Members of Congress; B, the delegates and the 
resident commissioner; C, the President and Vice President of 
the United States; D, other persons as designated by the 
Speaker.
    Section 3 provides, after adoption of House Resolution 755, 
for consideration of a resolution appointing and authorizing 
managers for the impeachment trial of Donald John Trump, 
President of the United States, if offered by the chair of the 
Committee on the Judiciary or his designee.
    The rule provides 10 minutes of debate on the resolution 
specified in Section 3 equally divided and controlled by the 
chair and ranking minority member of the Committee on the 
Judiciary.
    The rule waives all points of order against consideration 
of the resolution specified in Section 3.
    The rule provides that no other resolution incidental to 
impeachment relating to House Resolution 755 shall be 
privileged during the remainder of the 116th Congress.
    Finally, the rule provides that the chair of the Committee 
on the Judiciary may insert in the Congressional Record such 
material as he may deem explanatory of House Resolution 755, 
and the resolution specified in Section 3 not later than the 
date that is 5 legislative days after the adoption of each 
respective resolution.
    I yield back.
    The Chairman. You heard the motion from the gentlewoman 
from Pennsylvania.
    Is there any amendment or discussion?
    Mr. Cole. Mr. Chairman.
    The Chairman. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman.
    I have an amendment to the rule. I move the committee 
provide 12 hours of general debate, equally divided and 
controlled by the chair and ranking member of the Committee on 
the Judiciary.
    Mr. Chairman, because of the Democratic majority's hasty 
timeframe to impeach the President, it is imperative that the 
House have ample time to debate H.R. 755. We should strive to 
come as close as possible to the allotted time for debate in 
the Clinton impeachment. Members should have sufficient time to 
explain to the American people, on the House floor, their 
position on these impeachment amendments. Providing 12 hours of 
general debate will only allow each Member of this Congress a 
mere 1 minute and 40 seconds to debate H.R. 755. I know there 
is a lot of demand on both sides that members have an 
opportunity to state their positions publicly. So we would ask 
for the twelve-hour.
    The Chairman. I thank the gentleman. We have provided 6 
hours of debate, plus an hour of debate time in the rule. That 
is 7 hours total. It seems like a reasonable amount of time. We 
are dealing with fewer Articles of Impeachment with President 
Trump than we were with President Clinton, and I think it is a 
fair amount of time, and I respect the gentleman, but I would 
urge a no vote on his amendment.
    Mr. Burgess. Mr. Chairman.
    The Chairman. Yeah, are there any other people requesting 
time?
    Mr. Burgess.
    Dr. Burgess. Yeah, I would just speak in favor of Mr. 
Cole's amendment. Not every Member of Congress has the 
privilege that we do of serving on the Committee on Rules. We 
have enjoyed unlimited time. You have been very kind with the 
time today. So we have all had ample time to talk. I think 
every Member of Congress needs to be able to take time to 
explain to their constituents and to the country this is not 
a--this is not a trivial matter that we are taking up. This is 
a matter of great importance for the future of our country, and 
we have all talked about our allegiance to the Constitution. We 
should provide members an opportunity to explain themselves.
    And I would just say to--I think Mr. Cole's amendment is 
well-reasoned, well-considered, and I would urge us to take 
this up, and Mr. Cole has provided you an opportunity and I 
think you should take it.
    The Chairman. Yeah, well, I appreciate it. I think the 7 
hours of debate will extend probably to more like 12 hours when 
it is all said and done. So----
    Mr. Cole. May I just note for the record, Mr. Chairman? It 
is not often we get a text in supporting any amendment I make 
as well-reasoned and open. So I just want to thank my friend.
    The Chairman. The vote is on the Cole amendment. All those 
in favor say aye. Aye. Opposed, no. No. In the opinion of the 
chair the noes have it.
    Mr. Cole. We would request a roll call.
    The Chairman. The clerk will call the roll.
    The Clerk. Mr. Hastings?
    Mr. Hastings. No.
    The Clerk. Mr. Hastings, no.
    Mrs. Torres?
    Mrs. Torres. No.
    The Clerk. Mrs. Torres, no.
    Mr. Perlmutter?
    Mr. Perlmutter. No.
    The Clerk. Mr. Perlmutter, no.
    Mr. Raskin?
    Mr. Raskin. No.
    The Clerk. Mr. Raskin, no.
    Ms. Scanlon?
    Ms. Scanlon. No.
    The Clerk. Ms. Scanlon, no.
    Mr. Morelle?
    Mr. Morelle. No.
    The Clerk. Mr. Morelle, no.
    Ms. Shalala?
    Ms. Shalala. No.
    The Clerk. Ms. Shalala, no.
    Mr. DeSaulnier?
    Mr. DeSaulnier. No.
    The Clerk. Mr. DeSaulnier, no.
    Mr. Cole.
    Mr. Cole. Aye.
    The Clerk. Mr. Cole, aye.
    Mr. Woodall?
    Mr. Woodall. Aye.
    The Clerk. Mr. Woodall, aye.
    Mr. Burgess?
    Dr. Burgess. Aye.
    The Clerk. Mr. Burgess, aye.
    Mrs. Lesko?
    Mrs. Lesko. Aye.
    The Clerk. Mrs. Lesko, aye.
    Mr. Chairman?
    The Chairman. No.
    The clerk will report the total.
    The Clerk. Four yeas, nine nays.
    The Chairman. The amendment is not agreed to. Further 
amendments? Mr. Woodall.
    Mr. Woodall. I have an amendment of the rule to amend 
Section 1 that waives all points of order in the rest--in the--
against provisions of the resolution, except for those in 
violation of clause 2(g)(6)(b) of House Rule 11.
    As currently constructed, the rule waives all points of 
order. Clause 2(g)(6)(b) of House Rule 11 is that one that we 
spent so much time talking about today, which is minority 
rights for a hearing.
    On December 4th, Mr. Chairman, as you know, minority 
members of the House Judiciary Committee did exercise their 
rights under that section, and asked for a day of hearings. But 
as of today, that hearing has not been scheduled. You responded 
to Mr. Cole's concerns, all of our concerns on that issue, and 
as I read during our hearing today, concluded that, because Mr. 
Nadler has appropriately said he will work with the minority to 
schedule that hearing after our vote on impeachment, that you 
believe that section had been satisfied.
    You stated that you--that the intent of this rule was to 
provide folks with a voice. I don't think any member on this 
committee would suggest that allowing hearings, after bills 
have been passed, would allow for that voice. It could well be 
that the House Parliamentarian and the Speaker tomorrow will 
agree with you that having consulted with Chairman Nadler and 
agreed to hold hearings after the fact, that that does satisfy 
this section of the House rules. I think that would deem this 
section meaningless if that is true.
    But by allowing and exposing this point of order tomorrow, 
we will at least make clear to the American people only one of 
two things is true: either the House of Representatives has a 
process, and on the day we accuse President Trump of breaking 
the rules, we choose to follow our own; or, we will choose to 
waive those rules and leave the impression that so many of my 
colleagues have talked about today that the rules don't apply 
to everyone and do not exist to serve everyone.
    I know that is not the chairman's intention, again, as his 
letter makes so very, very clear. I would just ask my 
colleagues, because this has been a source of great debate and 
disagreement, that we expose this point of order; and if it 
turns out, as the chairman believes it will, that this 
requirement has been satisfied, then no harm, no foul. But if 
it turns out that this requirement has not been satisfied, we 
would do the American people a great service by satisfying it 
and then moving--and then moving forward.
    I thank my chairman.
    The Chairman. Any other discussion on the Woodall 
amendment?
    Mr. Woodall. If I could just add one----
    The Chairman. Sure. Go ahead.
    Mr. Woodall. To read that section makes it clear that there 
is no ambiguity in this request. If the minority asks, the 
request must be granted. It is not up to the discretion of the 
chair. That absence of discretion was intentional as we crafted 
this section on minority rights, and I just put that out there 
for my colleagues because, again, one day we will all be in 
different places and the precedent we set today will matter.
    I thank the chairman.
    The Chairman. I know, and we have been in your seat as 
well, but there is nowhere in that rule did it say when the 
chairman must schedule that hearing and the bottom line--we 
have had this discussion before. I don't think this is subject 
to a point of order. And as we all know, it is standard for any 
measure brought to the floor under a rule to be provided with 
protections against points of order.
    Last Congress alone, 86 blanket waivers were provided by 
the Republican majority. We have not been advised that any 
points of order lie against the resolution. So the waiver is 
simply out of an abundance of caution in keeping with modern 
rules practices. Even though no points of order lie against the 
resolution, dilatory points of order could be brought up that 
would have to be argued against and ruled on, needlessly 
delaying the floor. Again, that is why prophylactic waivers are 
included in every single rule we report out of here under 
Republicans and Democrats.
    So I just disagree with you on how you interpret the 
minority day rule. I responded to you as to my opinions but, 
look, we need to make sure this resolution moves forward.
    With that----
    Mrs. Lesko. Mr. Chairman.
    The Chairman. The gentlelady from Arizona.
    Mrs. Lesko. Thank you, Mr. Chair.
    I would like to speak in favor of Mr. Woodall's amendment. 
I, you know, I think the American public would think it is 
really ridiculous to grant a minority hearing date after we 
vote on the Articles of Impeachment. I mean, any person with 
any common sense knows that that is really, in my opinion, 
outrageous. And so, you know, if you go forward with this, as I 
assume you are, I--you know, I think we are going to make hay 
out of it for sure. I mean, just to show----
    The Chairman. You can make hay out of whatever you want.
    As I said before, the whole point of this resolution was to 
ensure the minority had a right to a witness during committee 
procedures. That has been granted in the Judiciary Committee. 
And this is to protect against chairmen, or chairwomen who 
basically allow no minority witnesses.
    So I am perfectly comfortable with my response. But I will 
also say we received a letter from 70 members of the Republican 
party, including two members of the Rules Committee, saying 
that they are going to use every dilatory tactic within their 
means to try to delay and derail this process. You know, I do 
not want this to turn into a circus. This is a serious matter, 
and it will be considered in an orderly and respectful way, and 
I think that is--so we just disagree on this.
    Yeah, Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman.
    If I can just be heard on one further point, I may have not 
explained my motion articulately. I agree with you in the 
nature of the Rules Committee, our standard practice of waiving 
all points of order, the requirement that the majority be able 
to conduct its business without dilatory tactics. My motion is 
that we keep that section that waives all points of order, with 
the one exception of this minority witness. If I may read from 
the--from the House Practice manual:
    Whenever a hearing is called by a committee on a measure or 
matter, minority members on the committee may have a right to 
call witnesses of their own choosing.
    That has not happened here. That has not happened here. As 
has been said so often today, those facts are undisputed, 
undisputed.
    Mr. Perlmutter. No. Will the gentleman yield?
    Mr. Woodall. Be happy to yield.
    Mr. Perlmutter. We have at least five witnesses----
    The Chairman. Mic.
    Mr. Perlmutter [continuing]. Five witnesses that have 
testified, two in the Judiciary Committee and three in the 
Intelligence Committee called by the Republican minority. So 
that is at least five witnesses; and the President was invited 
to present a case, which he refused to do.
    Mr. Woodall. I appreciate my friend raising that.
    What you heard from the ranking member today is he was 
given choices by the chairman, take it or leave it. You can 
invite a law professor of your own choosing, but you cannot 
invite a witness of your own choosing. You cannot bring the 
fact witnesses, any fact witness, to this hearing. That is 
what--that is what this section--and to the chairman's point--
--
    Mr. Perlmutter. So if the gentleman would yield again, so 
the gentleman is making a distinction between the examinations 
and depositions that were taken in the Intelligence Committee 
versus what was done in the Judiciary Committee. Is that how 
the gentleman is proceeding?
    Mr. Woodall. No. I would say to the gentleman, I am only 
taking the rule on its face. Minority members on the committee 
have the right to call witnesses of their own choosing. That 
right was not offered or granted.
    And it goes on to say the chair may set the day under a 
reasonable schedule.
    It could well be that the chairman is absolutely right, and 
when we decided that the schedule must be reasonable, we 
decided that scheduling the hearing after the bill has already 
been passed and sent to the Senate was reasonable, but I don't 
believe that we believe that. I believe every one of us knows 
that is not what we intended. There are bills on which moving 
and playing fast and loose may be appropriate. Impeaching the 
President of the United States cannot, by any definition, be 
one of those resolutions. Cannot be. Cannot be. The rule is 
clear. The Rules Committee has the right to waive the rule.
    To suggest that the rule has been satisfied, as the 
chairman's letter does, I think creates a very dangerous 
precedent that future chairmen are going to be much more 
liberal with and much less enthusiastic about protecting 
minority rights than the chairman would be.
    The chair may set the day under a reasonable schedule. Is 
the day after we have passed the bill reasonable? And that is 
best-case scenario as we sit here today. The chairman has been 
very indulgent. I appreciate that.
    The Chairman. No, and I would just simply say I think you 
are misinterpreting what the rule actually states, and we do 
not agree and what we are doing here is standard operating 
procedure, and we are going to follow that.
    Mr. Woodall. To be fair, Mr. Chairman, I am not trying to 
misstate the rule. I am reading it out of the House Practice 
manual.
    The Chairman. And I answered you in a lengthy letter how--
based on precedent, and based on how it is interpreted. I mean, 
the idea that somehow, if it worked the way the minority would 
have us believe, as if it were some superpower allowing the 
minority to call any witness at any time, to schedule a hearing 
whenever they want to, to delay legislation, I promise you 
there would have been a whole lot more hearings last Congress 
called by Democrats.
    And so we just disagree.
    Mr. Woodall. Of course.
    The Chairman. And so I--we can continue this if you would 
like but I don't agree with your assumption.
    Mr. Woodall. And I know that in this committee, as the 
chairman, when you don't agree with me, that means I am going 
to lose. I understand that.
    The Chairman. You can ask for a vote, and you might win.
    Mr. Woodall. And this is not--but, Mr. Chairman, this isn't 
a rule of this committee. This is a rule of the United States 
House.
    The Chairman. Absolutely. And as far as I am--has the 
parliamentarian informed you that there is a point of order to 
be made?
    Mr. Woodall. If the circumstances are as you believe they 
are----
    The Chairman. I am just asking you.
    Mr. Woodall. When I raise that point of order on the floor 
of the House, or a member the Judiciary Committee does, it will 
be--it will be denied.
    The Chairman. Right. But I am not exposing this bill to any 
points of order, and I would urge my colleagues to vote no on 
the Woodall amendment.
    All those in favor of the Woodall amendment say aye. Aye. 
Opposed, no. No. In the opinion of the chair the noes have it.
    Dr. Burgess. Roll call.
    Mr. Woodall. I am reluctant to put my friends on the record 
on this issue, but I will.
    The Chairman. The clerk will call the roll.
    The Clerk. Mr. Hastings?
    Mr. Hastings. I am not reluctant to vote no.
    No.
    The Clerk. Mr. Hastings, no.
    Mrs. Torres?
    Mrs. Torres. No.
    The Clerk. Mrs. Torres, no.
    Mr. Perlmutter?
    Mr. Perlmutter. No.
    The Clerk. Mr. Perlmutter, no.
    Mr. Raskin?
    Mr. Raskin. No.
    The Clerk. Mr. Raskin, no.
    Ms. Scanlon?
    Ms. Scanlon. No.
    The Clerk. Ms. Scanlon, no.
    Mr. Morelle?
    Mr. Morelle. No.
    The Clerk. Mr. Morelle, no.
    Ms. Shalala?
    Ms. Shalala. No.
    The Clerk. Ms. Shalala, no.
    Mr. DeSaulnier?
    Mr. DeSaulnier. No.
    The Clerk. Mr. DeSaulnier, no.
    Mr. Cole?
    Mr. Cole. I am proud my friend overcame his scruples and 
put everybody on the record. Aye.
    The Clerk. Mr. Cole, aye.
    Mr. Woodall?
    Mr. Woodall. Aye.
    The Clerk. Mr. Woodall, aye.
    Mr. Burgess?
    Dr. Burgess. Aye.
    The Clerk. Mr. Burgess, aye.
    Mrs. Lesko?
    Mrs. Lesko. Aye.
    The Clerk. Mrs. Lesko, aye.
    Mr. Chairman?
    The Chairman. No. The clerk will report the total.
    The Clerk. Four yeas, nine nays.
    The Chairman. The amendment is not agreed to.
    Are there any further amendments?
    Before we vote on the final motion, I would like to yield 
to the gentleman from Oklahoma for any concluding remarks he 
would like to make.
    Mr. Cole. Thank you, Mr. Chairman.
    I want to agree with my friend, Mr. DeSaulnier. This is a 
sad day. I don't think anybody on this panel, Democrat or 
Republican, came here with the expectation they would be voting 
on impeachment for the President, and I think they all regret 
that. I think we all regret that.
    But I want to tell you, first, Mr. Chairman, I am very 
proud of this committee. I am very proud that the discussions 
have been civil and professional. I think the points have been 
fair by all sides, and I think that is to the credit of this 
committee.
    Mr. Chairman, I am very proud of you. I think you have 
presided over this process which is a difficult one. It is one 
where we clearly disagree. There was not much opportunity for 
agreement to arrive, but you have given everybody an 
opportunity to have their say. You have allowed every question 
to be asked, every point to be made. You have made your 
decisions. That is your prerogative as the chairman, and we 
respect that prerogative. But I think you have done so in a 
very fair and open and transparent manner. I am personally 
very, very grateful.
    I do think as a Congress, we are on an awfully dangerous 
and awfully divisive course, and I have thought about this 
quite a bit. I know all of us have. And I have been around this 
business for a long time, and I have watched the last 
impeachment process. I was not a Member of Congress, but I was 
pretty closely associated with Congress at the time, and I 
thought probably where we went wrong in that process is that I 
don't think most of the Republicans members in the 1990s ever 
really regarded President Clinton as a legitimately elected 
President. I would caution my friends, I think you are making 
precisely the same mistake now.
    There is no question we can quibble about votes, but many, 
many Members of Congress on your side have been trying to 
impeach the President from the very first day. No question 
about that. There was testimony about that.
    And we are going to impeach a President in this case, if we 
go ahead and we have the vote tomorrow, for something that 
didn't happen. The dispute has been about aid to the Ukraine. 
That aid was given, and it was withheld, at the most, for 55 
days and was delivered within the time legally specified. That 
is before the end of the fiscal year.
    There were no investigations undertaken by the Ukraine in 
exchange for that aid or in exchange for time at the White 
House or a visit with the President. And both the principals 
involved in the critical conversation, President Trump and 
President Zelensky, all said everything was fine. No pressure 
was intended, none was felt.
    This process that we are engaged in, Mr. Chairman, is going 
to fail. I mean, we will have a vote tomorrow. It may well 
succeed. You occupy the majority here. I respect that. But we 
are here because I think the Speaker did not follow the very 
conditions she laid down at the beginning. She said we will not 
go down the road of impeachment, unless it is bipartisan. This 
is not bipartisan. We will not go down this road unless there 
is a consensus in the country. There is no consensus in the 
country. And we are precisely, or a little bit less than now, 
11 months from an election where the American people can and 
will make this decision.
    But I want to conclude, Mr. Chairman, on a little bit more 
optimistic note. A lot of people would say that means Congress 
is broken, and we focused, and I think the public will focus 
mostly on this measure today but we ought to reflect a little 
bit about what has happened this week and what has happened in 
this committee that we saw last night.
    We had a major bipartisan agreement on funding the 
government for the balance of the year. It was a give-and-take 
process. By the way, the President was pretty integral in that 
process as well. So he has participated. We can't pass much if 
he is not willing to sign it and he is not willing to 
negotiate. He certainly did.
    We are going to have major tax changes. Three major items 
that fund the ACA were eliminated today. I am very, very 
pleased with that. The President was involved in that.
    We are going to have a tax extenders package that we all 
stayed here a little bit late last night, later than any of us 
wanted; but that is because the principals on all sides were 
actually negotiating. So, that tells me that things are going 
in a workable fashion.
    And we are going to have a USMCA vote on Thursday that, 
again, this committee was involved in, and I think will be 
bipartisan.
    So, while I am very disappointed about what is happening, I 
don't think it is good for the country. I think my friend, Mr. 
Collins, made some very, very good points about lowering the 
bar for impeachment, and setting us up to engage in this again.
    I am pleased to say that in a number of areas, we have been 
awfully functional and I think in a very bipartisan manner. 
And, Mr. Chairman, that is in part because of the manner in 
which you have operated this process, a very divisive process, 
but one, again, in which I think you have been open and fair 
and transparent. We haven't agreed with all your decisions. You 
had an opportunity tonight to accept two fantastic amendments, 
but the reality is you allowed those amendments to be offered. 
You treated them with respect and fairly.
    And so for that, I extend my sincere appreciation, and we 
look forward to seeing you on the floor tomorrow and appreciate 
the manner in which you discharged your duties here in this 
committee.
    The Chairman. Well, thank you. And I want to thank the 
gentleman from Oklahoma for his kinds words. And I want to 
thank all the members of this committee, Democrats and 
Republicans, and all the staff that have put in long hours 
during this week. We have sat here all day, and conducted 
ourselves in a very serious and thoughtful manner. I had a 
number of people say to me that they were surprised that, 
despite the difficult topic before us, that what they observed 
play out on TV was relatively civil. And so, I am proud of this 
committee, too. And we have strong disagreements over the 
matter at hand. I think the President behaved in a way that is 
reprehensible, quite frankly, and, yeah, he did--the aid did go 
to Ukraine, but only after he got caught withholding it.
    While this committee was meeting this afternoon, the 
President of the United States sent the Speaker of the House a 
letter on this impeachment process.
    And, Ms. Lesko, earlier you asked unanimous consent to put 
it in the record.
    I am not sure how many of you read it but it is six pages 
long, and it essentially amounts to one long Twitter rant. He 
called impeachment an illegal coup, and he claims, quote, 
``More due process was afforded to those accused in the Salem 
witch trials,'' end quote. I mean, are you kidding me? Innocent 
people were tortured and hung. Their corpses were thrown in 
shallow graves. An 80-year-old farmer named Giles Corey was 
literally placed between boards and crushed to death.
    For the President to say he is being treated worse than the 
Salem witch trials is unhinged, just like so many of the 
missives on impeachment.
    I know a little bit about the Salem witch trials because I 
am from Massachusetts. And here is a little more history about 
Massachusetts. It was our forebearers who were killed in the 
Boston Massacre, and who fired the shot heard round the world 
at Lexington and Concord. It was our Commonwealth that stood up 
to a tyrannical king and insisted that rights come from the 
consent of the governed and not the whims of a monarch.
    In his letter, the President even writes, and I quote, ``I 
have no doubt that the American people will hold you and the 
Democrats fully responsible in the 2020 election,'' end quote. 
The President just doesn't get it. This is not about his 
reelection. It is not about anyone's political future. Our 
Founders handed us a fragile thing more than 200 years ago, an 
experiment in self-government, a fledgling democracy, unlike 
anything else on Earth at the time, a republic of, by, and for 
the people.
    So, this is about whether we, the people sent to Congress, 
are willing to stand up and protect that fragile idea that has 
been entrusted to all of us. We shaped this democracy day by 
day, vote by vote. Some votes are more arcane than others, but 
each and every one helps to decide the kind of country we are 
going to be.
    You know, voting on impeachment is particularly important. 
It will define our democracy from here on out. Not a single 
Republican today even hinted that what the President did was 
wrong. It was wrong. It was wrong. And for me, I will leave 
here today with a clear conscience.
    I don't know if President Trump is watching right now. But 
if he were, I would say to him, Mr. President, this is not 
about you. This is about all of us, what kind of behavior we 
are willing to tolerate from whoever sits in the Oval Office, 
and whether we live up to the idea of a government of, by, and 
for the people.
    ``A Republic, if you can keep it.'' I began this hearing by 
quoting those famous words from Benjamin Franklin. No one 
wanted to be here today. But I am proud when history called 
upon us, we fought to keep the vision of our Founders alive in 
our time. We fought to keep this Republic intact.
    So, this has been a long day; and tomorrow promises to be a 
long day. Even though we had disagreements in this committee, 
as I said before, I am proud of each and every member of this 
committee. I mean, we, I think, showed that you can actually 
have difficult discussions and be civil and be serious. And I 
think, no matter where we fall on this issue, I think that is 
something we all should be proud of.
    So, I thank everybody and the question is now on the motion 
offered by the gentlewoman from Pennsylvania, Ms. Scanlon.
    All those in favor will say aye. Aye. All those opposed, 
no. No. In the opinion of the chair the ayes have it. The 
motion is agreed to.
    Mr. Cole. We would ask for the yeas and nays.
    The Chairman. The yeas and nays have been requested.
    The clerk will call the roll.
    The Clerk. Mr. Hastings?
    Mr. Hastings. Aye.
    The Clerk. Mr. Hastings, aye.
    Mrs. Torres?
    Mrs. Torres. Aye.
    The Clerk. Mrs. Torres, aye.
    Mr. Perlmutter?
    Mr. Perlmutter. Aye.
    The Clerk. Mr. Perlmutter, aye.
    Mr. Raskin?
    Mr. Raskin. Aye.
    The Clerk. Mr. Raskin, aye.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    The Clerk. Ms. Scanlon, aye.
    Mr. Morelle?
    Mr. Morelle. Aye.
    The Clerk. Mr. Morelle, aye.
    Ms. Shalala?
    Ms. Shalala. Aye.
    The Clerk. Ms. Shalala, aye.
    Mr. DeSaulnier?
    Mr. DeSaulnier. Aye.
    The Clerk. Mr. DeSaulnier, aye.
    Mr. Cole?
    Mr. Cole. No.
    The Clerk. Mr. Cole, no.
    Mr. Woodall?
    Mr. Woodall. No.
    The Clerk. Mr. Woodall, no.
    Mr. Burgess?
    Dr. Burgess. No.
    The Clerk. Mr. Burgess, no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    The Clerk. Mrs. Lesko, no.
    Mr. Chairman?
    The Chairman. Aye. The clerk will report the total
    The Clerk. Nine yeas, four nays.
    The Chairman. The ayes have it. The motion is agreed to. 
Accordingly, I will manage this rule for the majority.
    Mr. Cole. And I will manage it for the Republicans.
    The Chairman. Again, I thank everybody.
    And without objection----
    Mr. Cole. Just for the record, Mr. Chairman, we talk about 
democracy and the Federal system. We ought to remember the year 
before confederacy----
    The Chairman. Absolutely.
    Mr. Cole [continuing]. Before our brave----
    The Chairman. I agree.
    Mr. Cole [continuing]. Massachusetts that understood 
something about democracy and federalism.
    The Chairman. I agree with you.
    Without objection, the committee is adjourned.
    [Whereupon, at 9:09 p.m., the committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
</pre></body></html>
